<html>
<title> - H.R. 1811, H.R. 2386 and H.R. 5081</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                  H.R. 1811, H.R. 2386 and H.R. 5081

=======================================================================

                       JOINT LEGISLATIVE HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                             joint with the

              SUBCOMMITTEE ON NATIONAL PARKS, RECREATION,
                            AND PUBLIC LANDS

                                and the

                SUBCOMMITTEE ON FISHERIES CONSERVATION,
                          WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             July 25, 2002

                               __________

                           Serial No. 107-145

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov



                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003

80-967 PS

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              Anibal Acevedo-Vila, Puerto Rico
Greg Walden, Oregon                  Hilda L. Solis, California
Michael K. Simpson, Idaho            Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona               Tim Holden, Pennsylvania
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                   SCOTT McINNIS, Colorado, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
John E. Peterson, Pennsylvania,      Tom Udall, New Mexico
  Vice Chairman                      Mark Udall, Colorado
Mark E. Souder, Indiana              Rush D. Holt, New Jersey
Michael K. Simpson, Idaho            Anibal Acevedo-Vila, Puerto Rico
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho
                                 ------                                
       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
           ROBERT A. UNDERWOOD, Guam, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey,              Neil Abercrombie, Hawaii
  Vice Chairman                      Solomon P. Ortiz, Texas
Richard W. Pombo, California         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North 
    Carolina
                                 ------                                

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
 Joel Hefley, Colorado                   Samoa
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                Anibal Acevedo-Vila, Puerto Rico
Chris Cannon, Utah                   Hilda L. Solis, California
Bob Schaffer, Colorado               Betty McCollum, Minnesota
Jim Gibbons, Nevada
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 25, 2002....................................     1

Statement of Members:
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland, Prepared statement on H.R. 1811, 
      H.R. 2386 and H.R. 5081....................................    62
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah, Prepared statement on H.R. 2386.............    62
    McInnis, Hon. Scott, a Representative in Congress from the 
      State of Colorado..........................................    42
        Prepared statement on H.R. 1811..........................    44
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................    54
        Prepared statement on H.R. 5081..........................    55
    Udall, Hon. Tom, a Representative in Congress from the State 
      of New Mexico..............................................    59

Statement of Witnesses:
    Barnett, Sherry, Deputy Assistant Director, Renewable 
      Resources and Planning, Bureau of Land Management, U.S. 
      Department of the Interior.................................     2
        Prepared statement on H.R. 2386..........................     4
    Cable, Linda, County Administrator, Swain County, North 
      Carolina, on behalf of the National Association of Counties 
      and the County Commissioners Association of North Carolina.    51
        Prepared statement on H.R. 1811..........................    53
    Davis, Hon. Don, Commissioner, Rio Blanco County, Colorado, 
      on behalf of the National Association of Counties and 
      Colorado Counties, Inc.....................................    48
        Prepared statement on H.R. 1811..........................    49
    Horn, William P., America Outdoors...........................     6
        Prepared statement on H.R. 2386..........................     8
    Kearney, Chris, Deputy Assistant Secretary, Policy and 
      International Affairs, U.S. Department of the Interior.....    44
        Prepared statement on H.R. 1811 and H.R. 5081............    46
    Kimbell, Abigail, Associate Deputy Chief, Forest Service, 
      U.S. Department of Agriculture.............................    16
        Prepared statement on H.R. 2386..........................    18
    Mackey, Craig W., Public Policy Liaison, Outward Bound USA...     9
        Prepared statement on H.R. 2386..........................    11
    Wallace, C. Brent, County Administrator, Tuolumne County, 
      Sonora, California.........................................    56
        Prepared statement on H.R. 1811 and H.R. 5081............    57

 LEGISLATIVE HEARING ON H.R. 1811 TO PROVIDE PERMANENT FUNDING FOR THE 
 PAYMENT IN LIEU OF TAXES PROGRAM AND FOR OTHER PURPOSES; H.R. 2386 TO 
  ESTABLISH TERMS AND CONDITIONS FOR USE OF CERTAIN FEDERAL LANDS BY 
OUTFITTERS AND TO FACILITATE PUBLIC OPPORTUNITIES FOR THE RECREATIONAL 
USE AND ENJOYMENT OF SUCH LANDS; AND H.R. 5081 TO PROVIDE FULL FUNDING 
   FOR THE PAYMENT IN LIEU OF TAXES PROGRAM FOR THE NEXT FIVE FISCAL 
YEARS, TO PROTECT LOCAL JURISDICTIONS AGAINST THE LOSS OF PROPERTY TAX 
 REVENUES WHEN PRIVATE LANDS ARE ACQUIRED BY A FEDERAL LAND MANAGEMENT 
                    AGENCY, AND FOR OTHER PURPOSES.

                              ----------                              


                        Thursday, July 25, 2002

                     U.S. House of Representatives

       Subcommittee on Forests and Forest Health, joint with the

      Subcommittee on National Parks, Recreation, & Public Lands &

       Subcommittee on Fisheries Conservation, Wildlife & Oceans

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittees met, pursuant to call, at 10:15 a.m., in 
room 1334, Longworth House Office Building, Hon. Scott McInnis 
[Chairman of the Subcommittee on Forests and Forest Health] 
presiding.
    Mr. McInnis. The Committee will come to order.
    I apologize for the delay, but the House finished last 
night about 2:30 in the morning. So the absence of our members, 
they are probably all snoozing, trying to get some sleep.
    The Subcommittees on Forests and Forest Health; Fisheries 
Conservation, Wildlife, and Oceans; and National Parks, 
Recreation and Public Lands is now in order.
    The Subcommittees are meeting today to hear testimony on 
H.R. 5180, to direct the Secretary of Agriculture to convey 
real property in the Dixie National Forest in the State of 
Utah; H.R. 2386, outfitter policy of 2001; H.R. 1811, PILT and 
Refuge Revenue Sharing permanent funding Act; H.R. 5081, 
Property Tax Endowment Act of 2002; and H.R. 5032, to convey 
National Forest System lands in the Mendocino National Forest 
of California, to authorize the use of proceeds from such 
conveyances for National Forest purposes.
    Two of the bills on our agenda today weren't jointly 
referred, H.R. 5180 and 5032. Because of members' schedules, 
H.R. 5180 will be first on the agenda, and 5032 will be at the 
end. Also, because of today's tight schedule, I am going to ask 
that each of the Ranking Members and Chairmen from the other 
Subcommittees simply submit their statements for the record. 
Thank you.
    I ask unanimous consent that Representative Mike Thompson 
of California have permission to sit on the dais and 
participate in the hearing when he arrives. Hearing no 
objection, it is so ordered.
    The first two bills on the agenda are the Chairman's H.R. 
5180 and H.R. 2386.
    I would like to introduce our witnesses from the Department 
of Agriculture and Interior. Ms. Sherry Barnett, Deputy 
Assistant Director, Renewable Resources, Bureau of Land 
Management, will be testifying on H.R. 2386. Ms. Abigail 
Kimbell, Associate Deputy Chief, National Forest System, will 
be testifying on each of the bills. I am going to ask that all 
of you remain at the witness table and testify on each of the 
bills with the other witnesses.
    Our other witnesses for H.R. 5180 are Mr. Kirk Harrison, 
property owner, State of Utah; and on H.R. 2386, we will have 
Mr. Horn with America Outdoors, and Mr. Mackey, Public Policy 
Liaison, Outward Bound USA.
    I would remind all the witnesses that we do restrict your 
comments to 5 minutes. I ask that you as a courtesy recognize 
that and would ask all the witnesses to go ahead and be seated 
at the table.
    Welcome to the witnesses. I think we will go ahead and 
start right off. I have no opening statement, and any statement 
that I have I will go ahead and submit the comments for the 
record.
    Mr. McInnis. I now recognize Ms. Barnett for her statement.

    STATEMENT OF SHERRY BARNETT, DEPUTY ASSISTANT DIRECTOR, 
         RENEWABLE RESOURCES, BUREAU OF LAND MANAGEMENT

    Ms. Barnett. Mr. Chairman, thank you for the opportunity to 
testify today on H.R. 2386, the Outfitter Policy Act of 2001.
    The Department appreciates the need to establish consistent 
terms and conditions for outfitter and guide services and the 
continuing need to enhance opportunities for recreational use 
of public lands. Outfitters and guides are important partners 
to the Department. More than just visitor service providers, 
outfitters and guides are critical Ambassadors and extensions, 
if you will, of the public land agencies in providing safe and 
enjoyable trips or activities for millions of visitors using 
their public lands.
    The Department supports the purpose of H.R. 2386 and shares 
a common goal to develop consistent terms and conditions while 
facilitating public opportunities for recreational use and 
enjoyment of the public lands. However, we note that the 
Department is currently developing new regulations that we 
believe will address many of the purposes of this legislation. 
Also, the Department does have concerns with some of the 
provisions as outlined in the current bill. We look forward to 
working closely with the Committee to address them so that we 
can provide the best services to both outfitters and visitors 
on our public lands.
    We also want to ensure that these policies are beneficial 
to the visiting public, are fair and equitable and are 
efficient, consistent, collaborative, convenient and 
accountable.
    Outfitters and guides are critical providers of visitor 
services, ranking from river rafting, back country horse pack 
trips, wilderness adventures, dog mushing, and a variety of 
other activities on the public lands.
    To manage these outfitting services provided by public 
entities, long-term policies and regulations, including a 
permit system, have been in place for many years for all 
agencies within the Department. While outfitters and guides are 
important providers to visitors to the U.S. Fish and Wildlife 
Service refuges and Bureau of Reclamation projects, the 
majority of outfitter and guide permits, well over 3,000, are 
issued and managed by the Bureau of Land Management into the 
large acreage and the diverse resources managed by the BLM 
throughout the Western States.
    The Department is committed to further enhancing our 
regulatory framework as identified in H.R. 2386. Recently, BLM 
has been reviewing policies and procedures and developing 
updated regulations for managing the partnerships between 
outfitters, guides, and the Department. Most of the goals in 
H.R. 2386 are currently contained in existing BLM regulation 
and policy and are further addressed in the new regulations now 
under review.
    H.R. 2386 proposes a term of 10 years for all outfitter 
permits. The Department can support a term of a permit for up 
to 10 years as outlined in the legislation, providing that 
flexibility is allowed for agencies such as the BLM to respond 
to changes in resource conditions or other reasonable and 
substantial changes such as resource management plan updates or 
other unforeseen changes in public demand in a given field 
location.
    While the Department recognizes that small business owners, 
such as most outfitters and guides, often face the need for 
more stability in order to secure financing, insurance and 
other demands, it is important that the agency retain the 
flexibility to manage the issues with outfitters and guides, 
specifically issues that could affect visitor safety, resource 
responsibilities, or some other change in the original permit. 
Such a policy would balance the principles of efficiency and 
convenience, while ensuring that the visiting public benefits 
and BLM is accountable to the public for the resources that it 
manages.
    H.R. 2386 addresses allocation of use. For the BLM, the 
proposed 508 location of use provisions in the bill are a 
conflict with current regulations and policy.
    Under current law and policy, BLM allows outfitters and 
guides as much freedom as possible under a special recreation 
permit to operate and use lands as they need to operate their 
business and provide services to the visitors. Specific 
allocations are only granted when there has been an established 
limit of use allowed in a particular area as a result of 
analysis, public involvement, consultation through the resource 
management plan process, and an environmental impact statement.
    Although an allocation of use may be more secure, such a 
policy would compromise the principles of fairness, efficiency, 
and accountability,k and it may not be beneficial to the 
visiting public. We would be happy to work with the Committee 
on this issue to better balance these principles so that the 
outfitters can maximize their operations while providing 
quality visitor services.
    The Department is concerned about provisions for temporary 
permits. The Department suggests temporary permits should have 
terms not exceeding a year. This method has worked well. It is 
fair, consistent, efficient; it requires accountability; and, 
it provides flexibility to the Department so that we can 
maintain the highest standards required under existing law and 
policy for visitor protection and resource management. The 
allocation of use for temporary or transferred permits as 
allowed for in H.R. 2386 raise similar concerns as expressed 
earlier for permanent permittees.
    We would also like to work with the Committee on the 
provision in the legislation to ensure timely processing and 
approval of transfer permits.
    H.R. 2386 contains many positive goals and procedures for 
outfitter and guide services on public lands managed by the 
Department.
    Mr. Chairman, while we discussed most of our concerns 
today, let me assure you, we stand ready to assist and address 
remaining issues so the purposes of this legislation can be 
realized for the many partners that provide outfitter and guide 
services to many of the public land users. We have offered our 
concerns today in the spirit of maintaining the highest 
standards for the public and permittees providing outfitter 
services. Thank you for the opportunity to appear today to 
discuss these issues with the Outfitter Policy Act of 2001. I 
will be happy to answer any questions.
    Mr. McInnis. Thank you very much.
    [The prepared statement of Ms. Barnett follows:]

   Statement of Sherry Barnett, Deputy Assistant Director, Renewable 
 Resources and Planning, Bureau of Land Management, U.S. Department of 
                              the Interior

    Mr. Chairman, thank you for the opportunity to testify today on 
H.R. 2386, the Outfitter Policy Act of 2001. The Department appreciates 
the need to establish consistent terms and conditions for outfitter and 
guide services on public lands and the continuing need to enhance 
public opportunities for recreational use of Public Lands. Outfitters 
and guides are important partners to the Department. More than just 
visitor service providers, outfitters and guides are critical 
ambassadors and ``extensions'' of the public land agencies in providing 
safe and enjoyable trips or activities for thousands of visitors using 
their public lands.
    The Department supports the purpose of H.R. 2386 and shares a 
common goal to develop consistent terms and conditions while 
facilitating public opportunities for recreational use and enjoyment of 
public lands. However, we note that the Department is currently 
developing new regulations that we believe will address many of the 
purposes of this legislation. The Department does have concerns with 
some of the provisions as outlined in the current Bill. We look forward 
to working closely with the Committee to address them so that we can 
provide the best services to both outfitters and visitors on our public 
lands.
Relationship of H.R. 2386 to Existing Regulations and Policies
    Outfitters and guides are critical providers of visitor services 
ranging from river rafting, backcountry horse pack trips, wilderness 
adventures, and a myriad of other activities on public lands. To manage 
the outfitting services provided by private entities, long-term 
policies and regulations, including a permit system, have been in place 
for many years for all agencies within the Department. For the BLM 
these are codified as regulations (43 CFR 8372) and are managed through 
a Manual and Handbook to maintain consistency across the 262 million 
acres the agency manages. H.R. 2386 also affects other agencies within 
the Department: the U.S. Fish and Wildlife Service (USFWS), and the 
Bureau of Reclamation (Reclamation). At the USFWS, most outfitter or 
guide permits are handled through a permit system on a case by case 
method that considers biological soundness, economic feasibility, 
effects on other refuge programs, and public demand. Reclamation 
manages its outfitters and other visitor services, through commercial 
concession operations under a licensing authority using a special 
recreation permit. While outfitters and guides are important providers 
to visitors to USFWS refuges and Reclamation projects, the majority of 
outfitter and guide permits--well over 3,000--are issued and managed by 
the BLM due to the large acreage and diverse resources managed 
throughout the western states.
    Recently, BLM has been reviewing and updating policies and 
procedures to develop updated regulations for managing the partnership 
between outfitters, guides, and the Department. These regulations have 
not yet been finalized, but most of the goals in H.R. 2386 are 
currently contained in existing BLM regulation and policy as well as 
further addressed in the new regulations now under review. The 
Department is committed to further enhancing our regulatory framework 
as identified in H.R. 2386. We also want to ensure that these policies 
are beneficial to the visiting public, fair and equitable, efficient, 
consistent, collaborative, convenient, and accountable.
Special Recreation Permits
    Section 6(e)(1)(D) of H.R. 2386 proposes a term of 10 years for all 
outfitter permits. The Department can support the term of a permit for 
up to 10 years as outlined in the legislation providing that 
flexibility is allowed for agencies such as the BLM to respond to 
changes in resource condition or other reasonable and substantial 
changes such as Resource Management Plan (RMP) updates or other 
unforseen changes in public demand in a given field location. While the 
Department recognizes that small business owners, such as outfitters 
and guides, often face the need for more stability in order to secure 
financing, insurance, or other demands, it is important that the 
authorized officer in an agency has the flexibility to manage issues 
with an outfitter or guide that may affect visitor safety, resource 
responsibilities, or some other change in the original permit. Such a 
policy balances the principles of efficiency and convenience while 
ensuring that the visiting public benefits and that BLM is accountable 
to the public for the resources that it manages.
Allocation of Use
     H.R. 2386 addresses Allocation of Use in Sections 4(2) and (9). 
For BLM, the proposed allocation of use provisions in the Bill are a 
conflict with current policy and regulations. BLM issues permits on a 
first-come, first-serve basis until the affected area's desired use 
level is reached. The desired use level is determined primarily through 
the RMP process which is the primary tool under the Federal Land Policy 
and Management Act (FLPMA) to allocate use of Federal lands managed by 
the BLM. Under current law and policy, BLM allows outfitters and guides 
as much freedom as possible under a special recreation permit (SRP) to 
operate and use lands as they need to operate their business and 
provide services to the visitors. Specific allocations are only granted 
when there has been an established limit of use allowed in a particular 
area due to analysis, public involvement, and consultation through the 
RMP and associated Environmental Impact Statement (EIS). The provisions 
for allocation of use currently in H.R. 2386 conflict with these 
existing policies and laws and may also have the unintended consequence 
of limiting competition in a certain area, thereby compromising the 
competitive approach that currently provides the highest quality 
services for visitors. In addition, allocation of use could be contrary 
to the public interest currently protected under FLPMA by providing an 
implied or perceived ``right and ownership'' to the outfitter's permit 
contrary to current provisions. Although allocation of use may be 
convenient, such a policy also would compromise the principles of 
fairness, efficiency, accountability, and may not be beneficial to the 
visiting public. We would be happy to work on with the Committee on 
this issue to better balance these principles so that the outfitters 
can maximize their operations while providing quality visitor services.
Temporary Permits
    The Department is concerned about provisions for temporary permits. 
The Department suggests temporary permits should have terms not 
exceeding one year. Currently, a probationary period is granted to 
maintain the highest safety and resource protection values for 
visitors, while providing new outfitters and guides the opportunity to 
grow their business. If an outfitter's performance is found to be 
satisfactory, a second one year extension is easily granted. This 
method, which is fair, consistent, efficient, and requires 
accountability, has worked well while providing flexibility to the 
Department to maintain the highest standards required under existing 
law and policy for visitor protection and resource management.
Transfer of Temporary Permits
    The allocation of use for temporary or transferred permits, as 
allowed for in H.R. 2386, raise similar concerns as expressed earlier 
for permanent permittees. We would like to work with the Committee on 
the provision in the legislation for the threshold for automatic 
approval of transfer permits. As written in H.R. 2386, the 90 day 
threshold for automatic transfer may cause unintended problems for both 
the agencies and the outfitter permittees in complex cases or in the 
case of unforseen workload issues.
Fee Structure Issues
    While many of the provisions in H.R. 2386 for fees are consistent 
with current regulation, a fee structures based on whether a permittee 
can conduct a ``successful business venture``may not be fair and 
equitable, consistent, efficient, and accountable. While the agencies 
strive to work in the most reasonable way to accommodate the needs of 
running an outfitting or guide service, fees for commercial operations 
on public lands must provide a fair market return to the American 
public. Existing regulation provides a fair and equitable fee structure 
that has been working well for both outfitters and the Department's 
land managing agencies.
Access to Records and Performance
    We would like to work with the Committee to clarify the provisions 
in H.R. 2386 for access and auditing of business records and 
performance evaluation procedures. While we agree with the principle of 
accountability and with most of the provisions in H.R. 2386 for these 
activities, we would like to suggest some clarification amendments to 
protect the public interest in these permits and maintain the highest 
and fairest methods for managing the outfitter and guide services 
provided to the public.
Conclusion
     H.R. 2386 contains many positive goals and procedures for 
outfitter and guide services on public lands managed by the Department. 
Mr. Chairman, while we discussed most of our concerns today, let me 
assure you we stand ready to assist and address remaining issues so 
that the purposes of this legislation can be realized for the many 
partners that provide outfitting and guide services to millions of 
public land users. We have offered our concerns today in the spirit of 
maintaining the highest standards for the public and the permittees 
providing outfitter services.
    Thank you for the opportunity to appear today to discuss these 
important issues in the Outfitter Policy Act of 2001. I will be happy 
to answer any questions you may have.
                                 ______
                                 
    Mr. McInnis. Mr. Horn.

         STATEMENT OF WILLIAM P. HORN, AMERICA OUTDOORS

    Mr. Horn. Thank you, Mr. Chairman. I appreciate the 
opportunity to appear on behalf of America Outdoors.
    America Outdoors is a professional association of over 600 
outfitters, guides, dude ranchers, and others who provide a 
wide range of outdoor recreation services to the public. 
Substantial segments of the public need and rely on guides and 
outfitters to provide recreational access to the public lands.
    Indeed, the primary purpose of this bill is to ensure the 
accessibility to public lands by all segments of the population 
by assuring that quality recreational services are available. 
Indeed, the outfitted public, if you will, is the prime 
beneficiary of this measure; and we are fortunate that this 
element of the public has strongly supported Chairman Hansen's 
bill.
    I know that the Committee is in receipt of a letter from 
one noteworthy public user of guide services. Former Secretary 
of the Interior, Cecil Andrus, under President Carter, has 
written the Committee endorsing H.R. 2386 as a necessary and 
beneficial act to facilitate guide services and public access 
to public lands.
    The need for this bill arises from the inconsistent rules 
and policies implemented on the ground that often hinder or 
prevent guides and outfitters from providing quality services. 
Its inconsistent administration creates almost crippling 
uncertainties for many individuals; and we are able to provide 
this Committee with a litany of horror stories, if you will, 
that demonstrate the need for clear statutory guidance, 
statutory guidance that presently does not exist.
    We note that Congress has previously established statutory 
standards for the administration of guide and outfitter permits 
on National Park Service lands. America Outdoors is persuaded 
that it is fully appropriate to set similar legislative 
standards for other public land systems, including national 
forests, BLM lands, and wildlife refuge units.
    Now, the Outfitter Policy Act provides some of the basic 
terms and conditions necessary to sustain the substantial 
investment often needed to provide the level of service 
demanded and needed by the public. The bill also provides the 
agencies ample flexibility to adjust use, impose reasonable 
terms and conditions on permits, and to assure that the permit 
and permit administration is consistent with agency resource 
management plans and policies.
    We fully appreciate the need to protect and conserve the 
basic public land resources upon which guides and outfitters 
and the outfitted public have a chance to recreate. We need to 
state clearly and unequivocally that the bill does not allocate 
use opportunities for guides and outfitters. Allocation issues 
remain at the discretion of the land managing agencies under 
its other statutory and regulatory frameworks. There are no use 
ownership rights confirmed by this measure on permits issued, 
and the allocations that are issued may be changed subject to 
due process during the term of the permit. Any charges to the 
contrary that this bill creates use ownership in permits is 
trumped-up nonsense and belies a misreading of the legislation.
    One critical feature of the bill is its provision for 
performance-based renewal. Each outfitter is to be evaluated 
annually according to the services provided and rated by the 
agencies as good, marginal, or unsatisfactory; and an outfitter 
with more than one annual unsatisfactory rating does not earn 
the right to renewal. Consistent good performance is necessary 
to achieve that right, and the way the bill is written in 
essence is that an outfitter needs to bat 900. They need to 
provide satisfactory services 9 years out of 10 in order to 
assure a performance-based renewal. We believe that is an 
important incentive, but it sets a very, very high bar to 
assure that the public is being provided quality services 
during the terms of a permit.
    Now there have been questions about the need for the 
legislation, and some have contended that the agencies have 
sufficient authority. We, unfortunately, continue to encounter 
grossly inconsistent on-the-ground circumstances and an utter 
lack of stability in too many areas, and we are convinced that 
statutory guidance provided by this measure will indeed help 
eliminate these inconsistencies.
    On behalf of America Outdoors, we greatly appreciate the 
leadership of Chairman Hansen and other members of the 
Committee for introducing H.R. 2386; and we look forward to 
working with the Subcommittees, the Committee, and indeed the 
agencies to refine the measure and hope that it can be enacted 
within the context of this Congress. Thank you.
    Mr. McInnis. Thank you, Mr. Horn.
    [The prepared statement of Mr. Horn follows:]

             Statement of William P. Horn, America Outdoors

    Mr. Chairman: On behalf of America Outdoors, I appreciate the 
opportunity to appear before the Committee to register our strong 
support for H.R. 2386, the Outfitter Policy Act.
    America Outdoors is a professional association of outfitters, 
guides, dude ranchers and others who provide a wide range of outdoor 
recreation services to the public. With over 600 member entities, it 
represents outfitters and guides as well as the public they serve to 
maintain access to recreation resources while pursuing a goal of 
responsible shared use of our precious natural heritage.
    Substantial segments of the public need and rely on guides and 
outfitters to provide recreational access to public lands. These 
outfitters and guides provide opportunities for outdoor recreation for 
many families and groups who would otherwise find the backcountry 
inaccessible. To ensure accessibility to public lands by all segments 
of the population, quality recreation services must be available to the 
public. That is the primary purpose of the Outfitter Policy Act.
    The outfitting business is highly competitive. Multiple operators 
provide the same or similar services at most resources. H.R. 2386 
assures competition that drives quality services and will provide a 
level, consistent regulatory playing field for those outfitters. 
Present inconsistent rules and policies often hinder or prevent guides 
and outfitters from providing quality services, and inadequately 
provide for evaluation of guide/outfitter operations to encourage and 
assure quality services. Inconsistent administration of existing 
policies also creates often crippling uncertainties for quality 
operators.
    Congress has previously established statutory standards for 
administering guide/outfitter permits on National Park Service (NPS) 
lands. Therefore, it is appropriate to set similar legislative 
standards for other public land systems including National Forests and 
public domain administered by the Bureau of Land Management.
    Congress has previously determined that guides and outfitters need 
reasonable permit terms and conditions and has addressed in NPS 
concessions legislation permit length, performance evaluation, 
renewals, fair fees, and regulated transfer of permits. The Outfitter 
Policy Act provides the basic terms and conditions necessary to sustain 
the substantial investment often needed to provide the level of service 
demanded by the public. However, the bill provides the agencies ample 
flexibility to adjust use, conditions and permit terms, which must be 
consistent with agency management plans and policies for the resource. 
A stable, consistent regulatory climate which encourages qualified 
entrants to the guide/outfitting business and gives the agencies and 
operators clear directions are among the goals of the bill.
    We need to state clearly and unequivocally the bill does not 
allocate use opportunities to guides and outfitters. Allocation issues 
remain at the discretion of the land managing agencies. There are no 
``use'' ownership rights associated with permits since use allocations 
may be changed, subject to due process, during the term of the permit. 
Also, Section 5 of the bill specifically protects the rights of private 
citizens to use their public lands without the services of a guide or 
outfitter.
    America Outdoors has worked hard and long with Federal agency 
officials on this measure. Over a two-year period more than 125 
technical and substantive changes were incorporated into the draft 
legislation to accommodate agency interests. For example, references to 
``profit'' were changed to ``successful business venture'' to reflect 
the agency concerns that the legislation should not infer any right for 
a outfitter/guide to realize a profit. Language setting a two-year 
probationary period for new authorized outfitters was added. The 
liability section was completely rewritten to balance the interests of 
the agencies and those of the outfitters. Most importantly, amendments 
were added to expressly authorize changes in permit terms and 
conditions, at agency discretion, to reflect changed environmental 
conditions or circumstances. Our review of H.R. 2386 indicates that the 
agencies concerns are fully reflected in its text.
    The bill provides for performance-based renewal. Each outfitter is 
evaluated according to the services provided and rated ``good,'' 
``marginal,'' or ``unsatisfactory.'' An outfitter with more than one 
annual ``unsatisfactory'' rating does not earn the right of renewal. 
Consistent good performance enables an outfitter to obtain renewal of a 
permit without engaging in a new round of bidding. This renewal system 
encourages outfitters to provide quality services by providing them 
with incentive to maintain a high level of service. By allowing an 
outfitter to ``earn'' renewal through quality outfitting services, the 
agencies can ensure that outfitters maintain quality operations and 
invest the capital needed to provide these services.
    There have been questions about the need for this legislation. Some 
have contended that the agencies have sufficient authority to achieve 
these goals and no statutory guidance is necessary. Unfortunately, 
outfitters and guides continue to encounter grossly inconsistent 
directions from land managers and an utter lack of stability in too 
many areas. Last week we learned of a case that is symptomatic of the 
problems this bill would correct. Two years ago an outfitter was 
directed by the Forest Service to upgrade the facilities at one of its 
camps. As a result, the outfitter invested thousands of dollars in new 
tents, tent frames, and a small boardwalk system which were all 
approved by the responsible Federal official. The agency also directed 
the outfitter to work with a state agency on water quality issues. The 
state agency insisted that traditional pit toilets were inadequate and 
ordered that a small septic system be installed. At substantial cost, 
the outfitter complied.
    Then a new Federal District Ranger assumed office. The outfitter 
was informed that the upgraded facilities were insufficiently 
``temporary'' and would have to be either substantially scaled down or 
removed. Additionally, the new official objected to the septic system, 
questioned the jurisdiction of the state agency in the matter, and has 
told the outfitter that the septic system will likely have to removed 
at the outfitter's cost. To make matters worse, this outfitter is 
presently operating on annual permits and the Ranger has specified that 
compliance will be an ``ongoing process'' and that ``annual 
modifications (to his permit) are highly likely.'' The outfitter faces 
bankruptcy if compliance with the new edicts a complete reversal of the 
prior directions is enforced. These kinds of horror stories come up 
often and demonstrate the need for statutory standards. At present, the 
agencies have almost unfettered discretion which can be too readily 
abused.
    In addition, as noted earlier, Congress has twice addressed these 
issues with respect to outfitter and guide operations on National Park 
Service lands. Statutory standards were first established in 1965 in 
the original concessions Act and that system was amended with 1998 
legislation. It is clearly appropriate to set similar statutory 
standards for other public land systems.
    America Outdoors greatly appreciates the leadership of Chairman 
Hansen and other Members of the Committee for introducing H.R. 2386. 
The case for this legislation is clear and we stand ready to work with 
Committee in any way that we can to secure enactment of this important 
bill.
                                 ______
                                 
    Mr. McInnis. Mr. Mackey.

     STATEMENT OF CRAIG W. MACKEY, PUBLIC POLICY LIAISON, 
                       OUTWARD BOUND USA

    Mr. Mackey. Thank you. Good morning, Mr. Chairman, and 
members of the Committee.
    I am Craig Mackey and I represent Outward Bound USA, a non-
profit educational institution and a leader in wilderness and 
experiential education. For over 40 years, Outward Bound has 
had the privilege of conducting extended back country 
expeditions to teach young people leadership, self-reliance, 
and outdoor skills. Federal lands and waters are our 
classrooms.
    I represent a leader in wilderness education. I also speak 
to you as an outfitter. All of Outward Bound's use on Federal 
lands is fully authorized commercial or outfitted use.
    Since 1994, Outward Bound has worked with the outfitter 
community, Congress, and the Federal land agencies on 
concessions and permit reform. Through numerous negotiations 
and bills, Outward Bound has focused on five consistent themes:
    No. 1, the key roll educators like Outward Bound and other 
outfitters play in providing a vast array of quality 
opportunities and experiences on Federal lands.
    No. 2, the growing role outfitters play in furthering 
agency objectives, such as education, interpretation, safety, 
and resource protection.
    No. 3, the need for and benefits of congressional action in 
establishing the foundation and philosophy for outfitted 
activities and use on Federal lands.
    No. 4, the tangible benefits to the public, the outfitter, 
the manager of a performance-based system for the award and 
renewal of special use permits.
    And, No. 5, inherent to this performance-based system is 
the subordination of fees or revenue generation for the 
agencies or the Federal treasury.
    I am here to testify this morning because all five of these 
themes are embodied in H.R. 2386. And why is it important to 
testify this morning?
    First, we support the codification of outfitting and 
guiding in law. The connection between the outfitter and the 
American public is undeniable. Americans continue to look to 
public lands for adventure and renewal. Many look to outfitters 
to provide the access, the equipment, the expertise, and the 
interpretation. What the outfitters seek is recognition of 
these partnerships and the value they provide to both visitors 
and our Federal system of public lands.
    Second, we are here to promote accountability and 
incentives. Accountability, incentives, and performance are 
intertwined. The goal should be to identify and retain 
outfitters who will team with the agencies in providing quality 
visitor services, education and interpretation, resource 
protection, and a fair return to the government.
    Third, we are concerned about trends evolving in the field. 
Outfitters are not afraid of competition. We operate daily in a 
highly competitive market-based economy. We are concerned about 
competition for competition's sake. The market is competitive, 
turnover exists, and turnover is not always healthy. Regional 
permit administrators will tell you that business failures 
among new permittees are a leading administrative and fiscal 
drain for the agencies.
    Outfitters are not afraid of appropriate fees. Outward 
Bound may pay more fees on more Federal units than any single 
entity in the country, and we do so willingly for the privilege 
of operating on the greatest system of public lands in the 
world. We are concerned about competitive or open fee bidding 
for the permits. The danger is the enhancement of Federal or 
field office revenues at the cost of quality programs and 
services, and let me provide one quick illustration.
    Service is at the core of Outward Bound. Young people 
repair trail or build bridges to learn teamwork, citizenship, 
and community values. Outward Bound wrote the book on safety 
protocols for wilderness adventure and outdoor education 
programs. We raise over $2 million a year in scholarship funds 
to promote economic, ethnic, gender, and age diversity in our 
programming on public lands; and we teach with at least two 
instructors on every course to maximize safety and educational 
paradigms.
    Each of these elements is at the core of Outward Bound, 
woven into our mission part of how we do business. Each has 
become a formal or de facto partnership with our public lands, 
but all would be jeopardized by fee bidding. If the goal is 
management based on common mission, partnerships, incentive, 
and performance, what the agencies need is a strong program to 
evaluate outfitters. This includes the authority and will to 
eliminate inappropriate practices and bad outfitters. It also 
includes the tools and capacity to clean up illegal outfitting. 
The agency will find quality outfitters willing to work under 
tough compliance standards if afforded the incentives of 
performance-based renewal.
    I would be happy to answer any questions. Thank you.
    Mr. McInnis. Thank you, Mr. Mackey.
    [The prepared statement of Mr. Mackey follows:]

  Statement of Craig Mackey, Public Policy Liaison, Outward Bound USA

    Mr. Chairman and members of the Committee, Outward Bound would like 
to thank you for the opportunity to address this hearing on the 
Outfitter Policy Act.
    I represent Outward Bound USA, a non-profit educational institution 
and a leader in wilderness and experiential education. For 40 years, 
the Outward Bound system has teamed with America's wild lands to 
provide adventure-based education to youth and adults. Outward Bound 
has the privilege of conducting extended backcountry expeditions 
primarily on public lands to teach leadership, personal development and 
wilderness values.
    The Outward Bound system in this country comprises five wilderness 
schools and two urban centers. We operate in 25 states and scores of 
forests, ranger districts and resource areas. From the Carolinas to 
Alaska; from the forests of New England to the Sierras; Outward Bound 
has four decades of experience dealing with an astonishing array of 
permits, policies and administrative procedures.
Outfitted Use
    I speak to you today representing a leader in the non-profit 
wilderness and experiential education communities. I also speak to you 
and an outfitter and guide. Outward Bound as is the case with sister 
organizations such as the National Outdoor Leadership School (Lander, 
WY) and Wilderness Inquiry (Minneapolis, MN) operates as a full 
``commercial'' user of Federal lands. As a non-profit, educational 
organization we compete for and hold Federal concessions authorizations 
in the same manner as for-profit members of the outfitting and guiding 
industry. All of Outward Bound's operations on Federal lands are fully 
authorized concessions or permits for which we compete for use, comply 
with administrative procedures and pay appropriate fees.
    At this juncture, I should state that the Outward Bound system is 
in full support of this classification as commercial users of Federal 
lands. In valuing our ongoing partnerships with land managers and 
America's wild lands, Outward Bound recognizes the need for and merits 
of proper administration and management of these resources. This 
includes competing for and defending our use; performing as an 
accountable user of public resources; protecting the public health and 
safety; paying an equitable and appropriate share of the cost of 
administration and management; and working with land managers to 
educate the American people on natural resources, public lands, 
responsible recreation and wilderness values.
    Effective and efficient permit administration should work to 
strengthen these relationships by recognizing and sustaining the 
highest quality visitor services and partnerships.
Partners on Public Lands
    Wilderness educators such as Outward Bound and other members of the 
outfitter community play vital roles in working with Federal resource 
managers to meet the demand for quality educational and recreational 
opportunities, and in meeting agency missions related to interpretation 
and resource protection.
    The importance of outfitters and guides as partners and service 
providers is acknowledged by the Forest Service in its publication in 
1997 of a staff reference entitled ``Guidebook on Outfitting and 
Guiding``:
        On the public lands of the United States, and in particular the 
        National Forests, outfitter and guides provide visitors seeking 
        their assistance a quality experience as an extension of the 
        agency's mission. Outfitting and guiding provides a small 
        fraction of the total visitor days experience on the National 
        Forests, but it is an important segment to the visitor, the 
        agency, the resources and the economy of the communities where 
        outfitters are based.
    Through legislation such as H.R. 2386, Congress must establish the 
foundation or the vision from which the agencies and their private-
sector partners can collaborate to meet the public's goals and 
aspirations in utilizing their public lands. The agencies' challenge is 
to identify and retain those permittees that will:
    <bullet> LPartner with the agency in providing quality visitor 
services.
    <bullet> LPartner with the agency in protecting the resource.
    <bullet> LPartner with the agency in providing educational and 
interpretive services.
    <bullet> LProvide a reasonable return to the agency.
Public Lands: A Spectrum of Values, Benefits and Opportunities
    Public lands and waters host an incredible range of values and 
benefits. The American people draw from and visit their public 
resources in a broad array of ways and means. An increasingly diverse 
America looks to public lands to satisfy ever broadening wants and 
needs.
    In frontcountry, backcountry and wilderness management, agencies 
staff needs to recognize that each unit holds an inherent range of 
values: recreational, educational, biological, cultural, spiritual, 
historical and others. In addition to resource protection, a 
fundamental element of each agency's mission is to identify, manage 
for, provide interpretive services about, and accommodate public 
interest in the elements that constitute each unit's inherent values.
    Key provisions of H.R. 2386 relating to performance-based renewal, 
fee considerations, etc., will allow educators, outfitters and guides 
to provide diversity in the commercial opportunities offered on public 
lands and the people who enjoy them.
The Outfitted Public
    By choosing to visit public lands under the guidance of trained, 
professional instructors, Outward Bound students become members of the 
outfitted public. For many of our students this is their first exposure 
to Federal lands and certainly to the vast tracts of wilderness and 
backcountry America has to offer. Given the young age of our students, 
parents are looking for the experience and safety offered by 
professional programs such as Outward Bound. Older students come for 
the Outward Bound experience, but also to learn the wilderness ethic, 
stewardship and safety skills that will allow them to be intelligent, 
efficient users of our public resources.
    Given the dramatic decline in agency field staff assigned to 
wilderness and backcountry management, Outward Bound has now become a 
de facto provider of educational, interpretive and safety information 
on resources where we operate.
    People want to know more about the wild lands they visit. This 
knowledge makes a difference in their lives. It increases their own 
quality of living. The majority of Americans polled recently by Roper 
Starch believe that even the unstructured experiential aspects of 
outdoor recreation play a positive role in reducing various key social 
concerns, such as childhood obesity, parent/child communication, and 
tough social problems such as juvenile crime, underage drinking, and 
illegal drug use. Lessons learned in wilderness make us less tolerant 
of urban decay when we return home, and more prepared to take effective 
action to improve our communities:
        The importance of recreational use as a social force and 
        influence must be recognized and its requirements met. Its 
        potentialities as a service to the American people, as the 
        basis for industry and commerce, as the foundation of the 
        future economic life of many communities, are definite and 
        beyond question.
                                          Robert Y. Stuart 
                              Forest Service Chief, 1928-33

    Who will teach these important lessons to visitors to public lands? 
Too few personnel in the field and an overwhelming workload have 
distanced rangers from their role as hosts in parks, forests, and on 
public lands. Agency personnel simply cannot reach out to each of the 
millions of families and individuals that visit each year. Face to face 
interpretive talks in visitor centers are an important component of the 
educational effort, but these are not the same opportunities to educate 
as those teachable moments that occur from one minute to the next on an 
extended outfitted expedition.
Codification of Outfitting and Guiding
    Given the historical and ongoing role of outfitting and guiding on 
Federal lands, and the sizeable and growing body of Federal regulation, 
Congress needs to play a direct role in establishing the philosophy and 
direction of Federal oversight. Congress has established and updated 
statutes for administering outfitter activities in the National Park 
Service.
     H.R. 2386, by establishing similar legislative guidelines for the 
Forest Service and Bureau of Land Management, will provide direction 
and consistency for outfitters and the outfitted public.
    If providing the public with high quality commercial recreation and 
education services while preserving the resource for future generations 
are the goals; Federal statute and agency regulation must:
    <bullet> LRecognize both the role and value of outfitters and 
guides in providing access to and enjoyment of quality recreation and 
education experiences.
    <bullet> LRecognize the outfitters need for a reliable and stable 
business climate. Beginning with reliable and consistent permit 
mechanisms, resource managers have an obligation to work with 
commercial operators in a manner that is consistent with the 
development and operation of successful, competitive, long-term 
business operations.
    <bullet> LEstablish incentives for managers and concessioners to 
effectively meet public demand for commercial services on public lands 
while satisfying agency mandates for resource protection. For 
outfitters and guides, the foundation should be performance-based 
permit renewal based on a system of regular performance evaluations.
    <bullet> LCreate incentives for sound resource management and 
stewardship. Incorporation of resource protection and visitor education 
elements in performance standards will establish outfitters as full 
partners in ensuring these resources remain unimpaired for future 
generations.
    <bullet> LRecognize and accommodate the full spectrum of outfitted 
services provided on these Federal lands. For most outfitters, the full 
range of ``market forces'' is a daily reality, including strong 
competition and the need to excel through superior customer service.
    <bullet> LRecognize the undeniable role fees will play in the 
future of authorized use on public lands. The goal should be to ensure 
that franchise and user fees equitably compensate for the privilege of 
operating a business on public lands. Return to the government, while a 
fundamental element in the awarding and renewal of permits, should not 
supplant customer service and resource protection as the primary 
factors in these processes. Fees should be applied equitably across all 
public land users and user groups. Fees should stay with the resource 
or collecting agency. Franchise and user fees should be used to 
supplement, not supplant, congressional appropriations.
    Each of these elements is represented in H.R. 2386.
Performance as the Foundation
    In the long run, effective management is predicated on determining 
the public demand for goods and services and identifying and retaining 
quality operators to meet those demands. A system which provides 
incentives for the resource manager and the permittee will prove to be 
the most effective and efficient, serve the needs of the manager and 
permittee, and, most importantly, serve the long-term goals of 
providing quality visitor services and protecting the resource.
     H.R. 2386 provides the framework for performance-based renewal and 
places fee or revenue generation as a secondary consideration in the 
award and renewal of outfitter permits.
    Contractual agreements, based upon a program of formal performance 
evaluations coupled with performance-based permit renewal, represent 
the most effective means of ensuring permitting practices meet both 
agency objective and the public's needs.
    The awarding of a permit is typically based upon three primary 
factors:
    <bullet> LThe experience, related background and past performance 
of the outfitter.
    <bullet> LResponse to prospectus requirements for quality visitor 
services.
    <bullet> LThe offeror's financial capacity.
    Herein lie the incentives for both the manager and the 
concessioner. These factors offer significant and substantial 
opportunities for competition in the awarding, renewal or denial of 
concessions. Categories 1 and 2 offer managers the opportunity to 
identify non-compliant, dangerous or illegal performance, as well as to 
reward exemplary performance.
    The system must be anchored upon the value that commercial 
operations can provide to the public and to the land itself. Fees must 
remain subordinate to other performance-related aspects of the 
evaluation system. Outfitters are not afraid of competition, 
evaluations or reasonable fees. We are afraid of competition for 
competition's sake and evaluations that weigh general Federal revenue 
enhancement above quality service
    What is at stake here is relatively straightforward. Should the 
award of a Federal permit be based upon on-the-ground performance or 
how much money a prospective outfitter can offer the Federal 
Government? Are consolidation of the outfitting industry and 
enhancement of Federal revenues the goal or should we establish permit 
administration policies that recognize and enhance:
    <bullet> LCommon missions
    <bullet> LPartnerships
    <bullet> LDiversity in opportunities offered and publics served
    <bullet> LIncentives and performance?
    I will close with one illustration: Outward Bound, as a non-profit 
educator, has well-defined institutional missions related to diversity 
on our courses. The Outward Bound system in the United States raises 
over two million dollars annually in scholarship funds to promote 
economic, ethnic, gender and age diversity among our students.
    Agency documents, speeches and memos detail the desire to attract 
and educate new, diverse populations of American in the enjoyment and 
preservation of Federal lands.
    The more agency concession, permit and fee policies promotes 
incentives, common missions and partnerships, the more emphasis Outward 
Bound can place on diversity. To the extent the agencies promote 
revenue generation and competition through fee bidding, Outward Bound 
is forced to downplay scholarships and focus on boosting course costs.
    Performance-based renewal and consideration of fees as a secondary 
factor as outlined in H.R. 2386 will allow Outward Bound and other 
educators and outfitters to operate as effective and efficient 
providers of quality programs on Federal lands.
                                 ______
                                 
    Mr. McInnis. I want to compliment on Outward Bound. Two of 
my three kids went there. And my brother, ironically--kind of 
an interesting story--was one of the first people--I think I 
have told you this. I am not sure.
    Mr. Mackey. I was wondering if you were going to tell your 
Outward Bound story.
    Mr. McInnis. It could be of interest.
    Outward Bound was really the first, I think, in the field 
out there. My brother went to Outward Bound probably in 1965, 
maybe 1963, when Outward Bound was first started.
    Mr. Mackey. I think it was 1963. It started in Colorado, in 
Marble, Colorado in 1961.
    Mr. McInnis. Which--our whole family lives about 30 miles 
from Marble.
    Mr. Mackey. Right.
    Mr. McInnis. And of interest, he and his--for the group 
here. He and another young man were climbing with their 
instructor up Maroon Bells, which is known for its rotten rock, 
meaning that it peels off kind of like an iceberg at times. And 
a rock came off the top and, unfortunately, cut the 
instructor's head off, close to it. And here are these two 
kids, 14 and 15--and I think you probably only had one fatality 
or maybe two during the entire history, and that was the first 
one.
    Outward Bound was tough. They--some campers down below saw 
what had happened. These two young men managed to get off the 
mountain, and they went up and brought the instructor down. 
Then they brought another instructor up and everything went 
back to camp except the two kids and the instructor. The 
instructor and Outward Bound make them hike, go right back up 
past the same spot, because Outward Bound was sure they would 
never climb again if they didn't force them up.
    Mr. Mackey. It is called getting back in the saddle.
    Mr. McInnis. Yeah.
    Mr. Mackey. I am not sure we would do that today.
    Mr. McInnis. Well, I don't know. Now, today, maybe we are 
too politically correct. But I will tell you, in all three 
cases I think it was a life experience for them.
    You do an outstanding job with Outward Bound. I can commend 
you, and also our former director here, Mr. Udall, who did an 
excellent job while he ran Outward Bound in Colorado. I know 
you are proud to have Outward Bound out here.
    Mr. Mackey. For good or bad, he is the reason I am sitting 
here this morning.
    Mr. McInnis. Well, that is probably debatable. But I 
think--because I think you are both good. And I think, in 
either case, Outward Bound is well served.
    So, I appreciate you coming. I know it is a little off the 
subject there, but I am proud of you guys out there and gals.
    Let me move now to Ms. Kimbell, who will offer testimony on 
both the outfitter bill and H.R. 5180.
    I hate to start off this way, Ms. Kimbell, but I am reading 
today's newspaper, a little comment about one of your district 
rangers in regards to the Chairman of the whole Committee, who 
says on the bill:
    What's Hansen--referring to our Chairman--got to lose? It's 
his last term. He's going to do something nice to cut the 
government's throat.
    It is from a ranger, Devon Kilpack. You might pass on to 
Mr. Kilpack that his comments are seen as unfortunate and 
misplaced and that it is probably more appropriate he let you 
speak for the Forest Service instead of him.
    Ms. Kimbell. Mr. Chairman, I only learned of those comments 
moments before coming in the room. They are most unfortunate, 
and they do not reflect the attitude and the relationship-
building need of the agency, certainly not of the region or the 
forest.
    The regional forester was contacted this morning. I will be 
visiting with the forest supervisor immediately upon leaving 
here. Those comments were most unfortunate; and, again, they do 
not reflect the attitude of the agency.
    Mr. McInnis. Thank you. You may proceed, and thank you for 
being here today.

STATEMENT OF ABIGAIL KIMBELL, ASSOCIATE DEPUTY CHIEF, NATIONAL 
                         FOREST SYSTEM

    Ms. Kimbell. Thank you.
    Mr. Chairman and members of the Subcommittee, thank you for 
the opportunity to testify on these two bills. I would like to 
briefly discuss the Outfitter Policy Act of 2001 and H.R. 5180, 
conveyance of certain lands on the Dixie National Forest.
    H.R. 2386, the Outfitter Policy Act of 2001, establishes 
terms and conditions for use of Federal lands by outfitters. 
The Department of Agriculture supports the purpose of H.R. 2386 
but would like to work with this Subcommittee to resolve 
several important issues that we feel would make this an even 
better bill.
    There are millions of people who lack outdoor skills yet 
want to experience the beauty and diversity of their public 
lands. Many of these Americans seek out the skills and 
experience of commercial outfitters and guides to help them 
enjoy a safe and pleasant journey through spectacular forests 
and deserts and over rivers and lakes often found only on 
Federal lands. Without outfitters and guides, many of our 
citizens and international visitors would never experience the 
awesome grandeur of America's great outdoors.
    For more than half a century, the Forest Service has had a 
positive working relationship with the outfitter guide 
industry. We currently have approximately 6,000 permit holders 
who provide very necessary and sought-after services. These 
services include hunting and fishing trips, llama treks, Jeep 
tours, whitewater rafting, prehistoric treks, and many, many 
other opportunities. The providers of these services range from 
traditional small-family operations to large commercial 
entities, small local government programs, large educational 
institutions, both non-profit and for profit.
    Commercial outfitters and guides serve as an extension of 
the agency by introducing the public to their lands and by 
providing positive environmental understanding and teaching 
skills to enjoy the outdoors. In fact, outfitters and guides 
have often gone above and beyond the requirements of their 
permits. One example is the Raft Alone program in our Region 4 
where police officers raft with at-risk youth.
    In addition, as the agency has become more involved with 
various tourism associations, we have learned that many 
international groups wish to provide eco-tourism trips to the 
United States to visit our public lands.
    This positive relationship continues, but increasingly 
complex challenges in managing the national forests, aged 
business practices, competing demands have placed an increased 
burden on the agency and its outfitters and guides and is 
affecting this critical relationship. This challenge can be 
illustrated by the explosion in the types of outfitter and 
guide activities competing for a limited resource, increased 
competition within the general public for space, increased 
activism by the public on how they wish to see their public 
land managed, and, again, those aged business practices 
creating inefficiencies in the day-to-day program 
administration. There is also the need to update agency policy, 
including obtaining market value for rights and privileges 
granted in the use authorization.
    Because of these challenges, I can understand why 
venerable, well-established businesses feel threatened and 
devalued.
    Our challenge is to manage this program by having an 
efficient business management approach and a balanced 
administrative system that addresses public concerns and 
provides a pleasant, safe, and healthy visitor experience while 
protecting the environment. In addition, we must address local 
and national program management issues protecting the interest 
of the government, while using appropriate business practices 
that allow business stability for our outfitters and guides. We 
have been working with all interested parties and other 
agencies for the last couple of years to resolve these issues, 
and we would like to expedite that process.
    Ms. Kimbell. On H.R. 5180, H.R. 5180 directs the Secretary 
of Agriculture to convey approximately 560 acres of National 
Forest System land within the Dixie National Forest to Kirk 
Harrison. The conveyance is intended to be a fair market value 
for all right, title, and interest of the United States using 
appraisal standards acceptable to the Secretary. While we do 
not oppose the bill, we believe it may be unnecessary. We have 
been working with Mr. Harrison since the 1990's and are 
optimistic that a solution can be found that satisfies his 
needs.
    Mr. Harrison owns property in the town of Pinto, located in 
Washington County in Southwest Utah. Pinto consists of 
approximately 767 acres of private property, including Mr. 
Harrison's property, and is surrounded by the Dixie National 
Forest. The Forest Service has thoroughly reviewed Mr. 
Harrison's title claims and, under existing laws and 
authorities, is unable to approve or give validity to these 
claims. In addition, there are a number of other factors that 
must be taken into consideration.
    All of the Federal lands surrounding Pinto and subject to 
this bill lies within the East Pinto grazing allotment 
currently used by two local families. Removing acres from the 
allotment would result in a prorated reduction in permitted 
numbers of cattle of approximately 98 percent.
    The property of another landowner in the Pinto area is 
partially bordered by Harrison's property and otherwise 
adjacent to National Forest System lands. If the proposed 560 
acres were transferred to Mr. Harrison, the other landowner's 
property would be totally surrounded by Mr. Harrison's property 
and without guaranteed access.
    In addition, conveying 560 acres to Mr. Harrison would 
place all known sources of water in the Pinto Valley on private 
land. Water rights of others and their use of those rights 
could be affected if this land goes into private ownership.
    The sale of up to 560 acres to Mr. Harrison would increase 
the amount of private land in Pinto by over 70 percent. The 
future subdivision of this land could change the rural 
character of the area and create additional issues with other 
long-term owners in the area.
    The Forest Service has processed two legitimate cases under 
the Small Tracts Act in the Pinto area. In one case, 4.78 acres 
were conveyed to a local family based on a color of title 
claim. In the second, an interchange occurred with a net gain 
of 1.38 acres for the forest. These families may feel that a 
land sale or exchange with Mr. Harrison is inequitable.
    In 1996, Mr. Harrison submitted three Small Tracts Act 
applications totaling 25 acres to the Dixie National Forest. 
The basis of the application was occupancy of National Forest 
System lands in the form of fences and cultivation. In 1997, 
after a thorough review, it was determined that the application 
did not meet the criteria of the Small Tracts Act.
    We do not oppose this bill, but we believe it is 
unnecessary because there are reasonable alternatives. We would 
support selling Mr. Harrison 20 acres involving the disputed 
area. This would include Mr. Harrison's entire Small Tracts Act 
application called Springfield and the Small Tracts Act 
application for Platt Field. The third Harrison Small Tracts 
Act application, Reservoir Field, is not included because the 
Harrison family did not own the adjacent property until after 
1965.
    The sale of 20 acres to Mr. Harrison would remove a spring 
and over a mile of Pinto Creek from public ownership. Land 
exchange is an important tool for solving a variety of critical 
resource and social issues, and we would prefer a public 
interest equal-value land exchange between Mr. Harrison and the 
National Forest, either in the immediate Pinto area or within 
the State of Utah.
    Mr. Chairman, we look forward to working with you and other 
members of the Subcommittees on these--on both these bills and 
would be happy to take questions.
    Mr. McInnis. Thank you, Abigail. You bring up some very 
valid points.
    [The prepared statement of Ms. Kimbell follows:]

         Statement of Abigail Kimbell, Associate Deputy Chief, 
             Forest Service, U.S. Department of Agriculture

    Thank you for the opportunity to testify on these five bills before 
us today. I am Abigail Kimbell, Associate Deputy Chief, National Forest 
System. I would like to briefly discuss H.R. 2386--``Outfitter Policy 
Act of 2001,'' H.R. 5032--Conveyance of certain lands on the Mendocino 
National Forest, and H.R. 5180--Conveyance of certain lands on the 
Dixie National Forest. We defer to the Department of the Interior on 
H.R. 1811 and H.R. 5081.
 H.R. 2386 Outfitter Policy Act of 2001
     H.R. 2386, the ``Outfitter Policy Act of 2001'' establishes terms 
and conditions for use of Federal lands by outfitters. The Department 
of Agriculture supports the purpose of H.R. 2386, but would like to 
work with the Subcommittee to resolve several important issues that we 
feel would make this a better bill.
    There are millions of people who lack outdoor skills yet want to 
experience the beauty and diversity of their public lands. Many of 
these Americans seek out the skills and experience of commercial 
outfitters and guides to help them enjoy a safe and pleasant journey 
through spectacular forests and deserts and over the rivers and lakes 
that are often found only on Federal lands. Without outfitters and 
guides, many of our citizens and international visitors would never 
experience the awesome grandeur of America's great outdoors.
    For more than a half century the Forest Service has had a positive 
relationship with the outfitter/guide industry. We currently have 
approximately 6,000 permit holders that provide very necessary and 
sought-after services. These services range from traditional hunting 
and fishing trips to llama treks: from jeep tours and white water 
rafting, to prehistoric treks. The providers of these services range 
from the traditional small family operations to large commercial non-
profit entities, from small local government programs to large 
educational institutions.
    Commercial outfitters and guides serve as an extension of the 
agency by introducing the public to their lands and by providing 
positive environmental understanding and teaching skills to enjoy the 
outdoors. In fact, outfitters and guides have at times gone beyond the 
requirements of their permits. One example is the ``Raft-Along'' 
program in Region 4 (Utah/Idaho) where police officers raft with ``At 
Risk'' Youth. In addition, as the agency has become more involved with 
various tourism associations, we have learned that many international 
groups wish to provide eco-tourism trips to the United States to visit 
our public lands.
    I believe this positive relationship continues, but increasingly 
complex challenges in managing the National Forests, antiquated 
business practices, and competing demands have placed an increased 
burden on the agency and its outfitters and guides, and is affecting 
this critical relationship.
    This challenge can be illustrated by the explosion in the types of 
outfitter and guide activities competing for a limited resource, 
increased competition with the general public for space, increased 
activism by the public on how they wish to see their public lands 
managed, and antiquated business practices creating inefficiencies in 
the day to day program administration. There is also the need to update 
agency policy, including obtaining market value for the rights and 
privileges granted in the use authorization. Because of these 
challenges, I can understand why venerable, well-established businesses 
feel threatened and devalued.
    Our challenge is to manage this program by having an efficient 
business management approach and a balanced administrative system that 
addresses public concerns and provides a pleasant, safe, and healthy 
visitor experience while protecting the environment. In addition, we 
must address local and national program management issues protecting 
the interests of the government while using appropriate business 
practices that allow business stability for our outfitter and guides. 
We have been working with all interested parties and other agencies for 
the last couple of years to resolve these issues. We would like to 
expedite that process.
H.R. 5032--Land Conveyance on the Mendocino National Forest
    H.R. 5032 authorizes the direct sale of two parcels comprising 
120.9 acres of National Forest System lands on the Mendocino NF in 
California to the Faraway Ranch. Various improvements and facilities 
have been constructed on these lands and they have lost much of their 
National Forest character. This bill provides Faraway Ranch the 
opportunity to acquire these lands associated with their improvements 
and activities and allows the Forest Service to utilize the receipts to 
acquire replacement lands elsewhere in California.
    At time of conveyance, Faraway Ranch will make full payment of the 
fair market value as determined by an appraisal that is acceptable to 
the Secretary and cover all direct costs associated with completing 
this transaction. We support this bill, however, we would like to work 
with the Subcommittee to develop a workable timeline that takes into 
account the time needed to properly complete the survey and appraisal.
 H.R. 5180--Conveyance of Real Property in the Dixie National Forest
     H.R. 5180 directs the Secretary of Agriculture to convey 
approximately 560 acres of National Forest System (NFS) land within the 
Dixie National Forest to Kirk R. Harrison. The conveyance is intended 
to be at fair market value, for all right, title and interest of the 
United States using appraisal standards acceptable to the Secretary. 
While we do not oppose the bill, we believe it may be unnecessary. We 
are working with the landowner and are optimistic that a solution can 
be found that satisfies his needs, but does not require legislation. If 
this is not the case, we are willing to work with the Subcommittee.
    Mr. Harrison, who resides in Las Vegas, Nevada, owns property in 
the town of Pinto, located in Washington County, in southwest Utah. 
Pinto consists of approximately 767 acres of private property, 
including Mr. Harrison's property, and is surrounded by the Dixie 
National Forest. The Forest Service has thoroughly reviewed Mr. 
Harrison's title claims, and under existing laws and authorities, is 
unable to approve or give validity to any of his claims. In addition, 
there are a number of other factors that must be taken into 
consideration.
    All the Federal land surrounding Pinto and subject to this bill 
lies within the East Pinto Grazing allotment currently used by two 
local families. Removing acres from the allotment would result in a 
prorated reduction in permitted numbers of cattle.
    The property of another landowner in the Pinto area is partially 
bordered by Harrison property and otherwise adjacent to NFS lands. If 
the proposed 560 acres were transferred to Mr. Harrison the other 
landowners' property would be totally surrounded by Harrison property 
and without guaranteed access. In addition conveying 560 acres to Mr. 
Harrison would place all known sources of water in the Pinto Valley on 
private land. Water rights of others and their use of those rights 
could be lost if this land goes into private ownership.
    The sale of up to 560 acres to Mr. Harrison would increase the 
amount of private land in Pinto by over 70 percent. The future 
subdivision of this land could change the rural character of the area 
and create additional issues with other long-term landowners in the 
area.
    The Forest has processed two legitimate cases under the Small 
Tracts Act (STA) in the Pinto area. In one case, 4.78 acres were 
conveyed to a local family based on a color of title claim. In the 
second case, an interchange occurred with a net gain of 1.38 acres for 
the Forest. These families may feel that a land sale or land exchange 
with Mr. Harrison is inequitable.
    In 1996, Mr. Harrison submitted three STA applications totaling 25 
acres to the Dixie National Forest. The basis of the application was 
occupancy of NFS lands in the form of fences and cultivation. In 1997, 
after thorough review, it was determined that the application did not 
meet the criteria of the Small Tracts Act. All levels of the agency 
concurred with this decision.
    We do not oppose this bill, and believe it is unnecessary because 
there are reasonable alternatives. We would support selling Mr. 
Harrison 20 acres involving the disputed area. This would include Mr. 
Harrison's entire STA application area called Spring Field and the STA 
application for Platt Field. The third Harrison STA application, 
Reservoir Field, is not included because the Harrison family did not 
own the adjacent property until after 1965.
    The sale of 20 acres to Mr. Harrison would remove a spring and over 
a mile of Pinto Creek from public ownership. Land exchange is an 
important tool for solving a variety of critical resource and social 
issues and we would prefer a public interest equal-value land exchange 
between Mr. Harrison and the National Forest, either in the immediate 
Pinto area or within the State of Utah.
    Mr. Chairman, we look forward to working with you and the other 
members of the Subcommittees on these important issues. This concludes 
my testimony. I would be happy to answer any questions that you may 
have.
                                 ______
                                 
    Mr. McInnis. Mr. Harrison, in your comments I would like it 
if you can also address--because I have some concern about the 
permit issue, the access issue, the subdivision issue, and the 
water issue. Those were four that were brought up in the 
previous testimony. So, if you would include that in your 
remarks, I would appreciate it. You may proceed.

  STATEMENT OF KIRK R. HARRISON, PROPERTY OWNER, STATE OF UTAH

    Mr. Harrison. Thank you.
    Mr. Chairman, members of this Committee, my name is Kirk 
Harrison; and I appreciate the opportunity to testify in 
support of this bill. I particularly want to thank Chairman 
Hansen for sponsoring the bill.
    I would first like to mention the reference to Devon 
Kilpack's statements. Devon Kilpack is a district ranger there. 
I have talked to him numerous times. He has told me numerous 
times how bad he feels about the way I have been treated, how 
inequitable he thinks the circumstance is. He cannot believe 
that we have not been able to reach a resolution where I get my 
family property.
    In addressing some of the comments that were just made, the 
conveyance of these disputed lands would not result in my land 
surrounding someone else's land without access. Their access is 
directly upon a county road that runs through the valley, and 
it would be the same as it has always been.
    I have no intention of subdividing this land. My 
predecessors' interest in the Reservoir Field settled that land 
in 1860. My dad bought it from his brother--in 1860, and my dad 
bought it from his brother in 1960.
    I do not believe the Forest Service has any interest 
whatsoever in the waters of the Pinto Creek. Landowners such as 
myself own shares of water in the Pinto Creek, in the Pinto 
Valley, and further to the south in Newcastle. I don't think 
the Forest Service has any interest whatsoever in those waters.
    This land was settled by my great, great grandparents in 
1860. They cleared the lands, the trees, the rocks. It was 
before the invention of barbed wire, and they used the trees 
that they used to clear the land with to build rip-gut fences 
that exist today.
    The first survey in the area was not until 1881, 21 years 
after they were there; and the survey only did section corners, 
so there was no notice to them that there was any discrepancy 
between any survey and their boundaries.
    The second survey was not until 1905, 24 years later. And, 
again, the same thing--only section corners. There was no 
notice to them there was any discrepancy between their 
boundaries and that survey, and that was when the Dixie 
National Forest was first established.
    It was not until 1984, 124 years after my family was there 
and owned and cultivated and worked these lands, was there a 
survey done by an outside firm for the Forest Service that put 
up the orange markers that we have all seen.
    There are significant discrepancies in the surveys in that 
valley. For example, the southwest corner of this section in 
the 1881 survey is 37 feet from the 1905 survey. The Washington 
County surveyor recognizes rock monuments that the Forest 
Service survey crew in 1984 did not recognize. I have aerial 
photographs of the area dating back to 1949; and, as you can 
see, this is a sparse, arid environment. It is primarily sage 
brush, rabbit brush. There is a lesser amount of cedar trees 
and small pine trees.
    Mr. McInnis. Mr. Harrison, if I may interrupt just for a 
moment. You keep talking about this area. In Abigail's 
testimony, she talked about the 20 acre allotment and the 500 
acre allotment, and your initial under the Small Claims Act--or 
Small Partial Act, I think three different ones. So tell me how 
we get from 20 to three claims for approximately 75 acres, and 
now we are at 500. Maybe you can point them out on your map.
    Mr. Harrison. Absolutely.
    Mr. McInnis. I guess my focus here is, did you figure--I am 
trying to determine whether you thought you would be successful 
to 75 and so went ahead and decided to ask for an additional 
425.
    Mr. Harrison. No, what happened--
    Mr. McInnis. Help me through that.
    Mr. Harrison. Absolutely. The land I own is in pink on this 
chart. The disputed areas that have been fenced in, except for 
the one area, since 1860, are in orange. What happened 4 years 
ago is the Forest Service made it very clear to me that one of 
the reasons that they rejected the Small Tracts Act is that 
my--when my great, great grandparents settled that area, they 
put these rip-gut fences as the terrain and the topography 
allowed. It made sense to enclose the water sources and the 
level ground that could be cultivated.
    The Forest Service, starting 4 years ago--and it is in the 
materials I provided--made it very clear that that was contrary 
to their management objectives of straight lines, sectional 
lot, blocked-up ownership, right angles.
    The 560--you get to 560 because that is the minimum amount 
necessary to satisfy the Forest Service objectives that they 
have outlined to me both orally and in writing for the last 4 
years.
    Mr. McInnis. It took me a second to see the orange. So, you 
have got the strawberry red or the strawberry color.
    Mr. Harrison. Correct.
    Mr. McInnis. Is there any orange in that strawberry color 
from this distance? I can't see it. Or is just the orange that 
little block that sits off it?
    Mr. Harrison. Where it is something other than the straight 
line, it is orange.
    Mr. McInnis. OK. And then the yellow, what does the yellow 
represent? Is that the 500-acre tract as a whole? Or what is 
the yellow?
    Mr. Harrison. The yellow is the orange plus the--the yellow 
plus the orange is the 560.
    Mr. McInnis. OK. And the strawberry colored is what is 
owned in fee right now, presently.
    Mr. Harrison. Right.
    Mr. McInnis. All right. Thank you.
    Mr. Harrison. If I might clarify, the reason that it 
expanded from three areas to five areas, when they did the 
survey in 1984, there was one section lot--section 6, I 
believe--that was in the ownership of the State of Utah. In 
1999, by Federal act, that was transferred from the State of 
Utah to the Federal Government; and it is under the auspices of 
the Forest Service presently.
    In addition, the southwest field, which still has the rip-
gut fences that my family put up in 1860, that was added as 
well. So it is the three areas subject to the Small Tracts Act 
plus the additional two.
    The Forest Service has confirmed that there are no 
significant public values on these lands, no identifiable 
resources to be protected. These lands that are beyond the area 
that--I have had them fenced all my years, my family has had 
fenced since 1860, have been for the service of grazing cattle. 
The grazing permittee would not be adversely affected. This 
would be subject to whatever existing rights they have. They 
have got a 10-year lease. They can raise cattle for another 10 
years. So, it is not in any way taking away any present rights 
that they have.
    The loss of these disputed areas would be devastating to my 
family lands. All access to the Pinto Creek would be lost and 
my two largest meadows. Third parties and their cattle would 
have unrestricted access to my best spring; third parties and 
their cattle would be but a few short feet from two of my other 
springs, one of which is a source of culinary water for my home 
there. The priority of my springs goes back to 1860 as well. 
Third parties and their cattle would be but two feet from my 
great, great grandparents' cabin.
    I respectfully ask for your favorable consideration. I look 
forward to working with the Committee and the staff to resolve 
any issues. Thank you.
    Mr. McInnis. Thank you very much for your testimony.
    [The prepared statement of Mr. Harrison follows:]

   Statement of Kirk R. Harrison, Property Owner, Pinto Valley, Utah

    Mr. Chairman, thank you for conducting this hearing today and I 
thank all of
    the Members for their time and interest. My name is Kirk Harrison 
and I own property in Pinto Valley, Utah. I want to thank Chairman 
Hansen for sponsoring the legislation before the Subcommittee today. 
This legislation will solve a dispute involving my family's property 
that my family settled in 1860 more than 140 years ago. This 
legislation calls for the directed sale of approximately 560 acres of 
land to me for fair market value. The proceeds of this sale would then 
be utilized by the Forest Service to acquire truly valuable in holdings 
where public values are much greater. Mr. Chairman, this legislation is 
critical to restoring my family property and unfortunately is the only 
mechanism available to me to solve this age old dispute.
I. History and Use of the Property
A. Historical Use
    My great great grandparents, Richard Harrison and Mary Ann Whitaker 
Harrison, settled in the Pinto Valley in 1860. The Pinto Valley is 
located in the high desert region of Southwestern Utah. They 
constructed and lived in the log cabin situated in the area of my 
property known as the Spring Field.
    They cleared the fields that exist today by chopping down and 
removing the cedar trees so they could plant and grow their crops. From 
those cedar trees came the cedar posts that they utilized to construct 
the rip gut fences that defined the boundaries of their property. 
Anyone that has ever chopped a cedar fence post with an ax can 
appreciate the tremendous effort and amount of time it took to 
construct these fences. In light of the dramatic difference in the 
effort necessary to construct a rip gut fence as opposed to a barbed 
wire fence, if barbed wire was available, it surely would have been 
utilized. However, the first patent on barbed wire was not filed until 
1873 and barbed wire was not available in Southern Utah for many years 
thereafter.
    In order to appreciate the priority of use and superior claim of 
ownership to this property by my family, it is helpful to place it into 
a chronological context. My family had settled, homesteaded, owned, 
worked, tilled the soil, planted and harvested crops, raised, fed and 
watered livestock, maintained the boundary fences, raised their 
children and lived upon their property for five (5) years before the 
outbreak of the Civil War.
    Evidence of my family's early use of the property is indisputable. 
As of 1870 there were only 105 people living in the Pinto Valley. In 
1873, the people of Pinto produced 1,614 bushels of wheat, 160 bushels 
of oats, 1,693 bushels of barley, 210 bushels of corn, 6 bushels of 
beans, 7,195 bushels of potatoes, 287 bushels of vegetables, and 120 
tons of hay. Id at 200. Consistent with the foregoing, LDS Church Pinto 
Ward records between 1867 and 1876 prove that both my great great 
grandfather, Richard Harrison, and my great grandfather, John Heber 
Harrison, were growing crops and raising livestock on this property. 
These records show contributions from both men of wheat, barley, hay, 
potatoes, corn, vegetables, fruit, butter, cheese, eggs, pork, 
chickens, mutton, and wool. Copies of these records between 1867 and 
1876 are attached hereto as Exhibit ``2.''
    The State of Utah, which was made a state on January 4, 1896, did 
not exist for the first thirty-six (36) years that my family settled, 
homesteaded, owned, worked, tilled the soil, planted and harvested 
crops, raised, fed and watered livestock, maintained the boundary 
fences, raised their children and lived upon their property. Our family 
had done all of this for over forty-five (45) years before the Dixie 
National Forest was created in 1905.
    There is further evidence of my family's use and ownership of the 
property since 1860. The priority date of the springs situated upon our 
property is 1860. Since that time those springs have been utilized to 
irrigate pastures, crops and orchards; water livestock; and for 
culinary purposes.
    My great great grandfather, Richard Harrison, who was born on April 
30, 1807, passed away while living in Pinto on March 4, 1882 and is 
buried at the Pinto Cemetery. My great great grandmother, Mary Ann 
Whitaker Harrison, who was born on August 10, 1811, passed away while 
living in Pinto on September 4, 1889 and is also buried at the Pinto 
Cemetery.
    My great grandfather, John Heber Harrison, died while still living 
at Pinto on July 1, 1923 and is buried at the Pinto Cemetery. My great 
grandmother, Ellen Eliza Eldridge Harrison, who was born on July 28, 
1850, died on October 10, 1937 and is also buried in the Pinto 
Cemetery.
    My grandfather, Heber Eldridge Harrison, was born in Pinto on May 
12, 1874.
    My father, Joseph Ross Harrison, was born on May 18, 1915 and died 
in Pinto on October 30, 1990.
B. Federal Government Surveys In The Pinto Valley And Discrepancies 
        Among Them
    The first government survey of the area, which was conducted by the 
U.S. Surveyor General's Office, was not made until 1881. This effort 
consisted of crews, utilizing a rod and chain, merely establishing 
section corners and the like. Undoubtedly, these crews, given the miles 
upon miles they were surveying, of which the Pinto Valley was only a 
very small part, did not take the time to follow existing fence lines 
and boundaries that had existed for over twenty (20) years. Similarly, 
a second government survey of the area was not made until the creation 
of the Dixie National Forest in 1905. Like the survey crews before 
them, these crews, understandably, did not take the time to follow, 
with their rod and chain, the existing fence lines and boundaries that 
had existed for over forty-five (45) years. My family had no reason to 
believe there existed any discrepancy between these surveys and their 
fenced property lines.
    My family had no reason to believe there was any discrepancy in the 
boundaries between their property and the Forest Service until 1984, 
when the Forest Service retained an outside firm to perform surveys in 
the area and orange boundary markers were set, which were inconsistent 
with the historic use and occupancy of the lands that had been cleared, 
cultivated, irrigated, grazed, and fenced for over one hundred twenty-
four (124) years.
    There are numerous discrepancies in the surveys in the Pinto 
Valley. A prime example is the location of the southwest corner of 
Section 2 of Township 38 south--Range 15 West. The 1881 rock monument 
is thirty-seven (37) feet away from the 1905 rock monument. For reasons 
unknown, neither of these rock monuments could be found, and therefore, 
utilized by the surveyors that performed the survey for the Forest 
Service in 1984. The Forest Service surveyors did not accept an 
historic ``rock mound'' monument, in spite of the fact that other 
surveyors had accepted it, including the surveyors for Washington 
County. There should be only one survey monument at each corner 
location. However, because of the survey discrepancies in the area, 
there are several corners that have at least two different survey 
monuments.
    There are five areas where there are disputed lands with the Forest 
Service. Those five areas are: (1) the Spring Field; (2) the Southwest 
Field; (3) the Platt Field; (4) the Corn Field, and; (5) the Reservoir 
Field.
The Spring Field
    My great great grandparents' log cabin is situated but a few feet 
from the supposed ``boundary line'' resulting from the 1984 survey for 
the Forest Service. Beyond this ``boundary line'' to the west is a 
field and stream that has been fenced in by my family since 1860. 
Substantial portions of the original rip gut fence still exist on the 
northern boundary of this field. A barbed wire fence is located just a 
few feet north of and parallel to this rip gut fence. This barbed wire 
fence continues west and turns in a southerly direction enclosing this 
field and stream.
    There has been grass in this field for as long as I can remember. I 
have aerial photographs dating back to August 26, 1949 that were taken 
by the Aerial Photography Field Office of the U.S. Department of 
Agriculture that clearly depict the grass condition of the field. I 
have also confirmed with my ``Harrison'' aunts and uncles, who are in 
their eighties, that there has been grass in these fields for as long 
as they can remember as well. I have been told that my grandfather 
grazed his cattle upon this property. I know of my own knowledge that 
my father, many times with my help, re-seeded this field, railed the 
field every spring, mowed the hay in some years, grazed horses and/or 
cattle every year in the field, watered the field utilizing sprinklers 
and a pump from the reservoir located just east of the field in some 
years, utilized a portion of the field to store farm equipment, and 
maintained the fences on an annual basis. My father did all this from 
the time he acquired the property in 1950 from his grandfather's 
estate, John Heber Harrison, until I acquired the property from my 
father in 1988.
    Since my acquisition of the property, I have railed the field every 
spring, grazed horses and/or cattle every year within the fenced area, 
grubbed the sage brush and rabbit brush, utilized a portion of the 
field to store farm equipment, and maintained the fences on an annual 
basis.
    Attached as Exhibit ``3'' are photographs depicting my great great 
grandparents log cabin in the Spring Field as well as the disputed part 
of the Spring Field and the rip gut fences around that disputed area.
The Southwest Field
    The Southwest Field is located to the southwest of the Spring 
Field. To the best of my knowledge the only rip gut fences remaining in 
the Pinto Valley are those rip gut fences that marked the boundaries of 
my family's property. The rip gut fences built by my family when they 
cleared the Southwest Field are still in existence on the southern and 
northern sides of this field. The topography of the area is such that 
the only access by wagon to the Southwest Field was through the Spring 
Field.
    Attached as Exhibit ``4'' are relevant portions of aerial 
photographs taken by the Aerial Photography Field Office of the U.S. 
Department of Agriculture. These photographs are dated August 26, 1949, 
June 12, 1960, and August 30, 1977. These photographs confirm that the 
Southwest Field was only accessible by wagon through the Spring Field. 
These photographs also show how the Southwest Field is far from other 
fields in the valley, except the Spring Field.
    The name of the mountain above and to the southwest of the 
Southwest Field is named Harrison Peak after my great grandfather. The 
location of the Southwest Field relative to the other fields in the 
valley, other than the Spring Field, is such that it is unreasonable to 
conclude that anyone other than my great great grandfather and then my 
great grandfather owned the Southwest Field. It is my good faith belief 
that my great grandfather rented this pasture to Oscar Westover during 
the early 1800s.
The Platt Field
    The origin of the private ownership of the Platt Field is the same 
as other property I own in the Pinto Valley in that it was first 
settled prior to the Civil War. The first owner of the Platt Field was 
Benjamin Platt. The Pinto Cemetery provides indisputable corroborative 
evidence of Benjamin Platt's presence in Pinto in the 1860s. Josephus 
Platt is buried in the Pinto Cemetery. He was born in Pinto on June 9, 
1867 and died in Pinto on August 8, 1867. His father was Benjamin 
Platt.
    Just as my great great grandfather had done when he first moved to 
the Pinto Valley, Benjamin Platt ``lived up in the field in a little 
log house at first.'' Benjamin Platt was the seventh man to take water 
from the Pinto Creek. Id.
    Although he settled the property and worked the property beginning 
sometime prior to 1867, Benjamin Platt did not obtain a patent to the 
property from the United States of America until 1890. Our family 
acquired title to the property when it was conveyed to our Great Aunt 
Geneva H. Gillies and her husband R. Moroni Gillies in 1916.
    The ``boundary line'' posted by the survey crew for the Forest 
Service in 1984 cuts off approximately eleven and eight-tenths (11.8) 
acres of our ground, including all access to the creek. One must 
seriously question the implied assertion of the location of the 
``boundary line'', namely that when this property was initially settled 
in about 1860 that the settlers were so inept as to settle upon and 
homestead property that just bordered, but did not include Pinto Creek, 
which runs through the property. Luckily, there is clear indisputable 
evidence that such is not the case. Just within and parallel to the 
existing barbed wire fence on the eastern boundary of my property, 
which encompasses all of Pinto Creek that runs through the property is 
a rip gut fence. I have confirmed with my ``Harrison'' aunts and uncles 
that this rip gut fence, and the barbed wire fence parallel to it, have 
been in existence for as long as they can remember. Likewise, cattle 
have grazed and watered in this area every year for as long as I can 
remember and for so long as the ``Harrison'' aunts and uncles can 
remember as well. This fence was maintained by my father and then by me 
every year thereafter.
    Attached as Exhibit ``6'' are photographs of the disputed area of 
the Platt Field and the rip gut fences on the eastern side of the Pinto 
Creek which enclose the disputed area.
The Corn Field
    In 1860 my great great grandparents cleared the land and 
constructed the rip gut fences that created the boundaries of the Corn 
Field that still exist today.
    As with the ``boundary line'' on the eastern side of the Platt 
Field, the ``boundary line'' posted by the 1984 Forest Service survey 
crew on the eastern side of the Corn Field cuts off all access to the 
creek. Contrary to what this asserted ``boundary line'' implies, my 
ancestors had sufficient intelligence to fence the creek within the 
location where their livestock were located. In addition to the dated 
barbed wire fence on the eastern boundary of my property, which 
encompasses all of Pinto Creek that runs through the property, are also 
remnants of the rip gut fence. I have confirmed with my ``Harrison'' 
aunts and uncles, that this fence has been in existence for as long as 
they can remember. Likewise, cattle have grazed and watered in this 
area every year for as long as I can remember and for so long as the 
``Harrison'' aunts and uncles can remember as well. This fence was 
maintained by my father and then by me every year thereafter.
    It is my understanding that at the time of the Forest Service 
survey in 1984, the State of Utah was the legal title owner of 
Sectional Lot 6. For that reason the survey map prepared by the Forest 
Service surveyor did not show any discrepancy in the boundary on the 
east side of the Corn Field. However, since that time the Forest 
Service has obtained the legal title from the State of Utah and this 
area is now in dispute. It is my understanding that legal title was 
obtained by the Forest Service on January 8, 1999 pursuant to the Utah 
Schools and Lands Exchange Act of 1999, P.L. 105-335.
The Reservoir Field
    The origin of the private ownership of the Reservoir Field is the 
same as other property we own in the Pinto Valley in that it was first 
settled prior to the Civil War. There is a rock memorial in Pinto of 
the first church constructed in Pinto. The memorial identifies the very 
first settlers of Pinto, who arrived in 1856. One of the nine names on 
this memorial is David W. Tullis. It is believed that David W. Tullis 
settled what is now known as the Reservoir Field in 1856. The Pinto 
Cemetery provides further indisputable corroborative evidence of David 
W. Tullis's presence in Pinto in the middle 1800s. David W. Tullis, who 
is buried in the Pinto Cemetery, was born in England on June 3, 1833 
and died in Pinto on November 26, 1902. Euphemia Tullis, the daughter 
of David W. Tullis, was born in Pinto on February 11, 1866. Other 
children of David W. Tullis were born in Pinto in 1872, 1875, 1878 and 
1885. The Tullis family worked and owned this property until my family 
acquired the property.
    My father acquired this property, the Reservoir Field, in 1960. The 
``boundary line'' posted by the survey crew for the Forest Service in 
1984 cuts through the southwestern portion of our property. Appurtenant 
to this property is the best water spring that I own. The priority date 
of this spring is 1860. If a new fence were constructed on the 
``boundary line'' and my family's old fences torn down, it would be 
catastrophic. The headwaters of my best spring could then be interfered 
with and placed at considerable risk by access from third parties and 
their livestock.
    The fence line that the Forest Service now claims encroaches upon 
the Forest Service has been in existence for as long as I can remember. 
Moreover, I have confirmed with my older siblings and my ``Harrison'' 
aunts and uncles that the fence line has been in that location for as 
long as they can remember as well.
    Every year when my father owned the property and every year that I 
have owned the property, which is since 1975, I have maintained the 
fence, grazed and watered livestock on the property, shoveled and hoed 
the weeds, and sprayed the thistle. In addition, every year when my 
mother was alive my family would pick the berries from the elderberry 
and currant bushes on the property that my mother would then make into 
jam. My family used to have picnics in the grassy meadow area of this 
property as well. One year our father and we railed a portion of this 
ground and planted seed.
    Attached as Exhibit ``7'' are photographs of the disputed area of 
the Reservoir Field and the old fences which enclose the disputed area.
II. Legal Title History
A. Conditions Between 1860 and 1890
    During this time period the only mode of transportation was by 
horse, wagon or foot. Pinto was an extremely remote location. ``The 
people of Pinto were isolated as to transportation and had few cultural 
contacts from the outside... .'' The Pinto Valley is over 6000 feet in 
elevation. The winters were extremely harsh. It was noted that, ``One 
year it snowed quite a lot and it covered all the fences with snow 
twelve to fifteen feet deep so they traveled over fences and all.'' Id. 
at 6. Many days were spent simply trying to survive.
    As noted previously, my great great grandparents were part of a 
settlement party that was the first settlers south of Provo, Utah. It 
took those settlers from December 16, 1850 until January 13, 1951 to 
travel from Provo, Utah to Parowan, Utah a distance of about 200 miles. 
The settlement party averaged less than 7 miles a day.
    Presumably because of the lack of any section corners, there were 
no deeds to any lands in the Pinto Valley until 1890. The first 
government survey of the area, which was conducted by the U.S. Surveyor 
General's Office, was not made until 1881. Shortly thereafter, my great 
grandfather and Benjamin Platt made the first patent applications in 
the Pinto Valley. Both men received the first land patents in the 
valley on July 3, 1890.
    Both the law and reality of their circumstances dictated that the 
applications had to be by aliquot part. A metes and bounds survey 
simply was not an option. Presumably, both men had to travel 300 miles 
to Salt Lake City, Utah to find an attorney and/or a surveyor to 
prepare their respective applications for patent. The Pinto Valley is 
about 300 miles from Salt Lake City, Utah. Even if these two men could 
travel on horseback or wagon an average of 15 miles per day (more than 
twice as fast as the 1850 settlement party), it would have taken them 
40 days to travel to Salt Lake City and back for this purpose. The 
point is that under these circumstances there was no way to compare the 
land to be patented against the existing rip gut fence lines whose 
location had been determined by the topography, terrain, and location 
of water.
    The only plausible explanation as to why my great grandfather was 
unable to obtain a patent to the Southwest Field, is that the Federal 
Government had the same policy during the late 1800s as the Cedar City 
Office of the Forest Service has had during the 1990s through the 
present the local office arbitrarily does not want any private 
ownership in Section 3, Township 38 south Range 15 west, regardless of 
the equities involved. This is despite the same office of the Forest 
Service recently, in response to FOIA requests, conceding that there 
are no significant public values on the lands to be acquired and that 
there are no identifiable resources to be protected in this area. This 
also is despite there being private ownership both north and south of 
this Section
3. Abstracts of Title Depicting Legal Ownership from 1890 to the 
        Present
    Attached as exhibits hereto are abstracts of title for the Spring 
Field & Corn Field (Exhibit ``8'', Platt Field (Exhibit ``9''), and the 
Reservoir Field (Exhibit ``10''). Each abstract of title confirms that 
I am the legal owner of each of these properties.
III. Dealings With The Forest Service Since 1991
A. Forest Service Unlawfully Gives Permittee Permission To Trespass 
        Upon The Platt Field With Small Tract Act Application Pending
    During the evening of July 1, 1991, I learned that the grazing 
permittee with the allotment located on the east side of the Pinto 
Creek had started to build a fence in the Platt Field. I telephoned the 
permittee the following day. He said that he needed to move the fence 
because his access to water somewhere else had been cut off. I told him 
that I was aware of discrepancies in the surveys of the area and to 
cease immediately. He acknowledged that he too was aware there were 
discrepancies in surveys in the valley and that he would stop.
    My sister met with the Forest Service soon thereafter and was 
advised to file a Small Tract Act application for the disputed area, 
which she did in 1991. She was told that once the Small Tract Act 
application was filed, the permittee would not be allowed on our 
property, including the disputed area, until the matter was resolved.
    As of 1994, our Small Tract Act application was still pending as it 
had not been acted upon by the Cedar City Office of the Forest Service.
    On Saturday afternoon, May 28, 1994, I went for a walk with one of 
my children to the Platt Field. I soon discovered that a fence had 
recently been constructed on the east side of the Platt Field and to 
the west of the Pinto Creek. This fence cut off all access to the Pinto 
Creek. I discovered that our fence located on the east side of Pinto 
Creek had been torn down in five different locations. The only access 
to the location of the new fence was through the west side of the Platt 
Field that was prominently posted with ``NO TRESPASSING'' signs. I 
learned later that weekend that one of the other landowners had 
witnessed the permittee's trespass upon our property through the west 
side.
    I spoke with two other property owners in the Pinto Valley and 
learned that Forest Service grazing permittee that had the allotment on 
the east side of the Pinto Creek had very recently constructed the 
fence. This is the same permittee that had started to build the fence 
in early July of 1991. He had been bragging to land owners in the 
valley that the Forest Service had given him permission to trespass 
upon our property and build the fence. This was in spite of the pending 
Small Tract Act application for this very area!
    One of the people I spoke with that day was the President of the 
Pinto Irrigation Company who told me that every member of the 
irrigation company was against this action. He said that they were 
appalled and outraged by the permittee's conduct. In addition, as the 
irrigation company controlled and managed the Pinto Creek through the 
Pinto Valley, they were concerned the permittee, who owns no land in 
the Pinto Valley, would interfere with that management and control.
    I spent all day Sunday, May 29, 1994, and Memorial Day, May 30, 
1994, rebuilding our fence where the permittee had torn it down and 
tearing down and removing the entire fence the permittee had unlawfully 
constructed on our property.
    At 8:00 a.m. on Tuesday, May 31, 1994, I was at the Cedar City 
Office of the Dixie National Forest when it opened. I immediately met 
with the Forest Supervisor. I explained what had happened in 1991. More 
specifically, that my sister had met with the Forest Service in Cedar 
City was advised to file a Small Tract Act application, which we did, 
and was assured that the filing of the application would preserve the 
status quo and that we did not need to worry about the permittee 
attempting to construct a fence on our property. In addition to the 
Forest Supervisor, I met with the Lands Staff Officer and the Realty 
Specialist. I requested they meet me at the ranch later that day so I 
could show them what had occurred, as well as the locations in the 
Spring Field and the Reservoir Field where there was also a conflict 
between the fence lines and the 1984 Forest Service Survey.
    Later that morning, at 10:15 a.m., I met with the Forest Service 
representatives at the ranch. There on behalf of the Forest Service was 
the Land Staff Officer and the Realty Specialist I had met earlier that 
morning, as well as the District Ranger and his assistant, who were 
based in St. George, Utah.
    The next day, June 1, 1994, in response to my request, the District 
Ranger sent a letter assuring me that no fences would be removed or cut 
and no new fences would be constructed until the matter was resolved. A 
copy of this letter is attached as Exhibit ``11.''
    I later learned that the Forest Service employee in the Cedar City 
Office in charge of grazing permits and allotments had given permission 
to the permittee to construct the fence. The Forest Service did this 
with our Small Tract Act application pending and knowing the permittee 
would have to trespass upon our property, where ``NO TRESPASSING'' 
signs were prominently posted, from the west side of the valley to do 
so!
B. Forest Service Representatives Indicated That Disputed Areas 
        Qualified Under The Small Tracts Act And Advised The 
        Applications Be Filed
    As set forth above, on Tuesday, May 31, 1994, at 10:15 a.m. I met 
the Land Staff Officer and Realty Specialist from the Cedar City Office 
and the District Ranger and his Assistant from the St. George Office at 
the ranch in Pinto.
    We first drove onto the Platt Field just west of the Pinto Creek. 
The Land Staff Officer had a copy of the November 12, 1984 map 
entitled, ``Dixie National Forest South Pinto Boundary Survey'' and 
placed it on the hood of his truck for all of us to review. A copy is 
attached hereto as Exhibit ``12.'' This showed the area in dispute at 
that location to be 11.8 acres. We discussed the fact that the pending 
Small Tract Act application was for less acreage, but that the Small 
Tract Act limitation was 10 acres. We then walked the area of dispute 
in the Platt Field following the rip gut fences on the east side of the 
Pinto Creek. As we walked the Land Staff Officer and I talked. He noted 
the relatively good condition of the rip gut fence given its obvious 
age. I confirmed to him that cattle feed in the disputed area every 
year and had done so for as long as I could remember. There were forty 
pair of cattle in the Platt Field at the time. I confirmed that we 
maintained the fence all the time I was growing up. We spoke at length 
about the fact the rip gut fence had been there since about 1860 when 
the property was originally settled by Benjamin Platt. We spoke of how 
the property had been improved by the removal of all of the trees, the 
clearing of the ground, and the construction of the rip gut fence. We 
discussed the fact that the rip gut fence had been there since before 
the Civil War. We also discussed the fact that the surveys of 1881 and 
1905 would not have put the property owners on notice of any 
discrepancies. The Land Staff Officer agreed that the location of the 
rip gut fence clearly showed the intent of the original settlers to 
include the Pinto Creek within their property.
    The Land Staff Officer told me that for purposes of the Small Tract 
Act it was very important that we had always maintained the fence and 
had always used the disputed acreage every year to graze livestock. At 
that point in the discussion the Small Tract Act Specialist noted that 
two other small tract applications in the Pinto Valley had each taken 
three years to complete. I knew that the latter application was for an 
area of about five acres with modern fencing and a shed that had been 
there for less than 15 years and cost less than $500.00. It is my 
understanding that the basis for the granting of that application was 
the discrepancies in the surveys in the Pinto Valley.
    The Forest Service representatives and I then went to the Spring 
Field. I first showed them my great great grandparent's log cabin and 
how the logs were connected using wooden pegs rather than nails. I 
showed them how the Forest Service 1984 survey was just a couple of 
feet from the northwest corner of the cabin. We then walked the rip gut 
fence line located on the northern boundary of the field next to the 
log cabin. I told them how there used to be small ponds on the south 
side of the field with good fishing, as my Dad had planted rainbow 
trout. However, I explained to them that we had a horrific flood during 
the early 1960s that had destroyed the reservoir next to the log cabin 
and had filled those ponds with silt.
    The Land Staff Officer asked me who had planted the field with 
crested wheat. I told him that my Dad had planted crested wheat many 
years ago and that we would over seed the field periodically. I told 
him how each spring we would ``rail'' the field which would spread the 
manure and level the ground. The Land Staff Officer asked if we had 
cattle on the area each year. I replied that we either had cattle or 
horses on the area each year. I told him that I recalled my Dad mowing 
and bailing hay from this area as I would chase cotton tails in the 
tall grass during the mowing. Because the grass in this field came in 
at a different time of year than the other fields my Dad would rotate 
livestock into this area earlier in the year. The Land Staff Officer 
asked if we ever watered the field. I told him how before the ponds 
were filled with silt we would pump out of those ponds.
    We then went to the disputed area in the Reservoir Field. The 
District Ranger and I both recalled that we had met each other 
previously when a fire on a neighbor's field had gotten away from them 
and had burned the southern portion of my property, including the fence 
line. As we walked the fence line I pointed out that I had left the old 
wire at the outside base of the fence and had placed the metal posts 
next to the stumps of the old fence. The Land Staff Officer and I 
discussed the uses of the acreage. I said that every year livestock, 
primarily cattle, but horses as well, grazed on this area. We also 
discussed the fact that we maintained the fence each year and that we 
would spray the Canadian Thistle each year.
    Every question the Land Staff Officer asked me about the historical 
use of each of the three areas I was able to answer in the affirmative. 
After we finished walking all of the areas the Land Staff Officer said 
that he had to get to a 1:00 p.m. meeting. Before he left he most 
definitely led me to believe that in light of the historical use of the 
properties that we had just discussed and reviewed, we qualified under 
the Small Tract Act and advised me to make an application. I naturally 
responded that I wished to make application under the Small Tract Act 
for these areas. Consistent with the foregoing, I received a letter, 
dated August 12, 1994, from the District Ranger, providing in part, 
``During our visit to your property in Pinto, you indicated that you 
would like to make application under the Small Tracts Act. Since the 
ownership is not the same on all parcels, please submit a separate 
application for each.'' A copy of this letter is attached as Exhibit 
``13.'' At no time during the discussions with the Land Staff Officer 
on May 31, 1994 did any of the other three Forest Service 
representatives state any disagreement with what I was being told or 
question the relevance of any of the questions being posed to me.
C. During The Small Tract Act Application Process I Was Lead To Believe 
        That The Only Issue Remaining Was When The Applications Would 
        Be Approved
    After the meeting at the ranch on May 31, 1994 I had several 
telephone calls with the Cedar City Office Realty Specialist. I was 
told that the office was ``backed-up'' and it was going to take several 
years to process the Small Tract Act applications. I asked if there was 
anything I could do to expedite the process. I was told that abstracts 
of title had to be prepared, the historical use of the property had to 
be researched, and any surveying discrepancies confirmed. I asked if I 
spent the money and time to do those things up front would it shorten 
the time to process the applications. I was told that it would.
    I spent countless hours researching title records, locating and 
reviewing personal histories, and locating and reviewing histories of 
Pinto. I retained a surveyor to note all of the surveying discrepancies 
in the valley. I spent days in the Archives Division of the Historical 
Department in the LDS Church Office Building in Salt Lake City, Utah. I 
spent many hours in university libraries attempting to locate histories 
of the area. I corresponded with the National Archives in the same 
effort. I photographed and cataloged the rip gut fences. I even 
researched the history of barbed wire to reconfirm that the rip gut 
fences had been there since the 1860s. I researched Pinto Cemetery 
records to confirm the time when my predecessors-in-interest were in 
the remote Pinto Valley. As seen from above, I found annals from 1870 
proving all of the crops that were being grown and the livestock that 
was being grazed on the properties. I put all of this together and had 
the Realty Specialist review each of the applications before they were 
finalized. I was told these were the most thorough and complete Small 
Tract Act application she had seen. She told me this would 
significantly expedite the time for approval. All three applications 
were filed on July 1, 1996.
    I telephoned the Realty Specialist during the spring of 1997 to 
inquire when approval could be expected. She responded that there was a 
possibility that it would be sometime in 1997, but that it was more 
likely that it would take until the spring of 1998.
D. Forest Service Reverses Position After Three Years And Denies All 
        Small Tract Act Applications
    During the first few weeks of August of 1997 I placed several 
telephone calls to the Realty Specialist that went unanswered. I was 
finally able to get her on the telephone on Wednesday, August 20, 1997. 
I asked her the status of the approvals. She responded that after 
looking at the applications (which she reviewed in detail before they 
were filed) and the file, at that point there was not sufficient proof 
to meet the Small Tract Act requirements. I then reviewed with her what 
had been said during the review of the areas at my ranch. She responded 
that although she understood what I was saying, no one made any 
guarantees and that we may not meet the technical requirements of the 
Small Tract Act.
    On October 23, 1997 I had a meeting at the ranch with the new 
District Ranger, the Regional Land Surveyor-Title Claims Officer, the 
Forest Land Surveyor, the Realty Specialist, and my cousin. We 
discussed my view that clearing the land, building the rip gut fences, 
cultivating the soil, planting and harvesting crops, planting grass and 
grazing livestock and doing all of this for 137 years was a very real, 
legitimate, and significant improvement to the property. I contrasted 
that with one of the other Small Tract Act applications the Cedar City 
Office had approved in the Pinto Valley just a few years before. In 
that case the owner had constructed a barbed wire fence within the last 
15 years that added about 5 acres to his property. He had constructed 
and had built a shed at a cost of less than $500.00. A shed that could 
have been moved with a backhoe at the time. This area is located but a 
few thousand feet from the disputed area in the Platt Field. The reason 
for the encroachment in that instance, which had been accepted by the 
Cedar City Office, was the same survey discrepancies that I had noted. 
I questioned them how the latter could be determined to be an 
``improvement'' under the Act by the same office that was now opining 
that the improvements over 137 years on my property were not 
``improvements'' under the Act. No one could answer the question.
    During this meeting on October 23, 1997, I also had a discussion 
with the Forest Land Surveyor concerning my family's property in 
Section 3 of T38s - R15w which includes part of the Spring Field, as 
well as the Southwest Field. I stated that it made no sense as to why 
my great grandfather would apply for patent for property that included 
the mountainous terrain to the south of the cabin and the dry fields 
east of Pinto Creek in the southern part of the valley, if he had been 
allowed to apply for those lands west of and adjacent to the log cabin. 
There were no rip gut fences enclosing or even adjacent to the 
mountainous terrain and the dry fields east of Pinto Creek. In 
contrast, there were rip gut fences enclosing the west end of the 
Spring Field and there were rip gut fences enclosing the Southwest 
Field. Secondly, common sense cannot be ignored. The mode of 
transportation was still horseback, wagon or by foot. Unless you were 
told that the land was not open for patent, you would make application 
for that land that is outside your door land that you had cleared, 
cultivated, developed, worked, and used since 1860. You would apply for 
that land as opposed to dry land on the other side of the mountain, the 
other side of the valley, further south, and on the other side of the 
Pinto Creek.
    On December 1, 1997, I received a letter, dated November 24, 1997, 
providing, ``Since there were no improvements located on any of the 
three parcels for which you applied., we have determined that your 
applications for the Platt Field, Spring Field, and Reservoir Field do 
not meet the criteria of the Small Tracts Act and are hereby denied.'' 
After receipt of this letter I had several telephone calls with the 
District Ranger about possible alternatives to obtain title to my 
family's lands. He scheduled a meeting in Salt Lake City, Utah on July 
14, 1998.
E. Forest Service Takes Adamant Position That Under No Circumstances 
        Will It Sell Or Convey Only The Disputed Areas, But That I Must 
        Agree To Buy Or Exchange Lands Whereby I Must Acquire 
        Significantly More Acreage Than The Disputed Lands
    In attendance at the July 14, 1998 meeting in Salt Lake City, Utah 
were the District Ranger, the Regional Land Surveyor-Title Claims 
Officer, the Realty Specialist, an attorney for the Forest Service, and 
myself. The purpose of the meeting was to explore viable alternatives 
for my acquisition of the legal title to the disputed lands.
    After listening to the statements of the Regional Land Surveyor-
Title Claims Officer (``Claims Officer'') during this meeting, it was 
painfully obvious why the Forest Service had changed its position on my 
Small Tract Act applications. It was not because the Forest Service 
felt there were significant public values on the lands to be acquired 
or there were identifiable resources to be protected the Forest Service 
has conceded there are none. It was because my family's fence lines 
followed the natural terrain and jogged this way and that depending 
upon the topography. According to the Claims Officer, and he was 
emphatic in his position, the fence lines were contrary to and 
interfered with the Forest Service's ``management'' of the public lands 
because the fence lines were not straight and the property consisted of 
irregular shaped parcels of less than 40 acres.
    In response, I stated that my great great grandparents and Benjamin 
Platt had constructed the fences in a way that made sense enclosing the 
creek and other water sources, and following the natural topography of 
the land. I said that I should not be penalized for these pioneers not 
building straight fence lines that created blocked up ownership with 
right angles. At that point the Claims Officer stated, ``Your family 
may be a long term squatter, but as far as we are concerned that is all 
you are a squatter.''
    This meeting ended with me stating that I wanted to pursue a land 
exchange, as soon as possible, and perhaps simultaneously with other 
avenues, to expedite the transfer of title to the property.
    Subsequent to this meeting I had several telephone calls with the 
District Ranger and the Claims Officer reaffirming my desire to pursue 
the option of acquiring legal title to my family's property through a 
land exchange.
    During a telephone call on May 26, 1999, the District Ranger stated 
that the Realty Specialist recently requested that I put in writing my 
prior oral request for me to obtain title to my family's lands. The 
District Ranger, consistent with what the lecture I had received from 
the Claims Officer during the Salt Lake City meeting, asked me if I was 
willing to pay more money to acquire more acreage than what was within 
the existing fence lines so that the boundaries would have square 
corners and straight lines. I responded that I would. The District 
Ranger asked me to confirm that willingness in my letter request.
    On May 27, 1999 I faxed my letter request to the District Ranger. 
In compliance with the District Ranger's request, I wrote the following 
in that letter:
        In the event that it is more amenable to the Forest Service 
        that I acquire more acreage so that the boundaries have square 
        corners and straight lines (rather than follow fence lines that 
        have been in existence since the 1860s) I am willing to do so 
        with the full understanding that I would pay additional money 
        necessary to acquire more property for exchange. (Emphasis 
        added).
    In that letter I went on to describe my frustration in dealing with 
the Forest Service since 1994, detailing the basis for that 
frustration. A copy of this letter is attached here to as Exhibit 
``14.''
    The Forest Service sent me a letter, dated July 13, 1999, 
consistent with what the Claims Officer had emphatically told me during 
the Salt Lake City meeting and the telephone call I had with the 
District Ranger on May 26, 1999. Although the letter was signed by the 
District Ranger, it was prepared by the Realty Specialist. The letter 
provided in this regard, ``Please keep in mind that the objective is to 
create manageable boundaries and blockup ownership for the National 
Forest.'' (Emphasis added). The attachment to the letter is a map of 
the area that highlights in red the area the Forest Service was willing 
to exchange. It is Sectional Lots 6, 11, and 14, which total 120 acres. 
Upon reviewing this map, which is in color, you can see how the 
transfer of what has been highlighted in red would create straight 
fence lines, square corners, and blockup ownership that would create 
more manageable boundaries for the Forest Service.
    As noted previously, the total acreage in dispute in Sectional Lot 
11 (part of the Platt Field) was 11.8 acres. The area in dispute of the 
Corn Field, which is in Sectional Lot 6, is less than 10 acres. Neither 
my family nor I have claimed any interest in Sectional Lot 14. The only 
reason for the proposed conveyance of Lot 14 is the creation of a big 
rectangle of private land so the Forest Service would have straight 
fence lines, square corners, and more manageable boundaries. A copy of 
this July 13, 1999 letter including the attachment (in color) is 
attached hereto as Exhibit ``15.''
    This letter also provides, ``I do not wish to exchange out of 
Federal ownership in Section 3, 38 S., R. 15 W.'' This position is 
arbitrary, as the Forest Service has subsequently confirmed that there 
are no significant public values on the lands to be acquired in Section 
3 and that there are no identifiable resources to be protected in this 
area. Two fields with rip gut fences, one of which is two feet from my 
great great grandparent's log cabin, are in Section 3. In light of the 
equities involved, there is simply no justification for this arbitrary 
position.
    In light of the objectives emphatically explained to me by the 
Claims Officer, my telephone conversation with the District Ranger 
wherein I was asked to request, in writing, the transfer of additional 
acreage so that the boundaries have square corners and straight lines, 
and the letter of July 13, 1999, I recently requested the Forest 
Service to set forth the basis for those objectives. The Forest Service 
has subsequently confirmed in writing the basis for its objectives: (1) 
to blockup ownership; (2) to have straight boundaries between Forest 
Service property and privately owned property; (3) to create more 
manageable boundaries for the Forest Service, based on the belief that 
straight boundaries are more manageable than boundaries that are not 
straight; (4) to exchange lands to private ownership by sectional lot 
or lots in order to create blockup ownership, straight boundaries 
between Forest Service property and privately owned property, and to 
create more manageable boundaries with the Forest Service. Attached 
hereto as Exhibit ``16'' is a letter from the Forest Service, dated 
July 1, 2002, referencing the regulations, the Act, the Manual, and the 
Resource Management Plan upon which they rely.
F. Proposed Acquisition of 560 Acres At Fair Market Value Does Not 
        Require The Transfer of One Square Inch of Land More Than 
        Necessary To Satisfy The Emphatically Stated Forest Service 
        Requirements For the Last Four Years
    Pursuant to the proposed acquisition at fair market value of 560 
acres I will acquire legal title to the disputed areas in the Spring 
Field, the Southwest Field, the Platt Field, the Corn Field, and the 
Reservoir Field. Importantly, it will also satisfy each and every one 
of the Forest Service objectives: 1) to blockup ownership; (2) to have 
straight boundaries between Forest Service property and privately owned 
property; (3) to create more manageable boundaries for the Forest 
Service, based on the belief that straight boundaries are more 
manageable than boundaries that are not straight; (4) to convey lands 
to private ownership by sectional lot or lots in order to create 
blockup ownership, straight boundaries between Forest Service property 
and privately owned property, and to create more manageable boundaries 
with the Forest Service. In fact, the conveyance of the 560 acres does 
not include any land whatsoever other than the absolute minimum 
necessary to satisfy the Forest Service stated requirements. A copy of 
the legal description for the 560 acres is attached hereto as Exhibit 
``17.'' It should be noted that it does not include Sectional Lot 14, 
which was proposed to be conveyed by the Forest Service.
    The Forest Service has confirmed that none of the land to be 
conveyed has any significant public values and that there are no 
identifiable resources to be protected.
    On the other hand, the loss of the disputed areas would be 
devastating to my family's property. Among other things, all access to 
the Pinto Creek would be lost in two major fields where I graze cattle. 
The permittee, his cattle, and other parties would have unfettered 
access to the headwaters of my best water spring which would compromise 
and place that spring in jeopardy. The permittee, his cattle, and other 
parties would have unfettered access to an area but a few feet from the 
source of another of my best springs. I would have the permittee's 
cattle and others within two feet of my great great grand parent's 
cabin.
    Finally, the District Ranger has confirmed that the circumstances 
of the history and use of these lands are unique and there are no 
similarly situated lands in the Dixie National Forest.
G. In Response To The Possible Legislation In Recent Weeks The Forest 
        Service Cedar City Office Has Changed Its Position Yet Again 
        Metes and Bounds Are Acceptable Straight And Manageable Lines 
        Not Important
    On Friday, July 12, 2002, I telephoned the District Ranger and 
learned that the Cedar City Office of the Forest Service is now 
changing its position regarding its objectives for the conveyance of 
properties. I then telephoned the new acting Forest Supervisor in the 
Cedar City Office. He told me that metes and bounds conveyances of 
property are totally acceptable. I related to him the position 
articulated to me by the Claims Officer four years before a position 
the Forest Service has continued to maintain with me during the last 
four years. He responded that he had recently spoken with the Claims 
Officer and he had no problem with conveying land on a metes and bounds 
description (with fence lines that go this way and that) either.
    This very recent change in position is totally inconsistent with 
the position of the Claims Officer and this Local Office for the past 
four years. Suffice it to say that it is extremely frustrating to be 
trying to solve a problem in an environment where the rules keep 
changing after you have expended tremendous amounts of time, money and 
effort.
    Mr. Chairman, I believe the evidence and the equities are 
overwhelming. I am not asking the Congress to give me anything. I am 
asking the Congress to authorize the sale of my family property back to 
me for fair market value and to establish straight and manageable 
boundaries for the Forest Service. Mr. Chairman, I respectfully request 
the favorable consideration of this legislation and I am prepared to 
answer any questions you might have or provide any further information 
that the Subcommittee desires. Thank you Mr. Chairman for your time.
                                 ______
                                 
    [NOTE: Attachments to Mr. Harrison's statement have been 
retained in the Committee's official files.]
    Mr. McInnis. We will open it up for questions by the 
Committee.
    And, Abigail, maybe you can--Ms. Kimbell. I'm sorry. Maybe 
you can help me. You said in your earlier comments that the 
Forest Service didn't have objections I think to the 20-acre 
tract. How come they didn't already complete those 
transactions? I mean, are they holding that as part of the 
negotiations, or--
    Ms. Kimbell. When Mr. Harrison applied for three different 
parcels under the Small Tracts Act, we have been working back 
and forth, but there have been pieces that have not been 
completed by the other party.
    Mr. McInnis. Now, someone--I think it was in your 
testimony, that this has been going on since the 1990's. Or, 
how long have the two parties been engaged in trying to resolve 
this?
    Ms. Kimbell. Well, in fact, some of these lands were 
pursued for patent prior to the establishment of the National 
Forest and were turned down then in, I believe, the 1880's.
    Mr. McInnis. When did the Small Tracts Act requests come 
in? Do you know those?
    Ms. Kimbell. The original Small Tracts Act application was 
made in 1996.
    Mr. McInnis. All right.
    Mr. Harrison. May I answer that?
    Mr. McInnis. Mr. Harrison.
    Mr. Harrison. The initial Small Tracts application was made 
in 1991.
    Mr. McInnis. And which part was that on up there on that 
map?
    Mr. Harrison. That was on what I reference the Platt Field, 
and that would be on the eastern side of the Pinto Creek.
    Mr. McInnis. And the north--as that map sits, the north is 
up on the top? So I know where east is.
    Mr. Harrison. The north is up on the top. Correct.
    Mr. McInnis. All right.
    Now, Ms. Kimbell, you mentioned that the Forest Service 
thought there were ways to resolve this. Are the parties 
currently engaged in some kind of negotiation to resolve this, 
short of legislation? Or are they--tell me what the trend of 
this is, where our trend is going here.
    Ms. Kimbell. We currently have no authority to sell 
National Forest System lands. We have offered to work with Mr. 
Harrison on those Small Tracts Act applications, two of the 
three of them.
    Mr. McInnis. OK. Now, help me now. The one that you object 
to--tell me the two that you agree to and the one--maybe if 
you--and I am not sure you are familiar with this area, but 
maybe you could help me on the map, too. That is my only--that 
is the best reference I have got, is looking at the graph. Are 
you familiar enough to tell me which of the two you agree with 
and the one that you don't?
    Ms. Kimbell. I am not familiar with which one is the third 
piece that we do not agree with.
    Mr. McInnis. Are you aware of which one that is, Mr. 
Harrison, the third piece that they said they don't agree with?
    Mr. Harrison. It is on the southernmost tip. It is the 
Reservoir Field. That is about four acres and includes my best 
spring. That is--and I own the spring.
    Now I don't--you know, there is no water that is the 
subject of these conveyance that would go from them to me. I 
already own the water.
    Mr. McInnis. The water is a separate property right. Isn't 
that correct?
    Mr. Harrison. Yes.
    Mr. McInnis. All right. I am sorry, Abigail--Ms. Kimbell--
go ahead.
    Ms. Kimbell. Mr. Chairman, it is those pieces in orange--
and I agree. I am struggling to see the orange from the pink. 
But--that are on the west side and the east side, and the piece 
on the south side is the side that is adjacent to lands that 
were acquired in 1965 and don't qualify under the Small Tracts 
Act.
    Mr. McInnis. So--but what we need is legislation. I mean, 
legislation is going to be required, correct?
    Ms. Kimbell. If lands are to be conveyed to Mr. Harrison, 
that--we currently have no authority to convey lands, those 
lands that are marked in orange on the south side of the 
parcel.
    Mr. McInnis. Now, is the Forest Service protesting or 
laying claim to any of the water rights that Mr. Harrison has, 
or they are not making any claims on the water rights?
    Ms. Kimbell. No, water rights aren't an issue here, other 
than the access for other owners of water rights to access 
their water rights for maintenance.
    Mr. McInnis. All right.
    Mr. Harrison, I will let you wrap it up there real quick on 
the water rights.
    Mr. Harrison. Let me address that.
    The Pinto Irrigation Company, of which I am a member--and 
we have shares in the creek, through the Pinto Valley controls 
and manages that creek. I can represent that I have spoken to 
the president of the Pinto Irrigation Company, and they are 
unanimously in support of my retaining possession and obtaining 
legal title to that area of land where the Pinto Creek goes 
through.
    Mr. McInnis. I think it would probably assist your case to 
go ahead and get a statement or something from the irrigation 
company to supplement the documents that you submitted, and we 
will accept that into the record.
    I will now go to Ms. Christensen. Do you have any 
questions?
    Mrs. Christensen. Yes, I do. Thank you.
    Mr. McInnis. You may proceed.
    Mrs. Christensen. I would like to take this opportunity to 
welcome everyone at the panel this morning. I am going to ask 
my questions. I am going to focus mainly on H.R. 2386.
    I agree that there is benefit in having outfitters and 
guides for both the visitor and the property, but I do have 
some concerns about the bill. Because--and primarily I am 
having difficulty seeing how continuing marginally performing 
outfitters or guides would do that, enhance the visitors' 
experience or the property.
    My first questions would go to Ms. Barnett, the Deputy 
Assistant Director. Could you clarify for me, does the 
Administration support the provisions in the bill providing for 
non-competitive bids and automatic renewal of outfitter and 
guide permits?
    Ms. Barnett. Those are areas that we would like to work on 
with the Committee. We share some of your concerns.
    Mr. McInnis. I think you need to turn on the mike there.
    Ms. Barnett. We share the Committee's concerns in that 
regard. We appreciate your bringing those up, and we would like 
to continue to work with you in those areas that are 
specifically the issues that you brought up that we are 
concerned about.
    Mrs. Christensen. Along the same lines, you also share the 
concern that the same fee is being charged to all outfitters 
and guides in a given area, regardless of the size of the 
outfitter?
    Ms. Barnett. My official testimony submitted reflects the 
position of the Department. We will work with you on that issue 
as well.
    Mrs. Christensen. So--well, so the Administration doesn't 
have--as I understand it in the bill, it is the same fee to be 
charged to all of the outfitters and guides, regardless of 
size. And it wasn't clear to me that you had stated a position 
on that.
    Ms. Barnett. I think the position we are looking for is 
consistency in the application of any fee structure.
    Mrs. Christensen. Under the legislation, an outfitter and 
guide could have one unsatisfactory and multiple marginal 
rating and still be entitled to an automatic renewal of the 
permit. Does the Administration support that?
    I know that one of the persons who testified said that that 
was not the case, but the bill on page 29 said: The Secretary 
shall renew all outfitter authorization under paragraph 1 if 
the Secretary determines that the authorized outfitter has not 
received more than one unsatisfactory annual performance. And 
that is all it says. So, they could be marginally performing as 
long as they only have one unsatisfactory. Do you support--
    Ms. Barnett. We do not support the provision for automatic 
approval of transfers, but we do support the principle of 
making sure that they are processed in a timely fashion, and we 
want that opportunity, to work with them to correct any 
deficiencies before any kind of transfers are made.
    Mrs. Christensen. Thank you.
    Ms. Kimbell, you stated in your testimony on the same bill 
that Forest Service wants to work with the Committee to resolve 
several important issues that you see would make a better bill. 
But I didn't see in your testimony any specific issues that you 
might have been referring to. Can you tell us where the issues 
are in the bill so that we can work with both you and the 
Forest Service and our colleagues to see that they are 
corrected?
    Ms. Kimbell. Certainly. The Department has two critical 
issues that we would like to work with the Committee on 
different language. One has to do with liability. We have been 
working with the industry over a number of years, and we think 
we are pretty close to being able to identify common language 
that would work for both of us. But specifically-- one 
specifically on liability.
    The other is on this very same question with the automatic 
renewal of permits. We have some suggestions for some language 
changes, and we would like to work with our good friends at the 
Department of the Interior and with the Subcommittee.
    Mrs. Christensen. So you share the concerns about the 
ability for the marginally performing outfitter to 
automatically be renewed and the fees? The same questions that 
I asked of Ms. Barnett.
    Ms. Kimbell. Yes, and other things from Ms. Barnett's 
testimony regarding changes in land condition, changes in 
demands. There are some other things that we would like to 
address as well.
    Mr. McInnis. Mr. Udall.
    Mr. Mark Udall. A little dispute between the Udalls here. 
Thank you, Mr. Chairman. It is an ongoing problem around here. 
There are too many Udalls; and if you have seen one, you have 
seen them all, somebody once said.
    But, panel, it is great to have you here today, and I 
wanted to thank you for taking your time to join us. I wanted 
to focus my remarks on the PILT legislation, but before I do 
that, I wanted to acknowledge the great work of Outward Bound 
and also America Outdoors. It is terrific to see you here.
    I want to thank the Chairman for his strong comments in 
support of the good work that the outfitter guide community 
does to not only expose people of all ages and backgrounds to 
our wonderful public lands but, in the process, to build 
character and teach people how to work in teams and how to draw 
on the best in themselves; and I think we need that more than 
ever in this world that we now face post 9/11.
    So--and my son is on his way to Outward Bound as soon as I 
can get him in a car and send him your way. He needs that kind 
of experience, maybe as pay-back for what I did to my parents.
    But it is great to see you all here, and I look forward to 
working with you on the outfitter guide legislation. I, of 
course, have first-hand experience in working with the agencies 
and finding that proper balance between the needs and 
responsibilities and rights of the outfitters versus the 
managers of our public lands.
    Let me just move to PILT. I am particularly glad that we 
are taking up these important pieces of legislation. In 
Colorado and other Western States, it is really a crucial 
program, particularly where there are large tracts of Federal 
lands; and that makes me a strong supporter of PILT for many 
reasons.
    Mr. McInnis. Mr. Udall, I am sorry to interrupt you, but we 
haven't yet gotten to the PILT bill. I would ask you to reserve 
your comments on PILT until we have the testimony that will be 
subsequent to this and that we focus on these two particular 
bills. I understand the two witnesses that you have from the 
Forest Service and Bureau of Land Management will be present 
during the PILT presentation. So I ask you to reserve that.
    Mr. Mark Udall. Mr. Chairman, I understand. I have no 
further questions of the other bills. If I could include my 
statement in the record, I would appreciate it. I am going to 
be called to another meeting I think before the next testimony 
will occur, but I understand. Thank you.
    Mr. McInnis. Mr. Udall, if you would like to, since you 
have got to go to the other meeting, since we do have a 
witness--I wasn't aware of that--you can go ahead and express 
your concerns. Then, maybe during their testimony, you can 
cover that and then you can look for the record for an 
appropriate response.
    Mr. Mark Udall. That would be something I would like to do.
    Let me just finish my remarks, just take another minute or 
so, Mr. Chairman.
    The feeling I have is that the funding out of PILT should 
be stable and reliable. It shouldn't be rising and falling 
based on such things as timber receipts or fees, and it ought 
to be a program that the local governments can count on without 
becoming a hostage to debates over the management of Federal 
lands. Local counties have a stake in those management debates, 
and the land managing agencies should listen carefully to what 
they have to say. But a stable, dependable PILT program will 
free the local governments from a dependence that can make it 
harder for them to weigh the issues involved. That is one of 
the reasons I am a co-sponsor of Mr. McInnis' bill, H.R. 1811.
    I look forward to hearing the testimony if I can stay; and, 
if not, I will read the testimony and extend any questions to 
witnesses.
    But I really want to impress, as I think my Chairman will, 
Mr. McInnis, that we want to strengthen the PILT program. I 
think his legislation is very well put together, and I am a 
little disappointed the Administration seems to have problems 
with it, but we are going to work together to make this right 
in the long run.
    So, thank you, Mr. Chairman.
    Mr. McInnis. Thank you, Mr. Udall.
    Mr. Otter.
    Mr. Otter. I have nothing.
    Mr. McInnis. Mr. Horn, before we wrap up this panel, just 
let me ask you. The outfitters--just to clarify from some 
earlier testimony, because maybe I am confused. But my 
understanding is that outfitters don't automatically get their 
permit renewed. They have to have lived up to the conditions of 
the contract to the agreement that they have made prior to the 
renewal. Is that correct or not?
    Mr. Horn. Yes, Mr. Chairman. They have to earn satisfactory 
performance for 9 years out of the 10. Any reading of the bill 
that you can continue with a marginal rating is a misreading. 
The marginal rating is essentially a temporary evaluation which 
points out deficiencies in your performance; and if you do not 
cure those deficiencies, your marginal rating drops 
automatically to unsatisfactory. If you cure the deficiencies, 
it enables you to earn a satisfactory rating.
    So the only way that you can earn the renewal that is 
specified in the bill is, as I said, by batting 900. You have 
to get a formal satisfactory evaluation for 9 years out of the 
10.
    Mr. McInnis. Thank you, Mr. Horn.
    Mr. Inslee, do you have any questions of the panel?
    Mr. Inslee. I have a couple, Mr. Chairman.
    Mr. McInnis. Sure.
    Mr. Inslee. Thank you.
    My apologies for not being able to join you; and if my 
questions are duplicative, I regret that.
    Mr. Harrison, I wanted to ask you about this proposed 
acquisition in this beautiful country. We are all envious of 
the beautiful country you live in. Could you explain to me--I 
have been told that your original application was something 
around 25 acres, and now the proposal is about 500-plus. Could 
you explain how that occurred, that change, if you will?
    Mr. McInnis. Let me interrupt, Mr. Harrison. We had 
already--I asked him an almost identical question early on. So 
why don't you refer to the record, Mr. Inslee, and move on to 
your next question. That has been asked. He went through a 
whole process up here, and I think you could track it in the 
record, if you don't mind. I know you weren't here.
    Mr. Harrison. Could I expand on it just briefly?
    Mr. McInnis. Sure.
    Mr. Harrison. Four years ago the Forest Service took the 
position on the east side where I had applied for 11.8 acres 
that I had to acquire 120 acres rather than the 11.8. The 
genesis of the 560 is parameters that have been dictated to me 
by the Forest Service for the last 4 years that are in the 
materials that I provided.
    Mr. Inslee. Again, my apologies. But is that having to do 
with just having straight boundaries, or is there some other 
thing going on here?
    Mr. Harrison. The Forest Service described it to me as in 
furtherance of their management objective of straight 
boundaries, sectional lot divisions, right angles, blocked-up 
ownership.
    Mr. Inslee. And how would you describe the inability to get 
this done administratively? How would you describe the--where 
does the Service's or the agency's perception differ from you 
on the history of this tract? What is the kernel of contention, 
really?
    Mr. Harrison. Well, the two reasons stated to me were, one, 
these were small meandering fence lines that they thought would 
be contrary to their management objectives; and, second of all, 
they pointed to an Interior Board of Land Appeals where someone 
had a piece of ground that was not improved and they brought in 
outside materials, barbed wire and fence, and just simply built 
a fence around it and said, well, that is not improvement.
    I submit that my position is radically different than that, 
in that the rip-gut fences that surround my boundaries are 
evidence of an improvement by clearing the land, cultivating 
the land, growing crops. I have submitted records from the 
1860's and the 1870's of the crops and the livestock that my 
family was raising on this ground, and I think those are 
significant improvements.
    My position is radically different than the Interior Board 
of Land Appeals' decision where somebody just simply brought in 
some barbed wire and built a fence.
    Mr. Inslee. Thank you.
    Mr. Mackey, I am going to ask kind of a softball question. 
It is late, but it is still a softball question. What do you 
think the most important thing for us to know is as far as 
increasing your ability to fulfill your mission, which my kids 
have enjoyed being part of? I mean, if you can tell us one 
thing, what do you think is the most important thing for us to 
be thinking about in regard to your mission?
    Mr. Mackey. The thing that I focused on this morning, 
Congressman, was performance-based renewal. We get in--we are a 
non-profit educator. We are 501(c)(3). We are a large user of 
the public lands. There is no question about that.
    Outward Bound evolved early in the system, if you will. It 
started in this country in 1961. And the way the system has 
evolved, there is a national office and underneath that there 
are seven separately chartered 501(c)(3)s, each of which was 
started up in a local community when people saw how wonderful 
Outward Bound was.
    You know, if you will, we have sort of become a General 
Motors of the outdoor industry. We are a big player on public 
lands. There is absolutely no question about that.
    But even though we are a significant player out there, we 
are still very threatened by the concept of fee bidding, of 
competitive bidding for permits. We would like to see a system 
whereby your performance on the ground, your performance in 
terms of providing quality services that the public is seeking 
out there on the public lands, resource protection, education--
    Paying a fair return to the Federal Government is certainly 
part of the process. There are many places where Outward Bound 
has actually voluntarily taken outfitter status so that we can 
have that allocation of use for which, in return, we fill out 
paperwork, we pay fees, you name it.
    But the best example, Congressman, is--at this point in 
time is really western rivers. Set aside the Grand Canyon, 
because that is really a separate example. But if you take 
rivers throughout the West, you know, the Green River in 
Colorado, and Utah and Desolation Canyon, the Rogue, the 
Current in California, any number of rivers--the situation 
there is very competitive in this day and age, and the agencies 
are beginning to look at competitive bidding for those permits.
    We can certainly compete very well based on what we do out 
of the ground, but Outward Bound cannot compete with a Delaware 
North or a Marriott Corporation for those premier experiences, 
and we would like to be able to offer those premier experiences 
to the people we serve, primarily young people. Those $2 
million in scholarships we raise every year and pass out on a 
sliding scale, much like college financial aid--you know, we 
think we provide a very important service in terms of 
introducing a broad array of people in this country to their 
public lands and teaching them how to take care of their public 
lands and take care of themselves while we are at it.
    So what I focused on this morning is really performance-
based permit renewal, and the biggest single issue that is 
wrapped into that is subordination of fees in either the award 
of a permit or the renewal of a permit.
    Mr. Inslee. Thank you.
    Mr. Mackey. Thank you.
    Mr. McInnis. No further questions.
    I want to thank all the panel on the different areas.
    Mr. Tom Udall. Mr. McInnis--Mr. Chairman, could I ask some 
questions? I was just passing to my cousin Mark since he was 
here earlier. But I didn't want to--
    Mr. McInnis. Mr. Udall, I took it as a yield of time. But 
out of my generosity of the day, I will let you have your time.
    Mr. Tom Udall. Well, you are very generous, Mr. Chairman; 
and I certainly appreciate it.
    I have been reading this press article up here. This is--
    First of all, welcome to the panel, and sorry I am a little 
late here. I almost missed out here, I guess, but the Chairman 
has been very generous.
    Let me--and in this press article it talks about, there is 
a July 18th memo from the Forest Service that cited several 
concerns about the proposed sale of the 560 acres, and these 
were the concerns: That there were two grazing permittees that 
would be adversely affected. A second concern: Another 
landowner's property would be completely surrounded by 
Harrison's property. The third concern: A spring and more than 
a half mile of Pinto Creek would be removed from public 
ownership. No. 4: The sale would nearly double the amount of 
private property in Pinto, leading to a change in the rural 
character of the area. And, No. 5: The sale may be viewed as 
inequitable to other families who have acquired only small 
parcels of land from the Forest Service.
    I am just wondering, are those five concerns still concerns 
of the Forest Service today? What is the Forest Service's 
position on those concerns from your July 18th memo and where 
are you today?
    Ms. Kimbell. I am not aware of the July 18th memo, but 
those still remain concerns of the U.S. Forest Service, yes.
    Mr. Tom Udall. And none of those have been worked out, as 
far as you are concerned?
    Ms. Kimbell. Not to date. No.
    Mr. Tom Udall. Mr. Harrison, how do you react to those 
concerns in the July 18th memo?
    Mr. Harrison. I have also not seen the memo, but I will 
address the concerns as I understand them.
    As I stated earlier, the person that has access to the 
county road will still have access to the county road. That 
won't be changed. The permittee's rights will not be affected. 
This would be subject to existing rights of the permittee. It 
will not change the rural character. I have no intention of 
developing this land or anything. This is my family land. This 
is my heritage. This is what my family is about.
    Mr. Harrison. The site--that article is so unfair, because 
for the Forest Service, the Forest Service has dictated the 560 
acres by the parameters they have given me in the last 4 years, 
and to now turn around and say that somehow Congressman Hansen 
is out of line or to say that anything--I mean, it is 
absolutely incredible their position has changed just as of 
this morning again. The 560 is dictated by the parameters set 
to me by the Forest Service, and it is in the materials that I 
provided.
    Mr. McInnis. If you will let me interrupt you for a minute, 
I will just point out that the previous testimony that--as I 
understand it, that the family has resided on the property 
since the 1860's, generation after generation after generation. 
A lot of history to the property.
    Mr. Tom Udall. Mr. Harrison, you understand it is pretty 
extraordinary for the Forest Service to be selling this kind of 
acreage to a private citizen, don't you?
    Mr. Harrison. As I just said earlier, the area where I 
applied for 11.8 acres, and the letter is in here. They 
insisted that I take 120.
    Mr. Tom Udall. Is it your position these issues that are 
raised by the Forest Service are all resolved? It seems like 
you went through them rather quickly here. I mean, the two 
grazing permittees, they are not adversely affected?
    Mr. Harrison. This bill--the conveyance I would take would 
be subject to their existing rights. It wouldn't terminate 
their rights.
    Mr. Tom Udall. So they are not impacted in any way?
    Mr. Harrison. If they have got a 10-year lease and they 
have got 9 years left, I take subject to that 9-year lease.
    Mr. Tom Udall. The Forest Service woman there is shaking 
her head. Can you respond there to that, Abigail? Sorry to--
    Ms. Kimbell. On National Forest System lands, we have 
grazing permits, not grazing leases, and they don't--they 
aren't on a 10-year time period. As we read the bill, those 
leases would--or those permits would terminate, and the 
remaining available forage would allow for about a 98 percent 
reduction in the size of those two permits.
    Mr. Tom Udall. So they are adversely affected? There is no 
doubt about that?
    Ms. Kimbell. Yes, they would be.
    Mr. Tom Udall. Mr. Harrison.
    Mr. Harrison. My understanding, whether it is a permit or a 
lease, they are in 10-year increments, and whatever time is 
left, I would take subject to that. I would like to address the 
water issue as--
    Mr. Tom Udall. Well, the problem with that is that most 
people that graze on Federal land anticipate doing it for 
longer than 10 years. I mean, many of these are families that 
have been in the business for hundreds of years, and they don't 
view it as a little 10-year period. They view it that if they 
are good stewards and they treat the land properly, that they 
can get a renewal of the permit. You are trying to extinguish 
their rights and just say, oh, you know, it is no big deal to 
them it sounds like.
    Mr. Harrison. I am not trying to extinguish their rights. I 
am merely trying to get legal title to my family's lands.
    Mr. Tom Udall. But you want full control and authority over 
the land at the end of 10 years it sounds like, which would be 
adverse to their rights.
    Mr. Harrison. I have no problem working something out with 
the permittee. I mean, one of them is a good friend of mine. I 
mean, I--
    Mr. Tom Udall. Thank you very much, Mr. Chairman.
    Mr. McInnis. I am going to go ahead and let Mr. Inslee ask 
a couple questions. Then we need to expedite it because we are 
expecting votes around 11:30.
    Mr. Inslee.
    Mr. Inslee. Thank you, Mr. Chairman. I appreciate it. I am 
sure you understand our curiosity about this is when the 
applicant comes in for about 25 acres and ends up with a bill 
of about 500, and the answer is that the Forest--or the agency 
wanted to have sort of straight lines or sectional definitions 
as best I could figure it out. Is there any way to do a 
straight line meets and bounds definition, if they want 
straight lines, where you end up getting somewhere 25 acres or 
50 acres that may not be exactly historical usage but gives you 
a straight line boundary if that is what the agency wants and 
we can tell the public that this is a little more consistent 
with kind of fairness as far as historical usage? Is there a 
way to do that? Have you talked to the agency about potentially 
doing that at all?
    Mr. Harrison. I would be more than happy to sit down with 
them and work something out to make sense for both of us.
    Mr. Inslee. Thank you.
    Mr. McInnis. You know, I do want to point out that the bill 
does have the language. It subjects any transfer to Mr. 
Harrison to existing rights, and so on.
    Well, I want to thank the panel. I also thank the 
Committee. I think we have had a good examination of this 
particular issue. I thank all of you.
    We will keep the record open on this for a period of 10 
days.
    Mr. McInnis. I will now introduce our witnesses for our 
third bill, H.R. 1811, on Panel II: Chris Kearney, with the 
Department of Interior; the Honorable Don Davis, Commissioner 
of Rio Blanco County, Colorado; and Linda Cable, City 
Administrator, Swain County, North Carolina.

   STATEMENT OF THE HON. SCOTT McINNIS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. McInnis. Again, we are subject to the 5 minutes. I am 
going to go ahead while our witnesses are being seated and 
start my opening statement due to the fact we have votes 
momentarily.
    I want to thank my colleague Mr. Radanovich whose 
Subcommittee retains primary jurisdiction over the PILT issue 
for joining me--excuse me, for joining with Mr. Gilchrest and 
me in convening today's session hearing on this legislation 
that is so important to communities across our country.
    When Congress enacted payment in lieu of taxes, commonly 
called PILT, and the Refuge Revenue Sharing Act, it made both 
an admission and a promise. The admission that Congress made 
was that it would be fundamentally unfair for the Federal 
Government to own vast tracts of land within a country or 
municipality, land that would otherwise provide local revenue 
in the form of property tax to fund roads, schools and other 
important social issues and not reimburse the county for those 
revenue losses.
    Remember, the Federal Government holdings are generally 
immune from State and local tax and so Congress affirmatively 
recognized that these localities would quite literally wither 
on the vine without some form of compensation from the Federal 
Government.
    With that admission in mind, Congress made a promise to 
provide just and reasonable compensation of local governments 
whose tax base is eroded by large Federal land ownership 
presence. This promise was embodied and codified in PILT and 
the Refuge Revenue Sharing Act, which set out a reimbursement 
formula under which the localities would be compensated. I 
would note for the benefit of the Committee and the guests we 
have today, that in my particular district, I have 
approximately 120 communities, 119 of which are completely 
surrounded by public lands.
    Now, since it is the--and I think Mr. Davis, your county 
has, what, 98 percent? What is your percentage of government 
owned? 75 percent.
    Now, since this is the Subcommittee on Forest and Forest 
Health and not the Committee on Rocket Science, I am not going 
to even begin to try and explain the mind-numbing nuances of 
PILT and the refuge revenue funding formulas. I will leave that 
for another day, but I will say these formulas set out a 
reasonable framework for compensating our friends in local 
government.
    Unfortunately, Congress has rarely been willing to fully 
fund PILT and the Refuge Revenue Fund at the levels authorized 
under those formulas. You couldn't say that Congress totally 
broke its promise, but there is no question we have been 
fudging big time.
    In Fiscal Year 2002, Congress shortchanged PILT by almost 
$40 million and the Refuge Revenue Sharing Fund by over $16 
million. In the scheme of the United States Treasury, this may 
not seem like a big deal. Representatives of counties and other 
local governments, including my good friend Mr. Davis, who is 
here to testify today, will tell you otherwise.
    Now, there are some who say we can't afford permanent full 
funding of PILT. I say we can't afford not to. We have 
committed ourselves. We are obligated to legally, and in 
addition to that, as good neighbors we are obligated to. PILT 
and the Refuge Revenue Sharing Act fund the nuts and bolts 
programs that keep the community strong. Those dollars go 
directly to classrooms, to expanding, in some cases paving the 
local county road, to keeping cops on the street, to funding 
critical social service programs. I might also add that our 
emergency services perform a number of duties on Federal lands, 
ambulance, rescue, firefighting, et cetera. So they are due 
appropriate compensation that every other citizen in the county 
has to pay for.
    This is mom and apple pie stuff. Colleagues, it is being 
shortchanged because Congress has a historic propensity to 
fudge on its word.
    H.R. 1811, the PILT and Refuge Revenue Sharing Permanent 
Funding Act of 2002 would rectify this inequity by doing just 
what the title suggests, fully funding both programs with 
further appropriation.
    The bill solidifies Congress' promise to our friends in 
local government in ironclad terms by guaranteeing that the 
appropriated funds will always equal the levels authorized by 
these complicated formulas. No more partial funding, no more 
fudging on our word. H.R. 1811 settles the score once and for 
all for all communities and local governments.
    We have another PILT bill, H.R. 5081, and I understand we 
have a witness, Mr. Wallace. Is Mr. Wallace here? Mr. Wallace, 
why don't you come on up to the table? Because we have a vote 
coming up very quickly, I would like to have you there. We will 
move to you as soon as we finish with these other three. Now, 
you all are entitled to 5 minutes, but if you can keep it less 
than 5 minutes, I would appreciate it because of the fact we 
are expecting a vote, and my guess would be that once we get 
the vote, we will not be able to reconvene the Committee until 
sometime after lunch, if that.
    So we will go ahead and proceed. Mr. Kearney, with 
Department of Interior, thank you for coming. Why don't you 
begin with your statement?
    [The prepared statement of Mr. McInnis follows:]

          Statement of The Honorable Scott McInnis, Chairman, 
               Subcommittee on Forests and Forest Health

    I want to thank my colleague, Mr. Radanovich, whose Subcommittee 
retains primary jurisdiction over the PILT issue, for joining with Mr. 
Gilchrest and me in convening today's hearing on this legislation 
that's so important to communities all across this country.
    When Congress enacted Payment In Lieu of Taxes (PILT) and the 
Refuge Revenue Sharing Act, it made both an admission and a promise. 
The admission that Congress made was that it would be fundamentally 
unfair for the Federal Government to own vast tracks of land within a 
county or municipality--land that would otherwise provide local revenue 
in the form of property tax to fund roads, schools and other important 
social services--and not reimburse the county for those revenue losses. 
Remember, the Federal Government's holdings are generally immune from 
state and local taxation. And so Congress affirmatively recognized that 
many localities would quite literally whither on the vine without some 
form of compensation from the Federal Government.
    With that admission in mind, Congress made a promise to provide 
just and reasonable compensation to the local governments whose tax 
base is eroded by a large Federal land ownership presence. That promise 
was embodied and codified in PILT and the Refuge Revenue Sharing Act, 
which set out a reimbursement formula under which localities would be 
compensated.
    Now since this is the Subcommittee on Forests and Forest Health, 
and not the Committee on Rocket Science, I'm not even going to begin to 
try to explain the mind-numbing nuances of the PILT and Refuge Revenue 
funding formulas. I'll leave that for someone else. But what I will say 
is that these formulas set out a reasoned and responsible framework for 
compensating our friends in local government.
    Unfortunately, Congress has rarely been willing to fund PILT and 
the Refuge Revenue Fund at the levels authorized under these formulas. 
You couldn't say that Congress totally broke its promise, but there's 
no question we've been fudging big time. In Fiscal Year 2002, for 
example, Congress shortchanged PILT by about $140 million, and the 
Refuge Revenue Sharing fund by over $16 million. In the scheme of the 
United States Treasury, this may not seem like a big deal. 
Representatives of counties and other local governments including my 
good friend Don Davis who's here to testify today will tell you 
otherwise.
    Now there are some who say we can't afford permanent full funding 
of PILT. I say we can't afford not to. PILT and the Refuge Revenue 
Sharing Act fund the nuts-and-bolts programs that keep communities 
strong. These dollars go directly to classrooms, to expanding--and in 
some cases paving--the local county road, to keeping cops on the 
street, and to funding critical social service programs. This is mom-
and-apple pie stuff, Colleagues, that's being shortchanged because of 
Congress' historic propensity to fudge on its word.
     H.R. 1811, the PILT and Refuge Revenue Sharing Permanent Funding 
Act of 2002 would rectify this inequity by doing just what the title 
suggests--fully funding both programs without further appropriation. 
The bill solidifies Congress' promise to our friends in local 
government in ironclad terms by guaranteeing that appropriated moneys 
will always equal the levels authorized by those complicated formulas.
    No more partial funding, no more fudging on our word. H.R. 1811 
settles the score once and for all for communities and local 
governments.
                                 ______
                                 

STATEMENT OF CHRIS KEARNEY, ASSISTANT SECRETARY FOR POLICY AND 
     INTERNATIONAL AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Kearney. Thank you, Mr. Chairman. I will be brief and 
also touch briefly on H.R. 5081 in my statement. Mr. Chairman 
and members of the Committee, I am pleased to have the 
opportunity to testify today on H.R. 1811 and H.R. 5081, bills 
that would make the Bureau of Land Management's Payment in Lieu 
of Taxes program and the Fish and Wildlife Service's Refuge 
Revenue Sharing program mandatory.
    A hearing on S. 454, comparable to H.R. 1811, took place on 
May 9th, 2002, before the Senate Energy and Natural Resources 
Committee's Subcommittee on Public Lands and Forest, and our 
position remains unchanged on both that bill and on 1811. The 
Administration strongly supports PILT and the RRS programs and 
views them as high priorities, but the Administration is 
strongly opposed to both because it would--S. 454 and H.R. 
1811--because it would force the Federal Government to either 
raise taxes or cut into other programs that are integral to the 
President's budget.
    The President's 2003 budget request demonstrates our 
commitment to PILT, we believe. The Administration requested 
$150 million for the Fiscal Year 2002 for PILT, and this year 
the Administration is requesting $165 million, an increase of 
$15 million. Despite the budget pressures resulting from the 
events of September 11th and in light of the fact that the 
Department's overall budget for Fiscal Year 2003 was nearly 
unchanged from the prior year, the Department sought a 10 
percent increase over last year's budget for this important 
program because of our commitment to making progress, and we 
fully realize this obligation.
    In addition, while we recognize the importance of the PILT 
program, it should not be viewed in isolation from other 
departmental and Federal programs that will bring benefits to 
counties in the future. Examples include funding provided for 
rural fire assistance and our efforts to work with gateway 
communities on tourism opportunities.
    I would like to note that many of the concerns we have 
expressed regarding the PILT funding has also--was true for the 
RRS funding as well.
    Mr. Kearney. Turning briefly to H.R. 5081, the 
Administration supports the purposes of H.R. 5081 but we must 
oppose this legislation for the same reasons we oppose H.R. 
1811. The legislation seeks to protect local governments 
against the loss of property tax revenue when private lands are 
required by a Federal agency by making the PILT program 
mandatory spending for the next 5 years. The Administration is 
strongly opposed to creating a new mandatory spending category 
to fund the PILT program because again it would force the 
Federal Government to either raise taxes or to cut into other 
programs that are integral to the President's budget.
    With regard to a number of sections of H.R. 5081, the 
Administration supports the concept that the Federal Government 
should pay for the actual cost of land acquisitions including 
some provision for reimbursing counties for lost revenue. While 
the Administration wants to work with the sponsors and the 
Committee on ways to incorporate this theory into the land 
acquisition process in the budget, the Administration has a 
number of concerns with these sections, which in the interest 
of time I will not address in detail.
    We would like to work with the sponsors in the Committee to 
clarify, however, one specific thing, the relationship of PILT 
and the entitlement lands to the one-time payments in order to 
ensure that the units of local government would receive only 
one form of payment or the other for Federally acquired lands.
    This concludes my condensed statement. I would be happy to 
answer any questions that you have.
    [The prepared statement of Mr. Kearney follows:]

    Statement of Chris Kearney, Assistant Secretary for Policy and 
         International Affairs, U.S. Department of the Interior

    Mr. Chairman and members of the Committee, I am pleased to have the 
opportunity to testify today on H.R. 1811 and H.R. 5081, bills that 
would make the Bureau of Land Management's (BLM) Payments-in-Lieu of 
Taxes (PILT) Program and the Fish and Wildlife Service's Refuge Revenue 
Sharing (RRS) Program mandatory. A hearing on S. 454, took place on May 
9, 2002, before the Senate Energy and Natural Resources Committee, 
Subcommittee on Public Lands and Forests. Our position on these bills 
remains unchanged. The Administration strongly supports the PILT and 
RRS programs and views them as high priorities, but the Administration 
is strongly opposed to both S. 454 and H.R. 1811 because it would force 
the Federal Government to either raise taxes or cut into other programs 
that are integral to the President's budget.
Background
    The PILT Act (P.L. 94-565) was passed by Congress in 1976 to 
provide payments to local governments in counties where certain Federal 
lands are located within their boundaries. PILT is based on the concept 
that these local governments incur costs associated with maintaining 
infrastructure on Federal lands within their boundaries but are unable 
to collect taxes on these lands; thus, they need to be compensated for 
these losses in tax revenues. The payments are made to local 
governments in lieu of tax revenues and to supplement other Federal 
land receipts shared with local governments. The amounts available for 
payments to local governments require annual appropriation by Congress. 
The BLM allocates payments according to the formula in the PILT Act. 
The formula takes into account the population within an affected unit 
of local government, the number of acres of eligible Federal land, and 
the amount of certain Federal land payments received by the county in 
the preceding year. These payments are other Federal revenues (such as 
receipts from mineral leasing, livestock grazing, and timber 
harvesting) that the Federal Government transfers to the counties.
    The President's Fiscal Year 2003 budget request demonstrates our 
commitment to PILT. The Administration requested $150 million for 
Fiscal Year 2002 for PILT, and this year the Administration is 
requesting $165 million, an increase of $15 million. Despite the budget 
pressures resulting from the events of September 11th, and in light of 
the fact that the Department's overall budget for Fiscal Year 2003 was 
nearly unchanged from the prior year, the Department sought a ten 
percent increase over last year's budget for this important program 
because of our commitment to making progress and we fully realize this 
obligation. In addition, while we recognize the importance of the PILT 
program, it should not be viewed in isolation from other departmental 
and Federal programs that bring or will bring benefits to counties in 
the future. Examples include funding provided for rural fire assistance 
and our efforts to work with Gateway Communities to increase tourism 
opportunities.
    The Refuge Revenue Sharing Act (16 U.S.C. 715s) as amended, was 
enacted in 1935. It authorizes payments to be made to offset tax losses 
to counties in which U.S. Fish and Wildlife Service (FWS) fee and 
withdrawn public domain lands are located. The original Act provided 
for 25 percent of the net receipts from revenues from the sale or other 
disposition of products on refuge lands to be paid to counties. The Act 
was amended in 1964 to make it more like the payment-in-lieu of tax 
program. The new provisions distinguished between acquired lands that 
are purchased by the Service and lands that are withdrawn from the 
public domain for administration by the Service. For fee lands, the 
counties received 3/4 of 1 percent of the adjusted value of the land or 
25 percent of the net receipts, whichever was greater, with the value 
of the land to be reappraised every 5 years. They continued to receive 
25 percent of the net receipts collected on the withdrawn public domain 
lands in their county.
    The Act was amended again in 1978 in order to provide more 
equitable payments to counties with lands administered by the Service 
within their boundaries. The method used to determine the adjusted cost 
of the land acquired during the depression years of the 1930's (using 
agricultural land indices) resulted in continuing low land values 
compared to the land prices that existed in 1978. Also, other lands 
that were purchased during periods of inflated land values were found 
to be overvalued. The Congress decided that the payments did not 
adequately reflect current tax values of the property. It also 
recognized that national wildlife refuges are established first and 
foremost for the protection and enhancement of wildlife and that many 
produce little or no income that could be shared with the local county.
    In the 1978 amendments, Congress chose to distinguish between lands 
acquired in fee and lands withdrawn from the public domain, by 
recognizing that the financial impact on counties tends to be greater 
when lands are directly withdrawn from the tax rolls, rather than when 
the refuge unit is created out of the public domain and has never been 
subject to a property tax. The formula adopted then, and still in 
effect, allows the Service to pay counties containing lands acquired in 
fee the greater of: 75 cents per acre, 3/4 of 1 percent of the fair 
market value of that land, or 25 percent of the net receipts collected 
from the area. If receipts are insufficient to satisfy these payments, 
appropriations are authorized to make up the difference.
    Counties can use funds for any government purpose, and pass through 
the funds to lesser units of local government within the county that 
experience a reduction of real property taxes as a result of the 
existence of Service fee lands within their boundaries. Counties with 
Service lands that are withdrawn from the public domain continue to 
receive 25 percent of the receipts collected from the area and are paid 
under the provisions of the PILT Act.
    I would like to note that many of the same concerns we have 
expressed regarding PILT funding hold true for RRS funding as well. 
Moreover, we believe that it would be prudent to take another look at 
the PILT and RRS formulas, authorization levels and other issues, 
including those raised in the Department's report to Congress dated 
January 11, 1999, before considering such a significant action as 
converting these payments to permanent mandatory payments.
 H.R. 5081
    The Administration supports the purposes of H.R. 5081, but we must 
oppose this legislation for the same reasons that we oppose H.R. 1811. 
This legislation seeks to protect local governments against the loss of 
property tax revenue when private lands are acquired by a Federal 
agency by making the PILT program mandatory spending for the next five 
fiscal years. The Administration is strongly opposed to creating a new 
mandatory spending category to fund the PILT program because it would 
force the Federal Government to either raise taxes or cut into other 
programs that are integral to the President's budget.
    With regard to the other sections of H.R. 5081, the Administration 
supports the concept that the Federal Government should pay for the 
actual cost of land acquisitions, including some provision for 
reimbursing counties for lost tax revenue. While the Administration 
wants to work with the sponsors and with the Committee on ways to 
incorporate this theory into the land acquisition process and budget, 
the Administration also has some concerns with these sections.
    We believe the provision that allows retroactive selections could 
expose the United States Treasury to a potentially enormous liability. 
If every unit of local government where Federal land acquisitions have 
occurred since September 30, 1998, were to select a one-time lump sum 
payment in lieu of PILT payments, the immediate liability for Federal 
taxpayers could run into the hundreds of millions of dollars.
    The Administration also wants to work with the sponsors and the 
Committee to clarify the relationship of PILT and entitlement lands to 
the one-time payments, in order to ensure that units of local 
government would receive only one form of payment or the other for 
Federally acquired lands.
    We believe it is important to note for Members of Congress that 
this legislation could dramatically increase the initial costs of 
acquiring land for the Federal Government. This will negatively impact 
the ability of Congress and the Administration to acquire high-priority 
lands. While the Administration has not estimated the amount of 
additional money that would be needed to fund the principal for new 
trust funds associated with land acquisitions, it is safe to say that a 
dramatic increase in funding would be required in order to accomplish 
the same level of acquisition activity provided by the Interior 
Appropriations Act for Fiscal Year 2002. If acquisition funding were to 
remain level, this legislation would curtail the ability of the Federal 
Government to acquire fee land.
    The Administration appreciates having the opportunity to review and 
comment on this legislation. Unfortunately, the bill raises significant 
budget and policy issues that remain unaddressed and the Administration 
must oppose the bill as drafted. We would like to work with the 
sponsors and the Committee to find an approach that accomplishes the 
goals of the bill without increasing the demands on the budget.
Conclusion
    The Administration recognizes that these payments are important to 
local governments, often comprising a significant portion of their 
operating budgets. Recently, the Secretary signed an MOU with the 
President of the National Association of Counties under which they plan 
to work closely together on a number of issues including matters 
related to PILT. The PILT and RRS monies have been used for critical 
functions such as local search and rescue operations, road maintenance, 
law enforcement, schools and emergency services. These activities are 
often undertaken in support of people from around the country who visit 
or recreate on Federal lands. The BLM and the FWS look forward to 
continuing to work cooperatively with the communities on these 
important issues.
    Mr. Chairman, this concludes my prepared statement. I would be 
pleased to answer any questions that you or the other members may have.
                                 ______
                                 
    Mr. McInnis. Thank you, Mr. Kearney. Mr. Davis. Mr. Davis, 
I know that this has been a--because I have known you for 30 
years, I know it is an issue you feel very deeply about. I 
appreciate you making the trip out here and appreciate your 
testimony today. You may proceed.

   STATEMENT OF THE HON. DON DAVIS, COMMISSIONER, RIO BLANCO 
  COUNTY, COLORADO, THE NATIONAL ASSOCIATION OF COUNTIES AND 
                    COLORADO COUNTIES, INC.

    Mr. Davis. Thank you, Mr. Chairman. It is indeed an honor 
for me to appear before your Committee. I am a County 
Commissioner in Colorado. I serve as Chairman of the Public 
Land Steering Committee for Colorado Counties, Incorporated, 
and as First Vice President of the Western Interstate Region of 
the National Association of Counties.
    H.R. 1811, the PILT and Refuge Sharing Permanent Funding 
Act, represents a bipartisan effort to provide an ongoing 
secure source of funding. This legislation introduced in the 
House by yourself, Chairman McInnis, and cosponsored by 
Chairman Radanovich and 24 other Members from both parties 
would permanently fund these two programs so critical to public 
lands counties. It is landmark legislation and should be 
enacted without delay.
    Counties are a general purpose local government that must 
provide public services, both for the Federal employees and 
their families and for the users of Federal lands. These local 
services include law enforcement, search and rescue, 
firefighting, health care, solid waste disposal, road and 
bridge maintenance, et cetera.
    In 1994 Congress amended the PILT formula at the request of 
the National Association of Counties to recognize inflationary 
costs. Unfortunately, in the intervening 8 years no 
Presidential budget has requested nor has any Congress yet 
appropriated the amount authorized under the revised formula.
    NACo and CCI wish to go on record to applaud the Members of 
the House of Representatives for requesting a historic $230 
million for PILT in Fiscal Year 2003. The Interior 
appropriation bill passed just a few days ago. We thank you for 
your strong support.
    However much we are grateful for any increased 
appropriation, we view incremental increases as a stopgap 
measure. PILT should not be seen as just another spending 
program in the Bureau of Land Management, and it should not 
have to compete with worthwhile conservation programs within 
the Interior and Related Agencies appropriation bills.
    In Colorado 56 of the 63 counties contain Federal lands. 
There are a total of 23.6 million entitlement acres of Federal 
lands in Colorado. With annual PILT payments in 2002 of 
approximately $14.5 million, this works out to about 61 cents 
per acre. However, in Rio Blanco County, we have 1.5 million 
acres of Federal land and the PILT payment is $241,554, or 
about 16 cents per acre.
    In Hinsdale County, in the southwestern part of the State, 
the situation is even worse. With 676,515 acres of Federal 
land, their PILT payment was only $62,630, less than 9 cents 
per acre. The 676,000 acres of public land in Hinsdale County 
represents 95 percent of that county. There are only about 
37,000 acres of private land. 305 of 326 miles of county roads 
are located on Federal lands.
    In summer months, the population of Hinsdale County swells 
as much as twentyfold. The influx of recreation-seeking 
visitors creates extreme law enforcement challenges which carry 
commensurate costs. Local property taxes for the 37,000 acres 
of private land average $8.30 per acre compared to the 9 cents 
per acre average for the PILT payment.
    The National Association of Counties also supports the 
permanent funding of the Refuge Revenue Sharing program through 
H.R. 1811. Federal Wildlife Refuge acreage is not automatically 
PILT entitled acreage. In fact, if it was acquired by the Fish 
and Wildlife Service from private property owners, it is not 
covered by PILT. The Refuge Revenue Sharing program is how 
local governments are compensated for this special category of 
Federally owned land, which is tax exempt. This program is 
particularly important in eastern States.
    Thank you for the opportunity to testify.
    [The prepared statement of Mr. Davis follows:]

Statement of The Honorable Don Davis, Commissioner, Rio Blanco County, 
    Colorado, on behalf of The National Association of Counties and 
                        Colorado Counties, Inc.

    Mr. Chairman, and distinguished Subcommittee members, it is an 
honor to appear before you to present this testimony in support of H.R. 
1811. My name is Don Davis, and I am a County Commissioner from Rio 
Blanco County, Colorado. I serve as Chairman of the Public Lands 
Steering Committee of Colorado Counties, Inc., and as first Vice 
President of the Western Interstate Region of the National Association 
of Counties (NACo).
     H.R. 1811, the PILT and Refuge Revenue Sharing Permanent Funding 
Act, represents a bipartisan effort to provide an ongoing secure source 
of funding for the Payment in Lieu of Taxes program. This legislation, 
introduced by my Congressman, Chairman McInnis and co-sponsored by 
Chairman Radanovich and 24 other members of Congress from both parties, 
would permanently fund this program so critical to the communities 
which are surrounded by Federally managed land.
    The Payments in Lieu of Taxes program has a two-fold purpose: (1) 
to help compensate counties ``in lieu'' of property taxes for the tax 
exempt nature of Federally-owned lands; and (2) to help reimburse 
counties for a portion of the costs of local services impacted by the 
activities on and visitors to the public lands.
    Counties are the general purpose local government that must provide 
the local public services both for the Federal employees and their 
families and for the users of Federal lands. These local services 
include law enforcement, search and rescue, fire fighting, health care, 
solid waste disposal, local recreation programs, road and bridge 
maintenance, etc. There are more than 1900 counties nationwide that are 
eligible to receive PILT.
    In 1976, Congress enacted, and President Ford signed, the Payments 
in Lieu of Taxes Act. It was sponsored by Rep. Frank Evans of Colorado. 
This legislation was based upon a key finding of the Congressional 
Public Land Law Review Commission co-chaired by Rep. Wayne Aspinal of 
Colorado and Rep. Mo Udall of Arizona. Under the 1976 PILT formula, 
total payments nationwide averaged about $100 million annually, 
depending upon the level established each year in the appropriation 
process. There was no allowance for inflation.
    In 1994 Congress amended the PILT formula, at the request of the 
National Association of Counties, to recognize inflationary costs. 
Unfortunately, in the intervening eight years, no President has asked 
for, nor has any Congress appropriated, the full amount authorized 
under the revised formula. This lack of secure funding has been 
particularly distressing for rural public land counties like Rio Blanco 
County and Hinsdale County in Colorado. In the PILT formula there is a 
pro rata payment provision to disperse payment when less than full 
payment is provided. This provision adversely affects counties with 
large holdings of public lands that also have low populations. For 
example, one year the payment for Rio Blanco County actually dropped by 
$12,000 (about 8%) even though overall payment nationwide increased. 
NACo supports an amendment to the statutory formula which would, in 
conjunction with permanent full funding, allow the low-population high-
entitlement-acreage counties to realize more of the benefit from PILT. 
However, even absent such an adjustment to the formula, this is an 
inequity that can largely be corrected by the enactment of H.R. 1811.
    In Colorado, 56 out of 63 counties contain Federal lands. There are 
a total of 23.6 million ``entitlement'' acres of Federal lands in 
Colorado, with annual PILT payment in 2002 of approximately $14.5 
million. This works out to about sixty-one cents per acre.
    However, in Rio Blanco County with 1.5 million acres of Federal 
land, the PILT payment was $241,554, or about sixteen cents per acre. 
In Hinsdale County the situation is even worse. With 676,515 acres of 
Federal land their PILT payment was only $62,630, less than nine cents 
per acre.
    The 676,515 acres of public lands in Hinsdale County represents 95% 
of the county. There are only about 37,000 acres of private land. This 
means that 305 miles of the 326 miles of county roads are located on 
Federal lands. In summer months, the population of Hinsdale County 
swells as much as a twenty-fold. The influx of recreation seeking 
visitors creates extreme law enforcement challenges which carry 
commensurate costs. In fact, a former Hinsdale County Sheriff was 
killed on public lands by a poacher. Local property taxes for the 
37,000 acres of private lands averaged $8.30 per acre, compared to the 
nine cents per acre averaged for the PILT payment.
    In Rio Blanco County we have a similar situation. Approximately 500 
miles of the 900 miles of county roads are located on Federal lands. 
The county is impacted by extensive natural resource activities on 
these Federal lands. We have oil and natural gas production, coal 
production, nacholite (or sodium bicarbonate) production, plus 
considerable hunting, fishing and recreation activities. Quite frankly, 
Rio Blanco County cannot adequately keep up with the demand for local 
services. We need your help. Rio Blanco County is also facing the 
future development of the world's richest deposit of oil shale. Shell 
Oil Company is currently operating a research facility in our county 
that looks promising. Development of these critical national resources 
requires extensive infrastructure investment at the local level; 
particularly if the development is going to be done in a manner which 
is sustains important ecological values.
    This year, the state and local governments in Colorado, across the 
west and in fact across the country, face increased fire fighting costs 
due to the high risk of catastrophic forest fires this summer. I am 
concerned that Colorado faces a real threat of more future fires from 
eco-terrorists. We have suffered previous eco-terrorist attacks in 
Eagle County, where a ski lodge was burned, and in Boulder County, 
where a new home was burned. When well-meaning mainstream environmental 
organizations express concern over efforts to reduce fire risk through 
fuel treatment programs outside the wildland urban interface, I fear 
that the more radical fringe groups may initiate eco-terrorist 
activities to stop programs they oppose. In any event, whenever any of 
these fires spread to private lands, suppression becomes a state or 
local responsibility, and a costly one, at that.
    The National Association of Counties also supports fully funding 
the Refuge Revenue Sharing program through H.R. 1811. The acreage in 
wildlife refuges managed by the U.S. Fish and Wildlife Service is not 
automatically PILT entitlement acreage. In fact, if it was acquired by 
the Fish and Wildlife Service from private owners, it is not covered by 
PILT. The Refuge Revenue Sharing program is how local governments are 
compensated for this special category of Federally owned tax-exempt 
land. This program is particularly important in states outside the west 
where most of the wildlife refuges were not carved out of the public 
domain but have been acquired by the Federal Government from private 
landowners. For example, in Fiscal Year 2002, counties in the State of 
Maryland received over $312,000 in Refuge Revenue Sharing, but only 
about $81,000 in PILT. Similarly, Delaware counties received over 
$126,000 in Refuge Revenue Sharing, but only about $2,000 in PILT.
    Some have suggested that PILT does not need to be funded at its 
full authorization because many counties receive payments under 
programs like the Secure Rural Schools and Community Self-Determination 
Act (P.L. 106-393), thus implying that counties are overpaid under 
Federal programs. Please remember the facts:
    1. LThe National Forests have produced billions of dollars of 
revenues to the Federal treasury in recent years. Furthermore, Title II 
projects under P.L. 106-393 will add millions more in badly needed 
revenues for Federal forest restoration projects selected 
collaboratively by Resource Advisory Committees.
    2. LNational forest moneys to counties under P.L. 106-393 are 
dedicated to roads and schools. PILT payments are flexible, 
discretionary general funds, needed to pay for the services counties 
must provide to visitors of these Federal lands and to the lands 
themselves (e.g., public health and safety, search and rescue, solid 
waste treatment and disposal). These two programs serve different, but 
critical functions, yet both relate directly to tax-exempt Federal 
lands.
    3. LP.L. 106-393 Title I and III payments reduce the amount of PILT 
payments received by a county. By operation of the PILT formula, when 
the Federal Government increases its support for roads and schools, it 
reduces its support of the other Federal land-related local services 
counties must provide. For example, our Crook County, Oregon, will see 
its PILT payment drop from $754,022 to $143,659! Baker County from 
$642,721 to $324,249. Umatilla County, Oregon from $349,428 to 
$105,854. In rural areas and where vast stretches of Federal lands are 
located, this is real money that cannot be replaced.
    The uniqueness of both the Payment in Lieu of Taxes (PILT) program 
and of natural resource revenue sharing programs must be explicitly 
recognized and strictly maintained. PILT must not be confused with the 
various revenue sharing programs which are linked to natural resource 
development and usually have strings attached as to their use.
    NACo believes that Congress was correct to enact PILT and Refuge 
Revenue Sharing legislation to compensate counties for the tax-exempt 
status of Federal lands and to help defray some of the local costs 
associated with activities on these lands. As a county official 
actively involved in NACo's efforts to secure equitable funding for 
these programs, I urge you to approve H.R. 1811. This bipartisan 
legislation would provide a much needed and secure level of funding of 
annual PILT payment to public land counties throughout the country.
    Thank you for this opportunity to testify,
                                 ______
                                 
    Mr. McInnis. Thank you, Mr. Davis. I appreciate it.
    Ms. Cable, welcome to the Committee. You come from a 
beautiful State. I appreciate the time you have taken to come 
down, and you may proceed.

  STATEMENT OF LINDA CABLE, CITY ADMINISTRATOR, SWAIN COUNTY, 
   NORTH CAROLINA, ON BEHALF OF THE NATIONAL ASSOCIATION OF 
  COUNTIES AND THE COUNTY COMMISSIONERS ASSOCIATION OF NORTH 
                            CAROLINA

    Ms. Cable. Thank you. I appreciate that also. Mr. Chairman 
and distinguished Subcommittee members, it is indeed a pleasure 
and an honor to present this testimony in support of H.R. 1811, 
the PILT and Refuge Revenue Sharing Permanent Funding Act.
    My name is Linda Cable, and for the last 19 years I have 
served as County Administrator for Swain County, North 
Carolina. Swain County is a relatively small rural county in 
the southern Appalachian Mountains of far western Carolina. 
Most of you know this area as the Great Smokeys. At 81 percent 
our county may well represent the highest Federal locale of any 
jurisdiction in the eastern United States. Of the 339,000 acres 
in Swain County, the U.S. Park Service and U.S. Forest Service 
together own 239,747 of these acres; the Eastern Cherokee 
Indian Reservation, another 29,466; and Tennessee Valley 
Authority, 737,000 acres. Taking away another 4 percent of our 
land is the State of North Carolina Department of 
Transportation rights-of-way and exempt organizations such as 
churches, schools and cemeteries. We are left with a mere 
50,000 acres, or 14 percent of our acreage as our tax base.
    Passage of H.R. 1811 would assure our small county of the 
necessary resources to provide services, not only for the 
citizens of Swain County but to the millions of visitors that 
annually flock to our county to see the Great Smokeys, the most 
visited national park in the United States. Swain County is 
fortunate to have such a beautiful backdrop to our community, 
but is concurrently plagued with the lack of tax base that 
exists due to this huge Federal land control.
    Swain is only one of two counties in North Carolina 
designated as distressed by the Appalachian Regional 
Commission. Further, we are designated a tier one county by the 
State of North Carolina. These designations relate to the 
severely depressed economic condition of our county. 33 percent 
of our citizens live below the poverty rate, and characteristic 
of our extremely steep mountainous terrain, there is very 
little private land that is considered suitable for 
development. Swain County is therefore considered unattractive 
to most industrial job producing prospects.
    Swain is not so different from other small rural counties 
across the Nation, in that we struggle each year to meet the 
needs of our citizens that we serve. The one main difference is 
the exceedingly high percentage of Federal control and the 
resulting sliver of taxable private property. For example, a 1-
cent tax increase brings in only one-third the cost of a new 
ambulance that Swain County needs. In fact, if we could 
rationally and politically tax at the full $1.50 allowed by 
North Carolina law, we would raise less than $5 million, much 
short of the total needed to operate Swain County.
    Most expenditures in our county budget are mandated by 
either the Federal Government or the State government, examples 
being schools, Medicaid, jails and solid waste disposal. The 
Federal and State checks attached to these mandates are 
woefully insufficient. Local governments are left with the 
responsibility of securing the resources to finance these 
mandated services.
    Raising the property tax is not a good solution in a county 
with such a high poverty rate. At some point the local elected 
officials have to be realistic as to what people can pay and 
still feed and shelter their families.
    PILT payments are critically important for the operation of 
local government programs within eligible counties. Permanent 
full funding of PILT payments to counties with Federal land 
holdings is the fair and right thing to do. The Federal 
Government should be as responsible as private property owners 
are expected to be. Private property owners cannot look at 
their annual budgets and decide how much they will appropriate 
to property taxes each year. If that were the case, there would 
be no local governments left standing to implement Federal and 
State mandates.
    There should be no question as to how much these counties 
should be expected to receive each year in PILT payments. These 
payments should be funded at the full formula amounts adopted 
by Congress. It is unfortunate that our local governments 
cannot impose penalty and interest on delinquent PILT payments 
as the Federal Government would do if the situation were 
reversed.
    The fully funded formula allots $445,060 to Swain County. 
Last year we received only $189,128 in PILT payments, just 42 
percent of the amount we were due. The $247,932 we didn't 
receive represents a 7.5 percent local property tax burden. 
PILT payments assist in providing such services as emergency 
response, solid waste disposal and law enforcement for visitors 
to the Federal lands in our county.
    While the Federal Government controls 81 percent of Swain 
County, it contributes a mere 3 percent of our annual revenues. 
Conversely, our tiny 14 percent private property base provides 
35 percent of our annual revenue stream.
    I should clarify and give credit to the Tennessee Valley 
Authority as one of the mentioned Federal landowners. They do 
contribute fully and fairly to the revenue stream. TVA holds 
just 2 percent of the land but contributes 5 percent of Swain 
County's annual revenue.
    In closing, and on behalf of all counties that receive PILT 
payments, I want to express appreciation to those Members of 
Congress who stepped forward last year to restore funding after 
the President's proposed cuts. Without your support, our 
counties would have suffered a devastating loss. I sincerely 
hope you will support H.R. 1811 to solidify this funding stream 
for our counties.
    Thank you for your attention and for the opportunity to be 
here today, Mr. Chairman.
    [The prepared statement of Ms. Cable follows:]

  Statement of Linda Cable, County Administrator, Swain County, North 
  Carolina, on behalf of The National Association of Counties and The 
           County Commissioners Association of North Carolina

    Mr. Chairman, and distinguished Subcommittee Members, it is indeed 
a pleasure and honor to present this testimony in support of H.R. 1811, 
``The PILT and Refuge Revenue Sharing Permanent Funding Act''. My Name 
is Linda Cable. For the past 19 years I have served as County 
Administrator for Swain County, North Carolina. Swain County is a 
relatively small, rural county in the Southern Appalachian Mountains of 
far Western North Carolina. Most of you know this area as the Great 
Smokies. At 81%, our county may well represent the highest Federal 
control of any jurisdiction in the eastern United States. Of the 
339,000 acres in Swain County, the U.S. Park Service and U.S. Forest 
Service together own 239,747 acres, the Eastern Cherokee Indian 
Reservation another 29, 466, and Tennessee Valley Authority 7,337 
acres. Taking away another 4% of our land base held by the State of 
North Carolina Department of Transportation, and by exempt 
organizations such as churches, we are left with a mere 50,000 acres, 
or 14% of total acres, as our tax base.
    Passage of H.R. 1811 would assure our small county of the necessary 
resources to provide services not only for the citizens of Swain 
County, but to the millions of visitors that annually flock to our 
county to see the Great Smokies, the most visited National Park in the 
United States. Swain County is fortunate to have such a beautiful 
backdrop to our community, but is concurrently plagued with the lack of 
tax base that exists due to this huge Federal land control.
    Swain County is one of only 2 counties in North Carolina designated 
as ``distressed'' by the Appalachian Regional Commission. Further we 
are designated a ``tier one'' county by the State of North Carolina. 
These designations relate to the severely depressed economic condition 
of our county. Thirty-three percent of our citizens live below the 
poverty rate. Characteristic of our extremely steep mountainous 
terrain, there is very little private land that is considered suitable 
for development. Swain County is, therefore, considered unattractive to 
most industrial, job-producing prospects.
    Swain County is not so different than other small, rural counties 
across the nation, in that we struggle each year to meet the needs of 
the citizens that we serve. The one main difference in Swain County is 
the exceedingly high percentage of Federal control, and the resulting 
sliver of taxable private property. For instance, a one cent tax 
increase brings in only 1/3 the cost of the new ambulance that we need. 
In fact, if we could rationally and politically tax at the full $1.50 
allowed by NC law, we would raise less than $5 million, much short of 
the total needed to operate Swain County. Most expenditures in our 
county budget are mandated by either the Federal Government or the 
state government, examples being schools, Medicaid, jail and solid 
waste disposal. The Federal and state checks attached to these mandates 
are woefully insufficient. Local governments are left with the 
responsibility of securing the resources to finance these mandated 
services.
    Raising the property tax rate is not a good solution in a county 
with such a high poverty rate. At some point the local elected 
officials have to be realistic as to what people can pay, and still 
feed and shelter their families.
    PILT payments are critically important for the operation of local 
government programs within eligible counties. Permanent, full funding 
of PILT payments to counties with Federal land holdings is the ``fair'' 
and ``right'' thing to do. The Federal Government should be as 
responsible as private property owners are expected to be. Private 
property owners cannot look at their annual budgets and decide how much 
they will ``appropriate'' to property taxes each year. If that were the 
case, there would be no local governments left standing to implement 
Federal and state mandates. There should be no question as to how much 
these counties should expect to receive each year in PILT payments. 
These payments should be funded at the full formula amounts adopted by 
Congress. It is unfortunate that our local governments can't impose 
penalties and interests on delinquent PILT payments, as the Federal 
Government would do if the situation were reversed.
    The fully funded formula allots $445,060 to Swain County. Last year 
we received only $189,128 in PILT payments, just 42% of the amount we 
were due. The $247,932 we didn't receive represents a 7.5% local 
property tax burden. PILT payments assist in providing services such as 
emergency response, solid waste disposal and law enforcement for 
visitors to the Federal lands in our county.
    While the Federal Government controls 81% of Swain County, it 
contributes a mere 3% of our annual revenues. Conversely, our tiny 14% 
private property base provides 35% of our annual revenue stream. I 
should clarify and give due credit that the Tennessee Valley Authority, 
as one of the mentioned Federal land owners, does contribute fully and 
fairly to our revenue stream. TVA holds just 2% of the land but 
contributes 5% of Swain County's annual revenue.
    In closing, and on behalf of all counties that receive PILT 
payments, I want to express appreciation to those Members of Congress 
who stepped forward last year to restore funding after the President's 
proposed cuts. Without your support our counties would have suffered a 
devastating loss. I sincerely hope you will support H.R. 1811 to 
solidify this funding stream for our counties.
    Thank you for your attention
                                 ______
                                 
    Mr. McInnis. Thank you, Ms. Cable.
    Mr. McInnis. Mr. Radanovich, why don't you give your 
opening remark very quickly before we go to Mr. Wallace, and 
then we will go to Wallace and I will recognize Mr. Udall on 
this, go back to this.

STATEMENT OF THE HON. GEORGE P. RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Thank you, Mr. McInnis. I appreciate your 
setting up this joint hearing. I think it is valuable in the 
discussions we are having on these bills. Thank you for 
considering this legislation of the Property Tax Endowment Act, 
which is H.R. 5081, today. I appreciate the opportunity to 
speak on behalf of my bill and to hear witnesses' testimony on 
this important piece of legislation.
    Mr. Chairman, over 1400 local governments in our Nation 
face losses in the revenue stream when Federal land management 
agencies acquire private land. These local governments lose 
their tax base while the demand for infrastructure such as 
roads, emergency services and waste management often increases. 
Unfortunately, the payment to counties under payment in lieu of 
taxes, or PILT, does not increase.
    In my proposed legislation, the Property Tax Endowment Act 
will assure that a constant revenue stream to local government 
would occur. When the Federal land management agencies that 
oversee PILT, the Forest Service, the National Park Service, 
Fish and Wildlife, and Bureau of Land Management, acquire 
private land and property, they would be required to deposit 
funding with the local government to ensure that the annual 
proceeds would offset permanent loss of the tax base.
    My proposal does not adversely affect PILT, but the 
legislation guarantees that current PILT payments are not 
impacted negatively. PILT would be fully funded through the 
year 2007 under my legislation.
    Additionally, though, the bill would exempt acquired lands 
from ever becoming entitlement acres under PILT to prevent 
double payments. It would also provide payments to local 
governments for the values of mines, ranches, farms and other 
businesses that may be acquired. The value of these lands, 
except for their acreage, is not reflected in the current PILT 
formula.
    Precedent for H.R. 5081 exists. Congress has provided 
payment to local governments for high-profile acquisition cases 
such as Redwoods National Park, Tahoe Basin and the New World 
Mine. My legislation would assure that payments to offset a 
lost tax base would occur in all Federal acquisitions, not just 
those with high profile status. Thus, the bill brings equity to 
local governments throughout the Nation.
    Federal land acquisitions occur frequently. About $530 
million is proposed for acquisitions in the Fiscal Year 2003 
budget. We should move quickly to provide farmers with and--
excuse me. We should move quickly to provide fairness and 
equity to local governments when the Federal Government 
acquires property in their jurisdictions. Local governments 
deserve revenue assurance, and it is sound public policy to 
provide appropriate offsets at the time of this purchase.
    In closing, Mr. Chairman, I want to thank you again for 
holding this hearing today and look forward to testimony from 
my constituent Brent Wallace.
    [The prepared statement of Mr. Radanovich follows:]

   Statement of The Honorable George Radanovich, a Representative in 
                 Congress from the State of California

    Mr. Chairman, thank you for considering my legislation, the 
Property Tax Endowment Act, H.R. 5081, today. I appreciate the 
opportunity to speak on behalf of my bill and to hear witness testimony 
on this important piece of legislation.
    Mr. Chairman, over 1,400 local governments in our nation face 
losses in their revenue stream when Federal land management agencies 
acquire private land. These local governments lose their tax base, 
while the demand for infrastructure such as roads, emergency services 
and waste management often increases. Unfortunately, the payment to 
counties under the Payment in Lieu of Taxes, or PILT, does NOT 
increase.
    My proposed legislation, the Property Tax Endowment Act, will 
assure that a constant revenue stream to local government would occur. 
When the Federal land management agencies that oversee PILT--the Forest 
Service, National Park Service, Fish and Wildlife Service, and Bureau 
of Land Management--acquire private land and property, they would be 
required to deposit funding with the local government to ensure the 
annual proceeds would offset the permanent loss of tax base.
    My proposal does not adversely affect PILT. The legislation 
guarantees that current PILT payments are not impacted negatively. PILT 
would be fully funded through the year 2007 under my legislation. 
Additionally, the bill would exempt acquired lands from ever becoming 
entitlement acres under PILT--to prevent double payments. It would also 
provide payment to local governments for the value of mines, ranches, 
farms, and other businesses that may be acquired. The value of these 
lands, except for their acreage, is not reflected in the current PILT 
formula.
    Precedent for H.R. 5081 exists. Congress has provided payments to 
local governments for high profile acquisition cases such as the 
Redwoods National Park, Tahoe Basin and the New World Mine. My 
legislation would assure that payments to offset lost tax base would 
occur in all Federal acquisitions, not just those with high profile 
status. Thus, the bill brings equity to local governments throughout 
the nation.
    Federal land acquisitions occur frequently, and about $530 million 
is proposed for acquisitions in the Fiscal Year 2003 budget. We should 
move quickly to provide fairness and equity to our local governments 
when the Federal Government acquires property in their jurisdictions. 
Local governments deserve revenue assurance, and it is sound public 
policy to provide appropriate offsets at the time of purchase.
    In closing, Mr. Chairman, I thank you again for holding this 
hearing today, and I look forward to working with you on H.R. 5081.
                                 ______
                                 
    Mr. McInnis. Thank you, Mr. Chairman.
    Mr. Wallace.

  STATEMENT OF BRENT WALLACE, COUNTY ADMINISTRATOR, TUOLUMNE 
                   COUNTY, SONORA, CALIFORNIA

    Mr. Wallace. Thank you, Mr. Chairman, and Honorable 
Chairman and members of the Committee. Actually, I will defer 
much of what I had to say with regard to H.R. 1811, because 
many of the examples that have been given by--from Colorado and 
North Carolina are exactly the same kinds of issues that apply 
to Tuolumne County and much of the rural county portion of 
California.
    Tuolumne County offers some of the very best to the Nation. 
It is 58 percent of the Yosemite National Park and 900 square 
miles of the National Forest. We serve millions of visitors 
from across the Nation and international visitors each year.
    PILT funding in and of itself is a very important part of 
our county budget. There are two aspects of PILT that I would 
pause to say create a problem, and that is the continued 
discussion--the deliberations each year and the unknowns that 
are out there of how much money will come forward.
    With regard to those specifically and in brief to H.R. 
5081--and I would stop here first and say our county board of 
supervisors has placed a priority on 1811, but we are in 
support of both bills. With regard to H.R. 5081, that is--we do 
not consider it a substitute for H.R. 1811. Section 2 provides 
temporary relief to local government, while passage of H.R. 
1811 will allow section 2 of H.R. 5081 to be removed from the 
bill.
    Mr. Wallace. Under H.R. 5081, local governments would have 
the option of receiving compensation for all properties 
acquired by the Forest Service, the Bureau of Land Management, 
National Park Service and the Fish and Wildlife Service 
equivalent to the property taxes assessed at the time of the 
acquisition. County governments currently lose valuable 
revenues when the Federal Government acquires land. The option 
to establish an endowment will reduce the opposition of local 
governments toward land acquisitions.
    H.R. 5081 will limit future PILT payments. If enacted, 5081 
will allow the Federal Government to meet its local government 
obligations from an endowment fund rather than PILT 
appropriations, and H.R. 5081 provides counties with the 
flexibility to receive funding through the traditional PILT or 
through an endowment method, but not both, as I understand the 
legislation.
    And H.R. 5081 believes that those counties such as my own 
that are capped under PILT formula, once full funding has been 
achieved under PILT, future Federal land acquisitions would not 
benefit Tuolumne County and more than 1,400 other counties 
across the Nation. So there would be no incentive for a PILT-
capped county to support additional Federal land purchases.
    Though PILT funding has increased in recent years, and we 
thank the members of the Committee for their past support, the 
current resources do not meet the need of providing services to 
Federal lands. PILT and 1811 and 5081 would go a long way in 
easing the financial responsibilities borne by counties for 
providing public safety, housing, environmental and 
transportation services to Federal employees and their families 
as well as to users of the public lands. So on behalf of the 
County Board of Supervisors for the County of Tuolumne, I would 
encourage your support both of both H.R. 1811 and 5081. Thank 
you, Mr. Chairman.
    [The prepared statement of Mr. Wallace follows:]

 Statement of C. Brent Wallace, County Administrator, Tuolumne County, 
             Sonora, California, on H.R. 1811 and H.R. 5081

    Honorable Chairmen and Committee Members, thank you for the 
invitation to appear before you and provide testimony regarding H.R. 
1811 and H.R. 5081.
    As a rural County Administrator for the past sixteen years, I have 
been employed in three California Counties where the majority of the 
land within each county is publicly owned. I have a thorough 
understanding of the relationship between the Federal Government land 
management and funding practices and how those practices affect local 
government. In the past few years there has been an attempt by the 
Department of the Interior to work in consultation and cooperation with 
local government. This effort has been accepted and welcomed by all 
counties. A further demonstration of the commitment to counties by the 
Federal Government would be the adoption and signature of both H.R. 
1811 and H.R. 5081 legislation.
    Tuolumne County, with more than 76% of its twenty-two hundred 
square miles of land under Federal ownership, offers some of the very 
best to the nation. More than 50 percent of Yosemite National Park and 
more than 900 square miles of the Stanislaus National Forest are 
contained within its boundaries. The County serves millions of national 
and international visitors each year. The full and continuous funding 
of Payments In Lieu of Taxes (PILT) provide certain levels of local 
funding assurance that enables the County to provide basic services to 
our visitors. Our local government meets its basic mandated funding 
obligations before it may engage in discretionary spending. We believe 
the Federal Government should follow the same practice and fully fund 
PILT as a mandatory program, before prioritizing funding for 
discretionary programs.
    There is no question that PILT funding is an essential portion of 
the Tuolumne County budget. There are two aspects of PILT that create 
difficult budget problems at the local level. First, is the uncertainty 
of the amount of funds to be allocated for PILT each year. The intent 
of PILT was, as I understand the historical legislation, to provide a 
stable payment to local government for services provided by local 
government to Federal lands that are not subject to local taxes. The 
total amount of the Federally owned land has not decreased over time. 
It has increased. The local government costs associated with that land 
increase each year. Yet, the amount of the payment has varied year to 
year based upon Federal budget deliberations. The lack of a consistent 
appropriation creates guesswork in local budget preparation. Second, 
PILT does not cover the actual cost of providing local services to 
Federally owned land.
    As forest fires throughout the west continue to burn, the costs to 
all levels of government increase each day that a fire remains 
uncontrolled and new fires begin. The Tuolumne County Fire Department 
is often one of the first responders to a fire in the National Forest. 
Last year two moderate sized fires, in the National Forest, of less 
than 26,000 acres combined in our County cost more than $150,000 in 
actual staff and equipment time. The total of the indirect costs (Fire 
and Sheriff Dispatchers, Emergency Management staff, medical staff on 
standby, cleanup efforts, etc.) will exceed $200,000. I cannot imagine 
the costs associated with the fires for this summer to the counties in 
Colorado, Arizona and Oregon. We have submitted reimbursements for some 
of our costs for last summer and will consider ourselves fortunate if 
we receive $40,000. Additionally, a fire engine was totally destroyed 
in a burn over. A fire engine costs $250,000. That loss is not 
reimbursable. It is now virtually impossible to afford insurance for 
safety vehicles after the events of September 11.
    Tuolumne County is also the first responder for Search and Rescue 
Operations. Last year a hiker was rescued in the Emigrant Basin 
National Wilderness area. These kinds of search and rescue operations 
are routine and exceedingly expensive. The use of a helicopter can cost 
$1,500 per hour. Our Search and Rescue Unit found the hiker and brought 
him to the local county hospital for treatment. Hard dollar County cost 
for this rescue from Federal land was $15,000. None of this is 
reimbursable.
    Hikers and campers on Federal land are frequently injured and 
require special medical attention. A common injury is a rattlesnake 
bite. If the Federally owned rattlesnake is wise enough to bite a fully 
insured person there is no cost to the County. If however, that 
Federally owned snake bites someone without insurance, the cost is 
absorbed by the County General Hospital. Injections for rattlesnake 
bites now cost $1,720 per box, with as many as eight boxes needed to 
treat the average patient. While there may be a research grant out 
there somewhere for the education of snakes for the selection of the 
correct, or insured, rattlesnake bite victims--it is probably more 
efficient and less costly for the Federal Government to continue to 
treat people through the full funding of PILT.
    The major uses of PILT in Tuolumne County are as follows:
    <bullet> LThe maintenance and repair of County streets, roads and 
highways. The County maintains many miles of roadways that transport 
millions of visitors to campgrounds, parks, ski areas and numerous 
recreational facilities and areas offered on Federal lands.
    <bullet> LThe provision of emergency medical care through the 
County Ambulance Response Program and for health care at the General 
Hospital.
    <bullet> LThe County's response to the multitude of environmental 
documents produced by Federal agencies with regard to projects and 
programs on Federal land.
    <bullet> LThe mutual aid responses of the County law enforcement 
departments and housing of those placed into custody in the County 
jail.
    The County of Tuolumne is in support of both H.R. 5081 and H.R. 
1811. However, the priority of the two bills is H.R. 1811.
    <bullet> LH.R. 5081 should not be a substitute for H.R. 1811. 
Section 2 provides temporary relief to local government, while passage 
of H.R. 1811 will allow Section 2 of H.R. 5081 to be removed from the 
bill.
    <bullet> LUnder H.R. 5081, local governments would have the option 
of receiving compensation for all properties acquired by the Forest 
Service, Bureau of Land Management, National Park Service and the Fish 
and Wildlife Service equivalent to the property taxes assessed at the 
time of the acquisition. H.R. 1811 benefits only those lands entitled 
to PILT. Some land acquisitions are not subject to PILT. County 
governments currently lose valuable revenues when the Federal 
Government acquires land. The option to establish an endowment will 
reduce the opposition of local governments toward land acquisitions.
    <bullet> LH.R. 5081 will limit future PILT obligations. Many land 
acquisitions currently increase the PILT obligations. If enacted, H.R. 
5081 will allow the government to meet its local government obligations 
from an endowment fund rather than PILT appropriations.
    <bullet> LH.R. 5081 provides counties with the flexibility to 
receive funding through the traditional PILT or through an endowment, 
but not both. Lands classified as entitlement acres will receive the 
traditional PILT. Lands subject to an endowment will be paid through 
the endowment.
    <bullet> LH.R. 5081 benefits those counties, such as my own, that 
are capped under the PILT formula. Once full funding has been achieved 
under PILT, future Federal land acquisitions will not benefit Tuolumne 
County and more than 1,400 other counties. Under H.R. 5081 Tuolumne 
County would have the ability to use the endowment method to maintain 
the tax benefit of that property. Otherwise, the County would actually 
lose assessed value with no gain in PILT. There is no incentive for a 
PILT- capped county to support additional Federal land purchases.
    The California State Association of Counties and the Regional 
Council of Rural Counties, representing the interests of all California 
counties, has long advocated full funding for PILT. Though PILT funding 
has grown in recent years, and we thank the members of the Committee 
for their past support, current resources do not meet the cost of 
providing services to Federal lands. PILT funding at the full 
authorized level would go a long way in easing the financial 
responsibilities borne by counties for providing public safety, 
housing, environmental and transportation services to Federal employees 
and their families as well as to users of public lands.
    On behalf of the Tuolumne County Board of Supervisors I would 
encourage you to support both H.R. 1811 and H.R. 5081.
                                 ______
                                 
    Mr. McInnis. Thank you, Mr. Wallace.
    Mr. Udall, before I yield to you, I note that you are an 
original cosponsor. You signed our colleague letter, and I 
appreciate very much your support.
    Mr. Udall, you may proceed.

 STATEMENT OF THE HON. TOM UDALL, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW MEXICO

    Mr. Tom Udall. Thank you, Mr. Chairman. I want to applaud 
you and Chairman Radanovich for this piece of legislation. I 
think this is a good solid piece of legislation. It is 
something that is long overdue in the West. Let me say that for 
the counties in my Congressional district and I think many 
counties around the western United States, these PILT monies 
are absolutely crucial to operate county government, to be able 
to give county services and to really run a viable county 
government, and we need to do everything we can as soon as 
possible to get them up to full funding.
    So I am just here to lend my support in a bipartisan way, 
and once again congratulate Chairman Radanovich and Chairman 
McInnis for their leadership on this, and thank you, members of 
the panel, for being here today. Thank you.
    I yield back any remaining time.
    Mr. Radanovich. [presiding] Would each of you tell us the 
impact this legislation would have on the counties?
    Ms. Cable. Certainly. I will be glad to speak on that. The 
impact to Swain County would be the increase in revenue that I 
shared with you earlier, and it would mean like a 13.7 percent 
tax increase that our citizens would not have to bear if we 
were fully funded on an annual basis.
    Mr. Davis. Well, in Rio Blanco County, it would mean an 
extra approximately $150,000, which will probably be put into 
our road and bridge area because of the extreme increase of the 
energy industry in our county, and we are having a lot of road 
and bridge problems and need to address those. It would have--
it would be a beautiful help.
    Mr. Wallace. It would mean more than a $400,000 a year 
increase for Tuolumne County, which would go directly to fire 
protection for areas surrounding and inside of the actual 
National Forest areas and adjacent to Yosemite National Park, 
and it would also go for roadway improvements.
    Mr. Radanovich. Mr. Kearney, would you tell us why there is 
opposition to this?
    Mr. Kearney. I think, Mr. Chairman, there is support, there 
is strong support by the Administration to work with the 
counties to maximize the ways in which the PILT program can 
benefit them. Before I answer that direct question, let me give 
you a couple of examples of things that we are trying to do 
within the current budgetary constraints we find ourselves.
    We have entered into recently an MOU, the Secretary has, 
with the National Association of Counties. We are committed to 
work on a range of issues, among them PILT. I think we have a 
very good beginning dialog there. We have recently taken 
administrative steps to accelerate the payments so that this 
year's payments went out in June in order to be in sync with 
the county's budget year. We are going to try to next year do 
that in a way that is even earlier in June so it is even more 
in sync. We have electronic transfer of the payments so that we 
get them to the counties as quickly as we can, and we have a 
Web site that allows us to have an information communication 
flow.
    In addition to that, we have within a budget that was 
completely flat in 2003 compared to 2002 within the confines of 
the President's other priorities of the budget. We managed to 
generate a 10 percent increase in our request for the PILT 
payments this year as opposed to last year, which is one of the 
more significant increases in any program within DOI. So we 
think that our commitment to the PILT program, to NACo and to 
continuing to further that is clear. It is in this particular 
specific environment in which we have a set of budget 
priorities in which we all make choices. The Congress makes 
choices every year, the President has made an array of choices, 
and therefore we have set our priorities as represented.
    So it is in the confines of the priorities that we have 
made. We simply have an array of budget priorities and choices 
that we must make, and within those we have tried to make the 
best that we can with respect to the PILT program.
    Mr. Radanovich. Let me give you my perspective. I am also 
an appropriator and I am on the Interior appropriations. I will 
just tell you what happens every year. Every year we fight for 
a PILT funding increase. Every year there is huge pressure to 
buy more land, and buy more land wins every time. That is what 
has been happening over the years.
    The money that should be--here is how I look at it. I come 
from Pennsylvania. I helped facilitate legislation my last 
couple years there that doubled the in lieu of tax payment for 
Pennsylvania for the Game Commission and for the Forest Service 
and State. We pay $1.20 an acre flat fee. It is part of their 
budget. The Game Commission has to cough it up and pay it to 
the communities.
    In my view, you know, this legislation is a step in the 
right direction, but it ought to be a flat fee. If the Federal 
Government is going to continue to purchase land in a huge 
third of this country, then we have to do our share of making 
sure there are roads and bridges and other amenities in those 
areas where people live. And in my view, it is a road we need 
to go down. And we need--you know, I guess I was appalled when 
I got here in this complicated formula of PILT. I had CRS 
people over. They don't understand it. It is such a complicated 
formula that we ought to--in my view, we ought to scrap it, and 
we ought to pay a buck an acre, start with a buck an acre and 
just pay a buck an acre, and that in my view would be a fair--
everybody would know what they were getting. It should be a 
part of the budgets.
    I hate to say that with the two of my members having 
legislation that is helpful, but it is a step in the right 
direction, but what happens every year is in the battle for the 
dollars, buying land beats you. That is where it goes, and as 
we continue to buy, in my view, the Federal Government has been 
irresponsible in not paying its taxes. If we want to own the 
land, that is fine, but we have to pay our taxes, and I think 
that is a national debate we need to have.
    This legislation would be very helpful to give you more--
both of these bills would help with consistency and improved 
payment, but that is historically what has happened. We lose in 
the battle of purchasing land. The pressure to purchase land is 
immense.
    Mr. Kearney. I understand that.
    Mr. Radanovich. OK. I guess that will complete this part of 
the hearing, and we are going to take a break for voting, or do 
we--
    OK. We are going to--I thank the witnesses on the third 
panel for their insights and members for their questions, and 
members have some additional questions for the witnesses and we 
ask that you respond to those in writing. The hearing record 
will be held open for 10 days for those responses.
    This panel will be dismissed.
    Mr. Radanovich. The last on the agenda is H.R. 5032. Due to 
a scheduling conflict, Mike Thompson, the sponsor of the bill 
will not be able to attend today's hearing, but has asked that 
we submit his opening statement in the record. Hearing no 
objections, so ordered.
    Mr. Radanovich. Ms. Kimbell, if you would join us, and 
please proceed with your testimony quickly so I can go vote.

STATEMENT OF ABIGAIL KIMBELL, ASSOCIATE DEPUTY CHIEF, NATIONAL 
                         FOREST SYSTEM

    Ms. Kimbell. Thank you. I would like to provide some 
comments on the land conveyance on the Mendocino National 
Forest, H.R. 5032. H.R. 5032 authorizes the direct sale of two 
parcels comprising 120.9 acres of National Forest System lands 
on the Mendocino National Forest in California to the Faraway 
Ranch. Various improvements in facilities have been constructed 
on these lands, and they have lost much of their National 
Forest character.
    This bill provides Faraway Ranch the opportunity to acquire 
these lands associated with their improvements and activities 
and allows the Forest Service to utilize the receipts to 
acquire replacement lands elsewhere in California.
    At time of conveyance, Faraway Ranch will make full payment 
of the fair market value as determined by an appraisal that is 
acceptable to the Secretary and will cover all direct costs 
associated with completing this transaction. We support this 
bill. However, we would like to work with the Subcommittee to 
develop a more workable time line that takes into account the 
time needed to properly complete the survey and appraisal.
    That concludes my comments. I would be happy to answer 
questions.
    Mr. Radanovich. Being we have a lack of members here to ask 
questions, we will dispense with questions. We want to thank 
you. I want to thank all the witnesses from today's hearings 
and members for their questions. The members of the 
Subcommittees may have some additional questions for the 
witnesses, and we ask you to respond to those in writing. The 
hearing record will be open for 10 days for those responses.
    If there is no further business before the Subcommittees, I 
again thank the members of the Subcommittees and our witnesses. 
The Subcommittees stand adjourned.
    [Whereupon, at 11:52 a.m., the joint Subcommittees were 
adjourned.]


    [Additional information submitted for the record follows:]

    [The prepared statement of Mr. Gilchrest follows:]

       Statement of The Honorable Wayne T. Gilchrest, Chairman, 
      Subcommittee on Fisheries Conservation, Wildlife and Oceans

    Good morning, I am pleased to join with my colleagues Scott McInnis 
and George Radanovich in reviewing the merits of reforming the Payment 
in Lieu of Taxes Act and the Refuge Revenue Sharing Act and separate 
legislation known as the Outfitter Policy Act.
    Since coming to Congress, the PILT Program and the Refuge Revenue 
Sharing Fund have sparked considerable interest in certain communities 
in my district. For instance, in Dorchester County, locally elected 
officials have long believed that they were entitled to a higher level 
of compensation then they have been receiving under the Refuge Revenue 
Sharing Fund.
    Under current law, Congress has appropriated $17.3 million to the 
refuge fund which represents 52 percent of the Federal payments due to 
eligible counties. A fundamental goal of H.R. 1811 is to fully and 
permanently fund those counties that are affected by lands administered 
by the U.S. Fish and Wildlife Service.
    By the same token, both H.R. 1811 and H.R. 5081 are designed to 
provide increased annual payments to local governments for the loss of 
property taxes as a result of non-taxable Federal lands. While there is 
great interest in local municipalities in increasing PILT payments, it 
is my hope that we can also learn about the economic benefits of a 
national park, a national forest or a national wildlife refuge. It is 
my understanding that over 500,000 people visit the Blackwater National 
Wildlife Refuge each year and Dorchester County's Department of Tourism 
estimates that refuge visitors spend more than $15 million in the 
county.
    Finally, we will hear testimony on Chairman Hansen's bill to 
establish a guide and outfitter policy for those individuals offering 
their services in national forests, BLM lands, and national wildlife 
refuge units. What is currently occurring is a patchwork of policies 
where outfitters may be faced with inconsistent or unfair rules that 
prevent them from providing quality services to the visiting public. 
There are thousands of acres of Federal lands that are virtually 
inaccessible and if we are going to have Federal policy on outfitters 
then it should be consistent, fair and equally applied across-the-board 
to those individuals who earn a living from this profession. I look 
forward to hearing from our witnesses on this legislation.
                                 ______
                                 
    [The prepared statement of Mr. Hansen on H.R. 2386 
follows:]

    Statement of The Honorable James V. Hansen, a Representative in 
                    Congress from the State of Utah

    Thank you, Mr. Chairman. H.R. 2386, the ``Outfitter Policy Act of 
2001'' is an important piece of legislation for many Americans who want 
greater opportunities enjoy and explore our public lands. Outfitters 
play an important role in facilitating the use and enjoyment of the 
public lands to people who would not generally have the opportunities 
to enjoy these beautiful areas. The purpose of this bill is to 
facilitate recreational opportunities for the use of public lands by 
Americans that want or need the services of outfitters.
    Very few Americans own white water rafting boats, know the best 
fishing spots, or know best how to pack to enjoy a week in Wilderness 
areas. America's outfitters open up opportunities for more people to 
enjoy public lands. However, the regulatory environment that the 
outfitters must operate under is inconsistent over time and it is 
inconsistent across different Federal land management agencies. As a 
result of inconsistency of regulations and rules over time, there is a 
lack of long-range stability which makes it more difficult for 
outfitters to plan for the future and meet the needs of America's 
public by providing quality services.
    Congress has established standards for administering guides and 
outfitters on National Park Service lands. This bill sets similar 
standards for the Forest Service, Bureau of Land Management, U.S. Fish 
and Wildlife Service, and Bureau of Reclamation. It is time we bring 
consistency and predictability to non-profit and for-profit outfitters 
on all public lands.
    While the bill increases regulatory consistency for outfitters, it 
still provides ample flexibility for agencies to adjust use, 
conditions, and permit terms, so they are consistent with agency 
management plans. The bill also provides for the termination of 
outfitter permits if the permittee fails to perform satisfactory 
service to the agency and the American people.
    This bill will help America's outfitters to become more effective 
and efficient as they meet Americans demands for quality experiences on 
our Federal lands. I look forward to hearing the testimony on this 
bill.

                                   - 

</pre></body></html>
